<html>
<title> - H.R. 2385 and H.R. 2488</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                        H.R. 2385 and H.R. 2488
=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION
                               __________

                             July 26, 2001
                               __________

                           Serial No. 107-54
                               __________

           Printed for the use of the Committee on Resources





 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
74-154                       WASHINGTON : 2002
________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001











                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                    JOEL HEFLEY, Colorado, Chairman
      DONNA M. CHRISTENSEN, Virgin Islands Ranking Democrat Member

Elton Gallegly, California            Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Eni F.H. Faleomavaega, American 
Wayne T. Gilchrest, Maryland             Samoa
George Radanovich, California        Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina,                        Mark Udall, Colorado
  Vice Chairman                      Rush D. Holt, New Jersey
Mac Thornberry, Texas                James P. McGovern, Massachusetts
Chris Cannon, Utah                   Anibal Acevedo-Vila, Puerto Rico
Bob Schaffer, Colorado               Hilda L. Solis, California
Jim Gibbons, Nevada                  Betty McCollum, Minnesota
Mark E. Souder, Indiana
Michael K. Simpson, Idaho
Thomas G. Tancredo, Colorado









                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 26, 2001....................................     1

Statement of Members:
    Christensen, Hon. Donna M., a Delegate in Congress from the 
      U.S. Virgin Islands........................................     5
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     2
        Prepared statement on H.R. 2385..........................     4
        Oral statement on H.R. 2488..............................    21
        Prepared statement on H.R. 2488..........................    24
        Resolution 01-12 submitted for the record................    26
    Hefley, Hon. Joel, a Representative in Congress from the 
      State of Colorado..........................................     1
        Prepared statement on H.R. 2385 and H.R. 2488............     2

Statement of Witnesses:
    Fulton, Tom, Deputy Assistant Secretary for Land and Minerals 
      Management, U.S. Department of the Interior, Washington, DC     5
        Prepared statement on H.R. 2385..........................     6
        Oral statement on H.R. 2488..............................    27
        Prepared statement on H.R. 2488..........................    28
    Harja, John A., Manager of Legal Analysis, Governor's Office 
      of Planing and Budget, State of Utah, Salt Lake City, Utah.    36
        Prepared statement on H.R. 2488..........................    38
    Johnson, Dr. Sheldon B., St. George, Utah....................    12
        Prepared statement on H.R. 2385..........................    13
    Larkin, Colonel Thomas, Director, Utah Test and Training 
      Range, U.S. Air Force, Hill Air Force Base, Utah...........    29
        Prepared statement on H.R. 2488..........................    31
    McArthur, Hon. Daniel D., Mayor, City of St. George, Utah....     9
        Prepared statement on H.R. 2385..........................    11
    Young, Larry, Executive Director, Southern Utah Wilderness 
      Alliance, Salt Lake City, Utah.............................    40
        Prepared statement on H.R. 2488..........................    41







  HEARING ON H.R. 2385, TO CONVEY CERTAIN PROPERTY TO THE CITY OF ST. 
 GEORGE, UTAH, IN ORDER TO PROVIDE FOR THE PROTECTION AND PRESERVATION 
  OF CERTAIN RARE PALEONTOLOGICAL RESOURCES ON THAT PROPERTY, AND FOR 
OTHER PURPOSES; AND H.R. 2488, TO DESIGNATE CERTAIN LANDS IN THE PILOT 
   RANGE IN THE STATE OF UTAH AS WILDERNESS, AND FOR OTHER PURPOSES.

                              ----------                              


                        Thursday, July 26, 2001

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 2:01 p.m., in 
Room 1334, Longworth House Office Building, Hon. Joel Hefley 
[Chairman of the Subcommittee] presiding.

  STATEMENT OF HON. JOEL HEFLEY, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Mr. Hefley. The Committee will come to order.
    Good afternoon and welcome to the hearing today. This 
afternoon, the Subcommittee on National Parks, Recreation and 
Public Lands will hear testimony on two bills, H.R. 2385 and 
H.R. 2488. H.R. 2385, introduced by Chairman Hansen, would 
convey certain property to the City of St. George, Utah, in 
order to provide for the protection and preservation of certain 
rare paleontological resources and for other purposes. The 
other bill, H.R. 2385, also introduced by Chairman Hansen, 
would designate certain lands within the Pilot Mountain Range 
in the West Desert Region of the State of Utah as wilderness.
    Mr. Hefley. Based on the submitted testimony, I suspect we 
have quite a discussion on this bill. I want to thank Chairman 
Hansen for introducing these bills, which are obviously very 
important not only to the people of the State of Utah but also 
to many throughout the United States. I would also like to 
thank the Chairman for being here today as well as for all of 
our witnesses, and I look forward to today's testimony.
    We do not have a ranking member present yet, but do you 
have a statement that you would like to make, or we will just 
save the statement until the ranking member arrives.

   Statement of The Honorable Joel Hefley, Chairman, Subcommittee on 
  National Parks, Recreation, and Public Lands, on H.R. 2385 and H.R. 
                                  2488

    Good afternoon and welcome to the hearing today. This afternoon, 
the Subcommittee on National Parks, Recreation, and Public Lands will 
hear testimony on two bills--H.R. 2385 and H.R. 2488.
    H.R. 2385, introduced by Chairman Hansen, would convey certain 
property to the city of St. George, Utah, in order to provide for the 
protection and preservation of certain rare paleontological resources, 
and for other purposes.
    The other bill, H.R. 2385, also introduced by Chairman Hansen, 
would designate certain lands within the Pilot Mountain Range in the 
west desert region of the State of Utah as wilderness. Based on the 
submitted testimony, I suspect we will have quite a discussion on this 
bill.
    I want to thank Chairman Hansen for introducing these two bills, 
which are obviously very important not only to the people of the State 
of Utah, but also to many throughout the United States. I would also 
like to thank the Chairman for being here today as well as all of our 
witnesses. I look forward to today's testimony.
    I now yield to the Ranking Member, Ms. Christensen for an opening 
statement.
                                 ______
                                 
    Mr. Hefley. Mr. Hansen, do you have an opening statement 
you wanted to make?
    Mr. Hansen. Only if you would allow me to, Mr. Chairman. I 
would really appreciate it.
    Mr. Hefley. All right; now, we will go to the witnesses.
    [Laughter.]
    Mr. Hefley. I have dreamed of doing that, Mr. Hansen.
    [Laughter.]
    Mr. Hansen. I can hardly wait until we are in full 
Committee.
    Mr. Hefley. That takes care of any of my legislation, does 
it not?
    [Laughter.]
    Mr. Hefley. Chairman Hansen, would you proceed?
    Oh, wait a minute. We now have our ranking member. Okay; 
she deferred to the Chairman.

 STATEMENT OF HON. JAMES HANSEN, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Hansen. Well, I thank the gentlelady from the Virgin 
Islands and the Chairman for allowing me to say a few words. We 
have two pieces of legislation today. I would like to speak to 
the first one, which is one of the most unique things that I 
think I have seen for an awfully long time. Dr. Johnson and his 
wife are with us; Mayor McArthur is with us from St. George. 
The Doctor is a retired optometrist and had some property out 
east of town and was moving some property. He will tell you 
about it more than I could, but it is a very fascinating story.
    And I guess it was a front loader, and he turned something 
over, and what you see in front of you are these tracks that 
were there. Out of that, surprisingly enough, it has created a 
tremendous interest. There have been people from a number of 
countries who have come to see this. Paleontologists have come 
from all over the world, and it is probably one of the most 
amazing dinosaur tracks we have seen for an awfully long time.
    We are trying to think of a way to do this, expedite it and 
without having further deterioration come to it. What worries a 
lot of us is the deterioration you can see which is kind of a 
problem, because you see it is raised, and wind and rain and 
other things create problems for this. And so, we are trying to 
work out a deal with the Doctor and his wife and the Mayor and 
the City of St. George to come up with a way to have the 
Federal Government help out on something that is very unique 
and probably much more unique than many of the parks and 
monuments that we have, so much more unique than the Grand 
Staircase-Escalante, it is unbelievable, if I may put that in, 
which to me was kind of a problem that they encountered.
    The interesting thing about this is that we are preserving 
a resource for people from all over the world, basically, to 
see something that they could not see, and I think something is 
wrong with America if we miss out on an opportunity such as 
this. I notice some people are criticizing this. Of course, 
there is nothing around here that is not criticized, but using 
legislation passed last Congress as a model, this bill 
authorizes the Secretary of the Interior to purchase up to 20 
acres of land where the footprints and tail dragging were found 
and convey this property to the City of St. George. The city 
will then work with the property owners, Washington County and 
a nonprofit entity to preserve the resources in question and 
keep them open to the public.
    The Secretary of the Interior would be a participant in a 
cooperative agreement with the city and provide assistance to 
help further the protection of the resource. I have noticed 
some people who have said, well, we do not buy parks and give 
them to cities. I think we are hardly doing that, but in 
response to that statement, I challenge anyone to identify 
another property of equal scientific value within the city 
limits of any community anywhere in this country. Just show me 
a piece of property that has 150,000 visitors from 54 countries 
in 18 months charging no admission. I would dare say that they 
have probably had more participation on this particular thing 
than the whole Grand Staircase-Escalante of 1.7 million acres 
that has been there since September 1996. Of course, it is only 
sagebrush, so I guess that is understandable.
    If profit were a motive, I think the Johnson family could 
have bailed out of this a long time ago. But they are good 
Americans who want the public to enjoy it. So that, with the 
Mayor and others, having the financial little bit of help we 
can do them, I think we can have a very good thing that would 
come about for all of the people in Utah, America, and around 
the world who have come to this.
    I do not know, Mayor, how you are going to do this with all 
the kind of visitation I think you are going to have over this 
thing, but I hope it works out, because I think all of a sudden 
that the interest, as I have seen it--I was there right after 
the Doctor had the first one--and from that point to this 
point, you have got a traffic jam in there just of yellow 
school buses with people there bringing kids to see it.
    So it is quite a find, and thank you, Mr. Chairman, for 
allowing me to have a word with you regarding this first piece 
of legislation.
    Would you like the second piece now, or would you like to 
wait?
    Mr. Hefley. Well, I would prefer waiting on this, Mr. 
Chairman.
    [The prepared statement of Mr. Hansen follows:]

  Statement of The Honorable James V. Hansen, Chairman, Committee on 
                        Resources, on H.R. 2385

    Mr. Chairman, I am pleased to welcome the witnesses from Utah this 
afternoon. I want to thank Mayor Dan MacArthur and Dr. Sheldon Johnson 
for coming to Washington to testify on this amazing scientific 
discovery in the community of St. George, Utah.
    As we will hear today, Dr. Sheldon Johnson made an amazing 
discovery in February of last year while conducting site work on a 
piece of property he owned in St. George city. When the Navajo 
sandstone blocks were overturned, there in the stone were dinosaur 
tracks--not imprints, but bumps and taildraggings of unprecedented 
quality. These paleontological discoveries have been touted by 
scientists as some of the most amazing ever discovered. The clarity and 
completeness of the imprints are unparalleled as is the access to the 
prints by the public.
    Since that time more than 150,000 people from all 50 states and at 
least 54 foreign countries have visited the site. This attention was 
welcomed and overwhelming at the same time. There are no visitor 
facilities nor means to protect the imprints that are exposed to the 
elements and traffic and congestion is becoming a serious problem for 
the owners and the city of St. George, Utah.
    In addition to the logistical problems caused by this discovery, 
the preservation of these valuable resources is now in jeopardy. The 
fragile sandstone prints are highly susceptible to the heat and wind of 
the southern Utah climate. Some of the discoveries have already been 
lost to erosion and exposure. Fortunately, the decision was made not to 
turn over any more blocks until a way to protect the resource has been 
established. That is when I was made aware of the needs to provide some 
type of protection to the resource.
    To their credit, the community in St. George has stepped up to do 
what they can to help. A makeshift shelter was constructed over many of 
the exposed imprints to provide some type of temporary protection. 
Volunteers were recruited, but even then, the community is still in 
need of assistance.
    These resources are of great value to the entire world and I 
believe there is a legitimate role for Congress and the Administration 
in protecting this resource.
    Early on, we discussed the possibility that this site might be 
worthy of National Monument designation. When I mentioned that we 
should introduce legislation to at least get the ball rolling, there 
was tremendous response from both the local community, the State of 
Utah and the scientific community about this bill.
    Using legislation passed last Congress as a model, this bill 
authorizes the Secretary of the Interior to purchase up to 20 acres of 
land where the footprints and taildraggings are found, and convey the 
property to the city of St. George, where the City will then work with 
the property owners, Washington County and the nonprofit entity 
preserve the resources in question and keep them open to the public. 
The Secretary of the Interior would be a participant in a cooperative 
agreement with the city and provide assistance to help further the 
protection of the resources.
    I know that the Administration has some concerns with the language 
and I look forward to working with them to resolve any remaining 
concerns.
    I was disappointed to read where one critic of the bill, insinuated 
that this is some type of government giveaway. This person stated: ``We 
don't buy parks and give them to cities.''
    In response, I challenge that person to identify another property 
of equal scientific value laying within the city limits of any 
community anywhere in the country. Show me another piece of private 
property that has had 150,000 visitors from 54 countries in 18 months, 
charging no admission fee. If profit was really a motive, the Johnson 
family could have sold the prints and tracks to private collectors and 
made millions in the process. Instead, they are looking to give back to 
their community, but lack the financial resources to do so. To the city 
leader's credit, they also recognize the value of the resource to the 
community and the nation. They have come to the table as a partner and 
are willing to commit their resources to protect these amazing tracts. 
This is a partnership that will ultimately benefit all of us.
    However, we must act quickly if these national treasures are to be 
saved. The American people deserve the chance to see them and the 
scientific community deserves to be able to study and learn from them 
as well. That will only occur if we move now to protect the resources. 
I hope my colleagues will support this bill and I look forward to the 
witnesses' testimonies today.
                                 ______
                                 
    Dr. Christensen?

  STATEMENT OF HON. DONNA CHRISTENSEN, A DELEGATE IN CONGRESS 
                  FROM THE U.S. VIRGIN ISLANDS

    Mrs. Christensen. Thank you, Mr. Chairman. I apologize for 
being late. I had to come back over from Dirksen.
    Today, the Subcommittee is going to receive testimony on 
two unrelated bills which deal with resources found within the 
State of Utah. Our first bill, as you heard from, I am sure, 
the chair but also chair of the entire Committee, H.R. 2385, 
requires the Secretary of the Interior to buy up to 20 acres 
and give this property to the City of St. George, Utah. The 
private property in question contains dinosaur tracks that were 
discovered last year. The requirement to buy the site and give 
the land to the city is highly unusual.
    This legislation constitutes an appropriation requiring the 
Secretary to take funds appropriated for other purposes and 
spend them on this land acquisition.
    While our second bill, H.R. 2488, deals with a specific 
wilderness in Utah, this is not a new issue for our 
Subcommittee. The Pilot Range Wilderness and the management 
language of H.R. 2488 were part of H.R. 3035, a bill considered 
by the Subcommittee last Congress. That legislation, especially 
its management language, was controversial, and the 
Subcommittee eventually failed to act on that bill.
    Mr. Chairman, the bills before us today raise a number of 
issues that we would want to carefully consider. We appreciate 
the presence of our witnesses and our Chairman and look forward 
to their insights on the legislation before us. Thank you.
    Mr. Hefley. Thank you. Let us go with our first panel: Mr. 
Tom Fulton, deputy assistant secretary for land and minerals 
management for the Department of the Interior.
    Mr. Fulton?

 STATEMENT OF TOM FULTON, DEPUTY ASSISTANT SECRETARY FOR LAND 
    AND MINERALS MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Fulton. Thank you very much, Mr. Chairman, Mrs. 
Christensen, Chairman Hansen, other members of the Committee. I 
appreciate very much the opportunity to testify today in 
support of H.R. 2385, the Virgin River Dinosaur Footprint 
Preserve Act. The bill directs the Secretary of the Interior to 
purchase and then convey to the City of St. George, Utah, 
certain property on which dinosaur tracks have recently been 
discovered.
    The site involved is located on private property within the 
St. George city limits. Discovery of these tracks within the 
city is certainly locally unique, and they represent a 
potential focus for local interpretive efforts. The State of 
Utah has some of the most concentrated and significant 
paleontological resources of any region of the country. The 
administration supports H.R. 2385 with amendments to address, 
among other things, the following concerns.
    The first is deadlines. We understand that if these tracks 
are to be protected, there is a degree of urgency. The bill 
includes schedules that reflect this urgency but do not allow 
enough time, in our view, to accomplish the purchase and 
transfer of the property. We would like to work with members of 
the Committee to establish a schedule that allows sufficient 
time to address valuation and funding issues.
    Second: valuation and methods of acquisition: the bill 
stipulates that the land is to be acquired through purchase, 
even though an exchange might be a viable option. No mention is 
made of a fair market appraisal as the basis for the purchase 
price for this land, although such an appraisal is required of 
any purchase by the United States.
    Third: the bill calls for the conveyance of the land 
designated as the proposed Virgin River Dinosaur Footprint 
Preserve to the City of St. George with the requirement that 
the preserve is used in the manner described in the bill. With 
regard to funding for the city to protect this site, the 
Department would like to suggest the establishment of a 
nonprofit foundation, perhaps involving the State of Utah, 
Washington County and the City of St. George.
    This administration stands ready to work with the 
Subcommittee on language to address these concerns. We 
recognize the significance and importance of these dinosaur 
tracks to the City of St. George and the residents of 
Washington County and the people of the State of Utah. We 
applaud their efforts to secure these tracks and protect them 
from further disturbance and deterioration so that they might 
be shared with the public. We also applaud Dr. and Mrs. 
Johnson's efforts to also assist in that regard.
    This concludes my testimony, and I would be pleased to 
answer any questions members of the Committee might have.
    [The prepared statement of Mr. Fulton follows:]

   Statement of Tom Fulton, Deputy Assistant Secretary for Land and 
   Minerals Management, U.S. Department of the Interior, on H.R. 2385

    Mr. Chairman and members of the subcommittee, I appreciate the 
opportunity to appear before you today to testify in support of H.R. 
2385, the Virgin River Dinosaur Footprint Preserve Act. The bill 
directs the Secretary of the Interior to purchase and then convey to 
the city of St. George, Utah, certain property on which dinosaur tracks 
have recently been discovered.
    The site involved is located on private property which is adjacent 
to a turf farm, a small dump, and a high school, within the St. George 
city limits. The discovery of these tracks within the city of St. 
George is certainly locally unique and they represent a potential focus 
for local interpretive efforts. The State of Utah has some of the most 
concentrated and significant paleontological resources of any region of 
the country.
    The Administration supports H.R. 2385 with amendments to address, 
among others, the following concerns:
    1) Deadlines: We understand that, if these tracks are to be 
protected, there is a degree of urgency. Sections 2(a) and (b) of the 
bill include schedules that reflect this urgency but do not allow 
enough time to accomplish the purchase and transfer of this property. 
We would like to work with the Committee to establish a schedule that 
allows sufficient time to address valuation and funding issues.
    2) Valuation and Methods for Acquisition: The bill stipulates that 
this land be acquired through purchase even though an exchange might be 
a viable option. No mention is made of a fair market appraisal as the 
basis for the purchase price for this land, although such an appraisal 
is a required for any purchase by the United States.
    3) Post-Acquisition Management and Funding: Section 2(b) calls for 
the conveyance of the land designated as the Proposed Virgin River 
Dinosaur Footprint Preserve to the City with the requirement that the 
Preserve is used in the manner described in the bill. The bill 
stipulates that the City must preserve, protect, and make the 
paleontological resources available for educational activities. With 
regard to funding for the City to protect this site, the Department 
would like to suggest the establishment of a non-profit foundation, 
perhaps involving the State of Utah, Washington County, and the City of 
St. George. This foundation would provide for the long term operations, 
maintenance, and educational interpretation of the site. The Department 
of the Interior would provide long term technical assistance.
    The Administration stands ready to work with the Subcommittee on 
language to address these concerns. We recognize the significance and 
importance of these dinosaur tracks to the city of St. George and the 
residents of Washington County. We applaud their efforts to secure 
these tracks and protect them from further disturbance and 
deterioration so that they might be shared with the public.
    This concludes my testimony. I am pleased to answer any questions 
the Committee may have.
                                 ______
                                 
    Mr. Hefley. Thank you very much, Mr. Fulton.
    I forgot to tell the witnesses, and you did a very 
excellent job of it, but there is a little machine in front of 
you there, and we would like for you to keep your testimony to 
5 minutes if possible, and your entire statement will be put 
into the record. Then, we would have an opportunity to ask you 
some questions. So there will come on a little caution light 
and then a red light, and that is when you are supposed to be 
through. And Tom, you are obviously a veteran. You did a great 
job with that.
    Let me ask you: in your testimony, you mentioned a concern 
over the time line that is outlined here in the legislation. Do 
you have a suggestion about what would be a more realistic time 
line?
    Mr. Fulton. Not a specific time line, Mr. Chairman. I think 
what the Department needs is adequate time to look at the 
various aspects of the issue and work with the Committee, with 
the sponsor of the bill in a way that we make sure that all of 
the T's are crossed and the I's are dotted so that we can do 
this in the right way.
    Mr. Hefley. You also mentioned that there is no reference 
here to fair market value. Do you think the bill should be 
amended to include something of that nature in there?
    Mr. Fulton. Yes, I do. I think that our requirements would 
point in that direction, and a fair market valuation would be 
an item in the bill that we would be pleased to work with the 
Committee in getting placed in the bill.
    Mr. Hefley. Do you think that--you know, this is wonderful; 
no question about that. Do we have a responsibility as the 
Federal Government to help protect these kinds of wonderful 
things, or is this a local deal that if they want to protect 
it, let the city protect it? So, we are not in the business of 
economic development or anything like that. Does this have a 
national interest or, as Mr. Hansen said, an international 
interest, that there is value for the United States Government 
to get involved in it?
    Mr. Fulton. Well, I think both, that it is significant in 
the national scope in that this is one of the best examples 
that we have of these tracks anywhere in the world; this 
probably or may well be the best example in the world of the 
Jurassic period tracks and particularly the tail dragging. But 
also, it is a local matter. This is important to the City of 
St. George, Washington County, and the Department of the 
Interior, which manages nearly one-fourth of the land estate of 
the United States is local in nature.
    Our requirements are that we work with local communities, 
and we want to do that. It is important to the City of St. 
George, and so, it is important to us.
    Mr. Hefley. Thank you very much.
    Mrs. Christensen?
    Mrs. Christensen. Thank you, Mr. Chairman.
    Mr. Fulton, what are some of the other examples where the 
Secretary has been required to buy private property and 
transfer the land to a nonfederal entity?
    Mr. Fulton. I cannot--I am not familiar with any examples. 
It is the desire of the Secretary to work with local 
communities in all aspects of public land management. I am not 
familiar with or aware of any specific examples, though.
    Mrs. Christensen. Do you have an estimated cost for the 
land that is proposed to be acquired?
    Mr. Fulton. No; that would be the purpose of the fair 
market valuation.
    Mrs. Christensen. Okay; and any idea of where the money 
would come from? Because I understand it is supposed to be 
taken from other areas to purchase the land. Has any 
determination been made as to where the funds would come from?
    Mr. Fulton. No; we are proposing to work with the author of 
the bill and to this Committee to determine where those funds 
might come from.
    Thank you.
    Mr. Hefley. Mr. McGovern? Any other questions?
    All right; thank you, Mr. Fulton. I am sorry.
    Mr. Hansen. I am only ex officio here.
    [Laughter.]
    Mr. Hefley. I will pay the price for overlooking you, I am 
sure. You will find a way.
    Mr. Hansen. Well, thank you, Mr. Chairman.
    Mr. Fulton, thank you so very much for coming up and 
testifying on this. We do appreciate it. I think the concerns 
that you have expressed are relatively minor and can be worked 
out between the Department of the Interior and the city and the 
Johnsons and other interested parties. I get a little worried 
about some of this, because you put your finger on something 
that concerns me also, and that is what do we do on the 
timeline here? And I think the Chairman talked about that.
    Now, you have got a find that is unbelievable to some 
people. I do not know; Dr. Johnson could explain this, but we 
started out with just a few, and now, there are literally 
dozens of tracks out there now; maybe more than that; I do not 
know; it could be hundreds. And I still do not think they have 
turned over half of the area, so there could be all of these 
things. Would it not be a shame to paleontologists around the 
world, and don't forget the college student or the high school 
kid or the elementary school that comes along? I think half of 
their problem there--when I first went there, there was just a 
pile of rocks. Now, Dr. Johnson has erected a structure that 
keeps the wind and rain off it; the city or somebody has put a 
fence around it. But someone has got to get a hold of this 
thing, or I think we are going to lose a real treasure that has 
been presented to the people in a very unique way.
    So I would hope that the Department of the Interior, 
yourself and others and this Committee could work this through 
expeditiously and iron out these problems. I honestly feel--
this is something that the Chairman alluded to, and I could not 
agree more is this is something that has almost international 
scope. You know, in the northern end of Utah, we have something 
called Jansen, and we made that a national monument years ago. 
People are now asking to make it a park. I do not know if it 
qualifies. Maybe it does; I do not want to get into that. I 
will get in trouble with the people up in Vernal. But you get 
yourself in a situation where I really think that you have got 
something comparable or better. And so, it would be a shame to 
let this slip between our fingers because of bureaucracy and 
crossing T's and dotting I's, but I know that all has to be 
done.
    So I honestly would just urge you folks from the Department 
of the Interior to help us out all you can. It is something 
that we do not want to see deteriorate in front of our eyes. So 
I thank you so much for being here and your excellent 
testimony, and thank you, Mr. Chairman.
    Mr. Fulton. Thank you.
    Mr. Hefley. Any further questions, Committee?
    If not, thank you very much, Tom. You will be around here 
for the next bill, I assume.
    Mr. Fulton. Yes, sir.
    Mr. Hefley. Panel number two will be made up of the 
Honorable Dan McArthur, who is the Mayor of the City of St. 
George, Utah; Dr. Sheldon Johnson, who is the discoverer of 
Johnson Farm Dinosaur Site at St. George.
    Mr. Mayor, why do we not start with you?

  STATEMENT OF THE HON. DAN McARTHUR, MAYOR, ST. GEORGE, UTAH

    Mr. McArthur. Thank you, Mr. Chairman and members of the 
Committee. I would like to thank you for this opportunity to 
provide testimony on this important project which will preserve 
a national treasure. My name is Daniel D. McArthur, and I am 
the mayor of the City of St. George, Utah, and I am here on 
behalf of the city today. This legislation is most important to 
the City of St. George for several reasons which I will attempt 
to quantify in my testimony today.
    I would like to give you a brief history of the significant 
events surrounding the incredible scientific and educational 
find of dinosaur tracks. Dr. Sheldon Johnson was leveling a 
small, sandy hill on his property adjacent to the Virgin River 
in the City of St. George. He was turning over rocks when he 
uncovered what has been classified as one of the best 
collections of dinosaur tracks ever found anywhere in the 
world.
    The footprints are actually a cast of the foot where, 200 
million years ago, dinosaurs walked and stepped in 8 inches of 
clay. The clay rested on a layer of rock that filled with sand. 
It was perfect for making footprints. So far, at this site, two 
species of carnivores or meat eaters have been identifies; 
also, tracks of herbivores or plant eaters known as 
prosauropods have been found. These tracks have not yet been 
definitely identified.
    The largest of the carnivore tracks at this location are of 
a dinosaur known as dilophosaurus. The word dinosaur means 
terrible lizard in the ancient Greek language, and when you 
break down the word dilophosaurus, di means two; and lopho 
means ridges; and saurus means lizard; thus, two-ridged lizard.
    It is believed that at the hips, he stood about as high as 
a small to medium-sized horse and was approximately 20 feet 
long. He would have weighed between 700 and 1,000 pounds. The 
dilophosaurus was the dominant predator of its time. 
Dilophosaurus did not overpower its prey; it slashed and tore 
the flesh of its victim until it fell. It was fast and agile. 
Three of the four fingers on the hands had claws that gripped 
and tore at the prey when it was feeding. As you are probably 
aware, there are several sites in Utah where dinosaur tracks 
have been found, but this is the only one providing a unique 
look at what is basically a cast of a dinosaur's foot.
    St. George is located in the middle of several national 
parks and other natural wonders of the world. The discovery of 
these magnificent tracks provide the United States, the State 
of Utah and the City of St. George with a great opportunity as 
well as a sacred obligation to preserve the past. This dinosaur 
track find provides a unique opportunity for the aforementioned 
governmental entities to come together to preserve what could 
legitimately become a national and a world treasure, possibly 
the only one of its kind in the world.
    Because of St. George's location in the middle of so many 
national parks and along the I-15 corridor, establishment of 
this national preserve would make the tracks available to 
millions of potential visitors from every state and foreign 
country. Establishment and protection of this resource would 
provide economic, educational and cultural benefits to a wide 
cross-section of the public. Scientific research would also be 
provided if this site is preserved, because most of the site 
has yet to be excavated. The State of Utah is interested in 
digging the rest of the site and has earmarked funds to pursue 
this additional excavation if the site can be secured.
    This scientific and educational opportunity is incredible 
and does not come around very often. The City of St. George 
supports approval of H.R. 2385 for the following reasons: (a) 
this bill provides for a partnership of Federal, state and 
local resources to preserve a national treasure; (b) this bill 
provides an opportunity for scientific and educational research 
through on-site excavations; (c) this bill provides an asset 
that over 150,000 people have visited during the first year 
without promotion or adequate facilities; (d) this bill 
provides economic development opportunities for increased 
tourist traffic to southwestern Utah; (e) this bill provides 
potential new visitors to the national parks and monuments in 
southern Utah and northern Arizona.
    Approval of this bill would begin the process which would 
occur if we are going to preserve the historic find for future 
generations to enjoy. Again, I would like to thank you, Mr. 
Chairman, and members of this Committee for the opportunity you 
have given me to present this testimony. I would strongly urge 
you to approve H.R. 2385 so this mutually beneficial project to 
preserve these historic dinosaur tracks can go forward.
    Thank you.
    [The prepared statement of Mr. McArthur follows:]

 Statement of Daniel D. McArthur, Mayor, City of St. George, Utah, on 
                               H.R. 2385

    Mr. Chairman and Members of the Committee:
    I would like to thank you for this opportunity to provide testimony 
on this important project which will preserve a national treasure. My 
name is Daniel D. McArthur, and I am Mayor of the City of St. George, 
Utah, and I am here on behalf of the City today. This legislation is 
most important to the City of St. George for several reasons which I 
will attempt to quantify in my testimony today.
    I would like to give you a brief history of the significant events 
surrounding this incredible scientific and education find of dinosaur 
tracks:
    Dr. Sheldon Johnson was leveling a small sandy hill on his property 
adjacent to the Virgin River in the City of St. George. He was turning 
over rocks when he uncovered what has been classified as one of the 
best collections of dinosaur tracks ever found anywhere in the world. 
The footprints are actually a cast of the foot, where two hundred 
million years ago dinosaurs walked and stepped in eight inches of clay. 
The clay rested on a later of rock that filled with sand. It was 
perfect for making footprints.
    So far, at this site two species of carnivores, or meat eaters, 
have been identified. Also, tracks of herbivores, or plant eaters, 
known as prosauopods have been found. These tracks have not yet been 
definitely identified.
    The largest of the carnivore tracks at this location are of a 
dinosaur known as Dilophosaurus. The word dinosaur means ``terrible 
lizard'' in the ancient Greek language. When you break down the word 
Dilophosaurus, ``di'' means two, and ``lopho'' means ridges, and 
``saurus'' means lizard, thus ``two ridged lizard.'' It is believed 
that at the hips he stood about as high as a small to medium sized 
horse, and was approximately 20 feet long. He would have weighed 
between 700 and 1000 pounds. The Dilophosaurus was the dominant 
predator of its time. Dilophosaurus did not overpower its prey; it 
slashed and tore the flesh of its victim until it fell. It was fast and 
agile. Three of the four fingers on the hands had claws that gripped 
and tore at the prey when it was feeding.
    As you are probably aware, there are several sites in Utah where 
dinosaur tracks have been found, but this is the only one providing a 
unique look at what is basically a cast of a dinosaur's foot.
    St. George is located in the middle of several national parks and 
other natural wonders of the world. The discovery of these magnificent 
tracks provide the United States, the State of Utah, and the City of 
St. George with a great opportunity, as well as a sacred obligation to 
preserve the past. This dinosaur track find provides a unique 
opportunity for the aforementioned governmental entities to come 
together to preserve what could legitimately become a national and 
world treasure, possibly the only one of its kind on earth.
    Because of St. George's location in the middle of so many national 
parks and along the I-15 freeway corridor, establishment of this 
national preserve would make the tracks available to millions of 
potential visitors from every state and foreign country. Establishment 
and protection of this resource would provide economic, educational and 
cultural benefits to a wide cross-section of the public. Scientific 
research would also be provided if this site is preserved because most 
of the site has yet to be excavated. The State of Utah is interested in 
digging the rest of the site and has earmarked funds to pursue this 
additional excavation if the site can be secured. This scientific and 
educational opportunity is incredible and does not come around very 
often.
    The City of St. George supports approval of H.R. 2385 for the 
following reasons:
    A. This bill provides for a partnership of federal, state, and 
local resources to preserve a national treasure.
    B. This bill provides an opportunity for scientific and educational 
research through on-site excavations.
    C. This bill preserves an asset that over 150,000 people have 
visited during its first year without promotion or adequate facilities.
    D. This bill provides economic development opportunities for 
increased tourist traffic to Southwestern Utah.
    E. This bill provides potential new visitors to the national parks 
and monuments in Southern Utah and Northern Arizona.
    Approval of this bill would begin the process which must occur if 
we are going to preserve the historic find for future generations to 
enjoy.
    Again, I would like to thank you, Mr. Chairman and members of this 
Committee, for the opportunity you have given me to present this 
testimony. I would strongly urge you to approve H.R. 2385 so this 
mutually beneficial project to preserve these historic dinosaur tracks 
can go forward. Thank you.
                                 ______
                                 

   STATEMENT OF SHELDON JOHNSON, DISCOVERER OF JOHNSON FARM 
                DINOSAUR SITE, ST. GEORGE, UTAH

    Mr. Johnson. Thank you, Mr. Chairman, for the invitation to 
speak on behalf of the dinosaur discovery that holds so much 
value to so many people in our nation and around the world. I 
especially want to thank Representative Hansen for drawing all 
responsible parties together in an effort to save these unique 
scientific artifacts for future generations.
    My name is Sheldon Johnson. I am a retired optometrist who 
developed a small farm some 30 years ago to teach five sons how 
to work. Years ago, I donated some of my farm ground to the 
City of St. George for a road, and about a year and a half ago, 
the city began improving that dirt road, and they cut through a 
small hill. I felt that I should bring this hill down to the 
level of the road. I took about 20 feet of the hill off and 
hauled the dirt away, and I came upon a large layer of rock 
that was very peculiar. It came out in chunks, three foot wide, 
two foot thick and 20-foot long with perfectly straight edges 
and sides.
    Kelly Bringhurst, a geology professor at Dixie State 
College in Utah said that is Jurassic mudstone from the age of 
the first dinosaurs. I then looked for dinosaur impressions on 
the top of those rocks but saw none. Then, hauling away rock 
one day, I accidentally turned a large stone over and found on 
the bottom of these huge stones perfect casts of dinosaur feet. 
They were so startling to me that I could hardly believe what I 
was seeing. As I turned over the rocks I had lifted up, I found 
that I had casts or native tracks of over 300 dinosaur feet.
    Only half of the stones on the sites have even been 
revealed yet. There is much more to discover. These trace 
fossils, preserved underground for 200 million years, are now 
exposed to the high desert temperatures, the wind and rain and 
cold. They will deteriorate and have deteriorated and suffer 
adverse effects until we are able to place them in a more 
protective environment.
    This discovery site inside the City of St. George is about 
one mile off Interstate 15 and is bordered to the south by the 
Virgin River, which is the drainage source of Zion National 
Park. Those beautiful salmon and white cliffs are clearly seen 
from this 2,000-foot elevation, but from this point, the earth 
rises to 10,500 feet and thus provides a breathtaking panorama 
to visually teach the geology of our earth.
    Utah State Paleontologist Dr. James Kirkland--he is the 
consultant to Discovery Channel on Walking with Dinosaurs--
enthusiastically verifies our discovery and has been a great 
help, as has Dr. Wade Miller of BYU. Renowned scientist and 
author Dr. Martin Laughley, world-recognized authority on 
dinosaur tracks and a most avid supporter of ours would like to 
bring a third scientific team to continue exploration as the 
protective housing is underway.
    These and other scientists tell us these tracks are the 
very best yet discovered; that they show two distinct species 
of dinosaurs and significant signs of others. These artifacts 
show details of dinosaur anatomy never before seen. 
Paleontologists and geologists from around the world who visit 
this site agree with us that sharing this discovery with the 
scientific community means we will continue this excavation in 
a very organized way to find the most complete, detailed 
information about what was once the world of dinosaurs.
    As many as five buses at the site a day bring students to 
witness the wonders and feel the excitement. I was there one 
day when two buses from Princeton University's Department of 
Geology came with graduate geology students. As we share these 
artifacts, people plead that a museum be built to preserve and 
make available the thrill of discovery to children and adults 
from all walks of life.
    We have counted as many as 3,000 people in one day. A 
sample count of a typical day from our register showed that 900 
people came from 29 different states and five different 
countries that day. Without maps or brochures or marketing, we 
have had well over 150,000 from every state of our nation and 
from at least 55 different nations in this 1 year and 4 months 
that we have been since our discovery. They still come. They 
have heard about this amazing site from word of mouth; from 
television broadcasts that have gone the world around; from 
magazines, newspaper articles and hand-carried to us from 
around the world.
    We thank 42 volunteers who have given hundreds of hours 
each to protect the prints; to study, research and guide 
visitors through the rewarding experience they will always 
remember. We have never charged money or tried to commercialize 
this, but visitors' donations have helped some of our expenses. 
St. George City has made it possible to come this far. We will 
give some property. A prominent architects' firm has 
voluntarily volunteered talent, and a local bank has donated 
money for a sign. My wife, LaVerna, and I feel that we must all 
share in this dream. We have set up a 501(c)(3) nonprofit 
organization to help funds for the educational project, but 
first, we need a climate-controlled storage and work and 
display area for these great artifacts and for the volunteers 
and international visitors when the temperatures reach as high 
as 110 in St. George.
    Other museums desire these artifacts, but we have enough to 
share. But first, we must take care of what is on our site. 
Then, we can share. We feel that these dinosaur trace fossils 
were given to us personally so that people all over the world 
can enjoy and feel the thrill of their existence. Visitors 
always say this site must be saved. A doctor from Paris, France 
told us one day: this treasure does not belong to your country. 
This belongs to the world. Who will get to help you?
    With your help, we will build an exciting place of 
preservation, discovery, imagination, miracle, inspire, inquire 
and education. We are asking you to help us make a united dream 
of sharing come true.
    Thank you very much.
    [The prepared statement of Mr. Johnson follows:]

    Statement of Dr. Sheldon B. Johnson, Discoverer of Johnson Farm 
             Dinosaur Site, St. George, Utah, on H.R. 2385

    Thank you so much for the invitation to speak in behalf of this 
scientific discovery of exceptional dinosaur tracks that hold so much 
value for so many people in our nation and around the world. I 
especially want to thank Representative Hansen for drawing all 
responsible parties together in an effort to save these unique 
artifacts for future generations.
    I am Sheldon Johnson, from St. George, Utah--a small community 
located on I-15 between Las Vegas, Nevada and Salt Lake City, Utah. I 
am a retired optometrist who developed a small farm some thirty years 
ago to teach our five sons a good work ethic. They helped clear the 
land, level it, plant it, and harvest crops as they earned money for 
college the hard way, and grew in strength and character.
    They are now productive tax-paying family men and engineers. One of 
these tax-paying sons who worked on the family farm has Down syndrome. 
He has worked for J.C. Penney's for 35 years, lives independently with 
his wife, and is a licensed driver who drives his wage-earned car well.
    I believe that joy in hard work pays many unseen dividends, and I 
believe that sharing the results of that hard work also brings joy.
    This past year and a half of our great effort and expense trying to 
share our dinosaur discovery and to preserve this historic scientific 
treasure has been both hard work and rewarding as we have met good 
people from all over the world.
    I guess this started many years ago when I donated some of my farm 
land to the city of St. George for a road they wanted to put through. 
About a year and a half ago the city began improvement on this dirt 
road, and they cut through a small hill on the farm. I talked my sons 
and partner into buying a track hoe and allowing me to dig down this 
hill which was thirty or forty feet high to bring the property more to 
the level of the road.
    After I took about twenty feet of the hill off and hauled the dirt 
away, I came upon a layer of rock that was very peculiar. It came out 
in chunks three feet wide, two feet thick and ten to twenty feet long, 
with perfectly straight edges and sides. I asked Kelly Bringhurst, my 
stepson who is a Geology professor at Dixie State College of Utah what 
this stone was and he said it was Jurassic mudstone from the age of the 
first dinosaurs 204 Million years ago. I looked for dinosaur 
impressions on the top of the rocks but didn't see any.
    Then one day I accidentally turned a large stone over and on the 
bottom of these very large blocks of stone were perfect casts of 
dinosaur feet. They were so startling to me I could hardly believe what 
I was seeing. Each rock I turned over had several really fantastic 
casts of large and small dinosaur feet. (I later would learn terms like 
Grallator and Eubrontes.
    Life took a big change as my wife and I unexpectedly found 
ourselves with a new job of greeting visitors--which for the first 
three months usually went from 8 o'clock in the morning until about 
9:30, or until it was too dark to see at night, seven days a week. 
Finally a gentleman stepped in and said, ``You have got to have some 
volunteers here or you are going to kill yourselves. This is never 
going to end!''
    We are so grateful to the good people who have stepped up to 
volunteer at ``their'' site!
    When I finished turning over all the rocks I had lifted up, I found 
that I had casts of over three hundred dinosaur feet. There is at least 
again as much area of Jurassic mudstone that remains to be lifted up 
and needs to be scientifically investigated. Dr. Wade Miller of Brigham 
Young University was the first scientist to visit and verify this 
Jurassic discovery. Soon after, many scientists came.
    Utah's State Paleontologist Dr. James Kirkland (consultant to 
Discovery Channel's Walking With Dinosaurs, and world renowned author 
and dinosaur track expert Dr. Martin Lockley tell us that our tracks 
show two distinct species of dinosaur, and possibly more. They show 
details of dinosaur anatomy never before seen. Fortunately, Dr. Lockley 
completed measuring, tracing, and photographing a four-step tail drag 
on a surface layer of the site before it became weather worn.
    I have built a shade cover for the overturned prints, but during 
this past year and a half these trace fossils (that have been preserved 
underground for over two hundred million years in more ideal 
conditions) have been exposed to the high desert temperatures, wind, 
rain, and cold. These marvelous artifacts will continue to suffer 
adverse effects until we are able to protect them in a more managed 
environment.
    As geologists and paleontologists have come from around the world 
to our site to see the foot casts, and trace fossils, they all agree 
with our decision not to turn over more stones until we have a way to 
preserve and protect this world class scientific discovery.
    We also agree that sharing this discovery with the scientific 
community means we will continue this excavation in a very organized 
way that will benefit not only the inquiring or curious mind, tourists 
and students alike, but in a way that will produce the most complete, 
detailed information about our world--evidence of plant and animal life 
of the world of dinosaurs 204 million years ago.
    As we have shared these artifacts with people from all over the 
world they have all agreed that a permanent museum needs to be built to 
protect and preserve and make available the thrill of discovery to 
children and adults from all walks of life. Enclosed is a sample of our 
guest register taken from a part of an hour in May 2000. It indicates 
the feelings people get in sharing this discovery.
    A sample count of a typical day from our register shows us 900 
people from twenty-nine states and five different nations visited our 
site that day.
    The site is easily accessible inside the city of St. George on what 
is now a major road about one mile from the freeway. The property is 
bordered to the south by the Virgin River which is the drainage source 
of Zion National Park. The beautiful white and salmon colored cliffs of 
the park can be seen from the discovery site. The elevation of our site 
is about 2000 feet, but from this place the vista of earth layers rise 
to 10,500 feet! Thus, an unusually varied view greets the visitor, 
providing a favorite place to visually teach the geology of our earth.
    Busses of students come to the site daily from Utah and surrounding 
states to witness the wonders and feel the excitement. One day I was 
there when two busses from Princeton University's Dept. of Geology came 
with graduate Geology students to share the discovery. We have had as 
many as five school busses on site at one time. Students continue to 
arrive from near and far.
    A great number of Paleontologists have come to the site and helped 
us in this discovery. Dr. Martin Lockley, the world's recognized 
authority on dinosaur foot prints is our most avid supporter. Dr. 
Lockley would like to organize a scientific discovery team to continue 
the find as soon as we have a place to put the artifacts. Dr. James 
Kirkland, Utah's state Paleontologist, has been a great help in giving 
authenticity to what we have found and in guiding the state to do what 
they can do.
    My wife, LaVerna Johnson, a retired educator, is working very hard 
to create a greatly needed place of learning and discovery here. We 
have set up DinosaurAH!torium, a 501(c)3 not for profit corporation to 
search for grants and aid from philanthropic organizations to help fund 
future educational projects related to this site.
    But first we need to build a safe storage facility with a climate 
controlled storage area, a scientific work area, and display area for 
these great artifacts where our volunteers and international visitors 
can enjoy this scientific discovery when the temperature is as high as 
110 in the summer.
    We feel that all must share in this dream. We will give some 
property, Naylor/ Wentworth, a prominent architectural firm, has 
volunteered talent and service and has done a plot and elevation study 
of the site. Washington Mutual Savings, a local bank, has donated a 
DinosaurAH!torium sign at the site so people searching can find us. 
Mayor Dan McArthur and St. George City has made it possible to come 
this far on the project with the help of its Parks and Recreation 
Department. The Washington County Volunteer Center has helped staff 
with wonderful daily volunteers.
    This discovery site can be reached by turning off Interstate 15 at 
the Washington Exit, the first St. George area exit as you enter from 
the north. Go south, pass CostCo and travel about one mile until you 
see a DinosaurAH!torium sign on the left side of the road. Visitors are 
welcome.
    However, there are no freeway signs to tell people to stop. There 
is no advertising, no brochure, no publicity campaign, but we have 
recorded as many as three thousand people in a day, over five thousand 
on a holiday weekend, and now have had well over 150,000 people come to 
see these prints in the past year and four months. Record books kept 
since March 2000 tell us that people have come from every state of our 
nation, and from at least fifty five different countries! And they 
still come.
    They have heard about this ``amazing sight'' by word of mouth, by 
magazine and newspaper articles they often hand carry to us from around 
the world, and from seeing several television broadcasts that have gone 
world wide. An interactive video program broadcast to South America via 
Voice of America featured this unique discovery.
    Scientific journals and publications geared to the public continue 
to tell of our discovery and its significance, the most recent article 
being in SCIENCE NEWS. Yesterday's interview from VIA Magazine, with a 
readership of 2.5 million people, a new dinosaur book coming out this 
fall called Dinosaurs of Utah, and several other magazine articles 
coming out within the next two months tell us that visitor numbers will 
only increase.
    My wife LaVerna and I have traveled to many museums since that day 
of discovery, and we find that these dinosaur foot casts are unique. 
She has since become a member of the board of the Utah Museums 
Association (of which DinosaurAH!torium is a member), and we work for 
the benefit of all the public as we strive to save and preserve this 
valuable site. Utah's Office of Museum Services is awarding a $9,000.00 
grant to assist us in preserving this national treasure.
    Visitors unite in a chorus of: ``This site must be saved.'' As a 
doctor from France told us one day, ``This site does not just belong to 
just your country, you know. This treasure belongs to all the world! 
Who will help you do this?''
    We have never charged money or tried to commercialize this find, 
but we have received donations from guests that have helped with some 
of our expense. The city of St. George has given great support for site 
needs, and forty two different volunteers have given hundreds of hours 
to protecting the prints, to study, research, and to guiding the 
visitors to a rewarding unique experience they will always remember.
    Once our building begins we are sure that many people will step up 
to support, but first we must begin. Without initial funding we are 
afraid pending property development will necessitate loss of this 
significant discovery site.
    All museums and schools indicate a desire to receive some of these 
Jurassic trace fossils, and we have enough to share, but first we must 
take care of what is on the site--then we can share. We feel that these 
prints were given to us that people all over the world can enjoy and 
feel the thrill of their existence.
    With your help we will build an exciting place of preservation, 
discovery and imagination for America that will inspire inquiry and 
education. We are asking you to help us make a united dream of sharing 
come true.
                                 ______
                                 
    Mr. Hefley. Thank you, both of you.
    Let me ask: clearly, this 20 acres is not the only place 
that dinosaurs walked in that area. Is it anticipated that if 
we buy this 20 acres, and then, there will be another 20 and 
then 40 and then so forth? Or is this the only place that you 
can actually--
    Mr. Johnson. This is a peculiar site, because the whole 20 
acres they want includes along the river, which would be a 
parkway along the river that would supplement--help visitors 
enjoy the site. The site is an uprift, upthrust hill that only 
includes about 3 or 4 acres. It is a hill that has been 
upthrust some 20 to 40 million years ago, and it is the only 
site where rocks will be found. So there is not a possibility 
of others, because it is the only upthrust. The rest of it is 
level ground.
    Mr. McArthur. The rest of it is developed, basically, 
around this.
    Mr. Hefley. And they have not found anything in the 
development process?
    Mr. Johnson. Oh, no, no. The geology of this is that this 
is level farm ground except this one hill that was thrust up 
approximately 300 feet, geologists tell us, as it thrust up. I 
took the top 20 feet off. So the rest of that layer of ground 
where dinosaurs walked is 300 feet below the ground all over. 
And so, there is a possibility only in that hill to find that 
sort of--it is a very select site.
    Mr. Hefley. Mr. Mayor, Mr. Fulton seemed to express the 
concern of the Department that the site would be cared for 
properly under your stewardship and under the plan in the bill. 
Would you like to speak to that?
    Mr. McArthur. Yes; southwestern Utah would not even exist 
if we were not able to cooperate with the surrounding agencies 
like the county government, school district, the college and 
other things. And in our discussions up to this point, we have 
seen that our resources have been taxed very heavily. We are 
the first ones to come forward and actually fence the site and 
actually put restrooms and other things on the site. They were 
portable restrooms and help working with the staffing of 
volunteers through the city staff.
    And the goal has been from this point forward, of course, 
working with the State of Utah, with the educational system and 
other things to make sure that this happens, and I have no 
doubt in my mind that we can make it work working together. It 
is just the acquisition of the site; and then go forward from 
there in making it work.
    Mr. Hefley. Ms. Christensen?
    Mrs. Christensen. I do not think I have any questions, Mr. 
Chairman. I just find it fascinating that you could see 
dinosaur footprints this well at this late date, and I am 
encouraged that the Department is willing to work with both the 
city and the Members of Congress in trying to find a way to 
preserve the area. Our concern is just the direct purchase by 
the Department of the Interior, which would be an unusual way 
to go about accomplishing this.
    Mr. McArthur. Could I say something? If you look in this 
particular spot, this is probably the only place that I know of 
that you would find a site like this right square in the middle 
of town. All the rest of the ground around here, it is all 
private land, whereas, most of the area of our county is 
Federal and state land. And therefore, you know, acquiring that 
property right in the middle of town is really critical to us, 
and we have already begun negotiations. In fact, I think we 
have pretty well negotiated a settlement price with the land 
owners that can work.
    But I do not think that that is final, but I think that 
that is going to happen. All the parties involved, whether it 
is the land owners, whether it is the school system, whether it 
is the State of Utah, everybody is on board and making and 
saying that we have got to make this work: the BLM, the local 
BLM group is saying yes, we have got to make this work; we can 
make it work. It has just got to work within the confines of 
each one of our systems.
    Mrs. Christensen. Can I ask a question?
    Mr. Hefley. Sure.
    Mrs. Christensen. Mr. Fulton said in his testimony; yes, 
this is the right bill: an exchange might be a viable option. 
Is that something that has been looked at? Is there some other 
property that could be--
    Mr. McArthur. The difficulty of that, like I said, is most 
of the property around there is already under governmental 
control. We are already the largest landowner in the river 
system because of endangered species and others that are found 
uniquely in our Virgin River System. We are already under a 
plan that is called the Virgin River Management Plan that we 
have all parties assigned trying to recover the species and 
others, and we have been the largest--trying to acquire land, 
either by donation or purchase or swapping what land we have 
had. But we have no more land to swap, and we own it from our 
southern border to the northern border, and Dr. Johnson owns 
some other property along this river that he is working with 
and donating or through purchase that we can do, and then, we 
will tie all that together with a trail system and other things 
for the use of the public.
    Mrs. Christensen. Thank you; I am sure Chairman Hansen does 
not agree that that is a viable option anyway.
    Thank you, Mr. Chairman.
    Mr. Hefley. Well, I think that is a good question: Dr. 
Johnson, is there any--if most of it is government-owned land 
around there, is there any government-owned land around there 
that you would like that you would consider a trade?
    Mr. Johnson. I am sure if that is the need, we would do 
that. We are not trying to make a lot of money on this. Even 
the price, we are giving lots of acreage, and it is costing--I 
would have been really well off if I had just turned that stone 
under to begin with, because it has cost me a lot of money and 
a lot of time, and I am not trying to do anything but get it 
before the public.
    I am sure if you could designate some land around to trade 
for it, government land, it would be possible. We would not 
stop it; that is for sure. We want to make it work, whatever we 
have to do.
    Mr. Hefley. Okay; Committee, other questions?
    All right; thank you very much.
    Mr. Hansen?
    [Laughter.]
    Mr. Hansen. I can hardly wait for full Committee.
    Mr. Hefley. Have you noticed I lean over to my left over 
here? Have you noticed that, Mr. Hansen?
    Mr. Hansen. I have noticed that.
    Mayor McArthur, how do you envision--let us just say 
hypothetically this thing comes about; that we are able to pull 
it off here; the part that we play in it. As you mention, there 
are a lot of entities involved. How do you envision this coming 
together? Give us a little vision here of how you envision this 
thing to happen.
    Mr. McArthur. Well, I envision the State of Utah coming 
forward to help us also. They have expressed a lot of desire to 
do that through the legislative process and other things and 
acquiring some funds. Like I say, we have been strapped with 
that, but I believe that through the efforts of the local 
college and educational system as well as our own system and 
the volunteers which we have, which we have a tremendous amount 
because of our retirement area; you see how St. George is 
growing or at least Washington County over the last decade; I 
have seen it double in population over the last decade, and 
that has been the history of it with people moving into the 
area. We have a tremendous volunteer effort working.
    And what I see in this particular thing working together is 
trying to work with either ASIA, which is a volunteer 
organization of the BLM and others in recommending places that 
people can visit, either through the National Park system or 
through the state park system or even the other areas, but we 
believe that working together with the BLM, whoever we have to 
work with, and the schools is very possible. It has worked in 
the past, and we have a commitment from them at this point and 
forward to do it.
    I am not exactly sure how it would work, but I know it 
would be under, right now, under the direction of the City of 
St. George, and we are committed to make it happen.
    Mr. Hansen. So let us just go to the bottom line on it. Let 
us say we are able to do the part that we are asked to play on 
it. The city is involved; the state is involved; the county is 
involved; the schools are involved; and we have got a private 
entity that is going to run this show, or is it going to be the 
City of St. George?
    Mr. McArthur. No; it will probably be a private entity is 
what we would try to get.
    Mr. Hansen. Which all of these other entities would help--
    Mr. McArthur. Would work together, absolutely.
    Mr. Hansen. With funding or whatever it is. Okay; the first 
thing, then, is the land.
    Mr. McArthur. Yes.
    Mr. Hansen. Get that worked out.
    Mr. McArthur. The preservation.
    Mr. Hansen. That is taken care of. Then, somebody is 
structured to run this private entity. And then, they put a 
plan together and say, all right, all these people here are 
going to put money in, time, whatever it may be, and then, you 
come up with a plan of what to put there: structures, parking 
lots, fences. The Doctor mentioned going down in that lower 
area by the Virgin River as kind of a scenic walkway or 
something; is that right, Doctor?
    Mr. Johnson. A scenic walkway that would enhance the park 
itself. The stones are on an area of about 2 acres total, but 
that is so small, there is hardly room for the parking lot. And 
so, down along the edge of the river, which we have volunteered 
to give to the entity, whoever it would be, would make a 
beautiful parkway, a Jurassic park, so to speak, so that people 
could have places to go picnic and to take their families and 
to have an experience and be able to spread out under trees and 
picnic tables, and that would join--it would be part of that.
    We are not talking about a lot of money, and even then, we 
have offered the site, the site right on the road for $45,000 
an acre, and that would be, you know, $90,000 for the whole 
thing. So we are trying to give as much as we can and still 
make it possible within our limits.
    Mr. Hansen. I appreciate your generosity, and the people of 
St. George have surely commented on it as has your media in 
that area of what you have been able to do. But this is not a 
money making thing. This is for either the city or any of these 
entities, this is an idea to make this open but, yet, in a way 
that we do not desecrate it or hurt it in any way.
    So this entity would then figure out the logistics: what we 
are going to build; the time they can be there; do we have to 
charge to offset maintenance and all that kind of stuff? Is 
that what we are envisioning here?
    Mr. McArthur. Yes.
    Mr. Hansen. And then, who owns it?
    Mr. McArthur. Well, the City of St. George--
    Mr. Hansen. In other words, who takes fee title?
    Mr. McArthur. Takes which?
    Mr. Hansen. Fee title.
    Mr. Johnson. The fee title.
    Mr. Hansen. Who takes title to it? I mean, if we are going 
to negotiate a sale here, we have got to have a seller. And we 
have got the seller sitting here. Who is the guy that is going 
to own it?
    Mr. McArthur. Well, the City of St. George, unless, out of 
this negotiation that we work on who runs it and how it works 
in the future; if something changes, the City of St. George is 
the owner.
    Mr. Hansen. I guess it would come under the direction of 
St. George.
    Mr. McArthur. That is right.
    Mr. Hansen. Because you are going to be the number one 
entity. It is in your confines, in your jurisdiction; is that 
right?
    Mr. McArthur. Yes, and we are willing to take that lead.
    Mr. Hansen. So in your best estimation, if all these ducks 
line up, when are we going to be to that point?
    Mr. McArthur. Congressman, the sooner the better. The city 
has not just looked at, you know, you have heard people say 
that we have to protect the site. We have already gone in and 
are looking at some materials to help protect the site as best 
we can. It is not a permanent building by any means of what we 
are trying to do, but there has already been a structure put 
over it to keep the sun somewhat off, and now, we are trying to 
do another one by maybe investigating putting--if there is some 
material and things on the side that we can actually enclose 
them somewhat for temporary protection until some funds can be 
acquired, either through the state or through this, that can 
actually build something on site. We are planning on building 
something on site and going forward with the design.
    Mr. Hansen. Like an enclosed area?
    Mr. McArthur. An enclosed area.
    Mr. Hansen. Enclose some of those areas?
    Mr. McArthur. Enclose them.
    Mr. Hansen. Make an area where they will not be 
deteriorated further?
    Mr. McArthur. Exactly.
    Mr. Hansen. Something like that.
    Mr. McArthur. And then, let them go ahead and develop them 
and look at them later through study.
    Mr. Hansen. Dr. Johnson, you have an interesting situation 
here. As you both testified, and I have seen with my eyes, 
visitation that exceeds some of our national parks. I could 
name four or five national parks that do not even come close to 
what you get. I will not, because Lee Davidson will print it in 
the Deseret News, and I will be in trouble. Sorry.
    But anyway, you get down to the idea that--how do you 
handle that? How do you handle that? Here is one man and his 
wife who discovered this who probably wants to retire--I assume 
you are retired now.
    Mr. Johnson. We retired, and then, all of a sudden, this 
hit us, and we had to be committed to something. And we started 
there early in the morning, 6 or 7 in the morning, and we would 
be there until 9 or 9:30 at night. In fact, people would come 
up with their headlights and say it is too late to see, but I 
will shine my lights on it. And we would say we are so 
exhausted, we have got to go home!
    Finally, the City of St. George and the surrounding areas 
developed a volunteer bureau, and we have finally found 42 
volunteers to help us guide these people through this great 
find, and they have been working the last year under extreme 
conditions: the heat and the wind and the rain and everything, 
and they have just hung in there, and I said someday, we will 
have a cover for this. We have got to. I have exhausted about 
all of my resources to cover it and to do the things I have 
needed to do, but now, it is to the final--we have got to do 
something else, you know. It has to be covered and has to move 
on with a greater entity, more than just the enthusiasm of my 
wife, LaVerna, and I, because we are getting too old and too 
tired.
    Mr. Hansen. You regret you have only one life to give to 
this.
    Mr. Johnson. I do.
    [Laughter.]
    Mr. Johnson. It has been a thrilling experience, even to 
come here today. I have fulfilled a dream that we are doing 
something that the whole world can really enjoy. And they do: 
they are so thrilled. I showed a list of the people who come 
each day; comments as they write their name. Behind their name 
is an exclamation of thrill, wow, exciting; the beautiful 
things that they say, you know. They are all saying what a 
beautiful experience that was.
    I have seen grown men sitting on one of those tablets and 
crying of the immensity of the thought of what happened here, 
and I am sitting right next to a foot that set down 200 million 
years ago. It is just breathtaking sometimes.
    Mr. Hansen. Dr. Johnson, we commend you for what you have 
done for all of us, and I hope it turns into the vision that 
you have.
    And my last question: did your five boys learn how to work?
    Mr. Johnson. They were great examples. I have four 
engineers. I have one Down's Syndrome boy who is 46 years old 
right now. Because he worked on the farm, he has a driver's 
license; he is married; he has a full-time job. He has driven a 
car for 10 years without an accident in a busy place. He is the 
most successful boy I have got, and all of the rest of them are 
great sons with engineering degrees.
    Mr. Hansen. Well, I am glad the initial thought worked out 
for you, then, to teach the boys how to work.
    Thank you, Mr. Chairman.
    Mr. Hefley. Thank you. I thank the witnesses, and we will 
go to the next panel.
    Mr. Hefley. The next panel, for a return engagement, is Tom 
Fulton, Deputy Secretary of Land and Mineral Management for the 
Department of the Interior. Before we get to that, Mr. Hansen, 
would you like to give an opening statement, Mr. Hansen, before 
we get to the witness?

 STATEMENT OF HON. JAMES HANSEN, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Hansen. Thank you, Mr. Chairman.
    I would appreciate it if I could have an opening statement. 
I want to thank you for holding this hearing on H.R. 2488, the 
Pilot Range Wilderness Area. For more than 25 years, many of us 
have participated in the Utah wilderness debate one way or 
another. The faces change from time to time, but the debate 
never seems to end. It is an emotional debate and one with no 
apparent end in sight. There have been dozens of attempts to 
solve the wilderness issue over the years; none of them 
successful.
    Now, keep in mind that Utah did do the Forest Service; we 
are talking BLM here. There have been incremental approaches 
put forward and comprehensive statewide proposals introduced. 
The number of acres proposed as wilderness have ranged from 
800,000 to 9.3 million. Along the way, we have seen national 
conservation areas proposed and national monuments created; BLM 
wilderness inventories and reinventories; lawsuits and appeals, 
but unfortunately, we are no closer to resolving this 
wilderness thing than we were 25 years ago.
    Three years ago, Governor Leavitt proposed using an 
incremental approach. Rather than arguing over the 9 million 
versus 2 million, we tried to narrow the discussion down to a 
much smaller scale, and ultimately, we were very, very close to 
reaching an agreement last year. We learned a valuable lesson: 
we found that it was possible to reach agreement when the focus 
of the debate was narrowed. When we concentrate on one specific 
area and negotiate boundaries and specific management language 
appropriate to the area, we can address the problem with a 
minimal amount of rhetoric. It is a labor-intensive and time-
consuming process. But if it moves the debate forward, I am 
willing to invest the time.
    With that in mind, I introduced the Pilot Range Wilderness 
bill. The Pilot Range was not inventoried until the original 
106th wilderness reviews due to its checkerboard private and 
public land patterns at the time. However, through a series of 
land exchanges conducted in the 1990's, BLM acquired most of 
the railroad lands and the state trust lands in the unit, and 
subsequently, it was included as part of the Babbitt 
reinventory 2 years ago.
    The Pilot Range offers an opportunity to discuss wilderness 
values while focusing on a specific unit only. We have made an 
effort to take in the most reasonable boundaries, excluding the 
human intrusion as much as possible. We have cherry-stemmed the 
same roads as the Babbitt reinventory did. While wilderness 
advocates will claim today that we have excluded half the 
wilderness area, my colleagues should know that this bill 
includes 100 percent of their bill that was called H.R. 1500, 
the bill supported by Mr. Hinchey, and the gentleman, Mr. 
Young, who is here from the Southern Utah Wilderness Alliance. 
That was just 2 years ago.
    The simple fact is this: until 2 years ago, many of our 
environmental groups did not include the Pilot Range as part of 
its wilderness proposal. I have never seen it up until 2 years 
ago. Today, we will hear about how absolutely precious these 
lands are. If that is the case, why were these lands not part 
of it before? I guess that is something I would like to hear. 
In reality, we have excluded an area north of this range called 
the Bald Mountain area, as did Mr. Hinchey 2 years ago. In the 
Hinchey bill 2 years ago, it excluded that.
    I am interested as to why communications towers, mines, 
roads and fences now qualify as wilderness when they did not 2 
years ago. I also am happy to see my friend Mr. Young put in 
the Deseret News that he made an interesting statement, so I 
guess he is here to acquiesce on that and say that we were 
right and they were wrong. And I love your statement here, if 
somebody did not steal it from me, when he said--you can speak 
for yourself, Mr. Young, but if you do not mind, I would like 
to say when you said what good is wilderness if it has roads, 
mines--oh, this is a quote: ``What good is a wilderness with 
roads, power lines, buildings and communications towers,'' SUWA 
Executive Director Larry Young requested, and their area is 
exactly what has got in it, and to show that, we will later, 
Mr. Chairman, show pictures of their area with roads, mines, 
communication towers and other areas in it. So I agree with him 
completely on that. I am glad to be able to agree with Larry on 
something, because he is a pretty good guy.
    Water resources within the wilderness boundaries that we 
have drawn are minimal. We intentionally have drawn boundaries 
around two streams specifically because keeping these streams 
in the wilderness would impair the ability of the Division of 
Wildlife Resources in the BLM to manage the threatened trout 
habitat. Contrary to what some may say, wilderness designation 
is not a panacea for wildlife. In this case, it would likely be 
detrimental to wildlife resources in this area, restricting the 
state's ability to be proactive in wildlife management as well 
as the recovery of endangered species.
    The language of this bill, including water rights, 
management of fish and wildlife and grazing is the same 
language as was supported by the State of Utah and Secretary 
Bruce Babbitt. If Mr. Babbitt was comfortable with the 
language, I hope my colleagues will see that as well.
    There is an issue unique to the wilderness area in the 
Great Basin that does not necessarily apply elsewhere in the 
state, and that is the impact the wilderness designation may 
have on the Utah Test and Training Range. Overflight language 
has been included in other wilderness bills. Our language is 
very specific to the Pilot Range. The witnesses today will 
explain why we must have language specific to the UTTR that 
builds upon what we have done in this area. And like the 
Chairman--we both sit on the Armed Services Committee--this is 
critical to us, as we see all kinds of invasions into our test 
and training ranges.
    Finally, I have read criticism regarding the release 
language included in the bill. This is not really a good 
criticism, because in fact, the wilderness release language has 
been a matter of public policy for years. Virtually every 
wilderness bill includes some kind of release language. 
Language almost identical to what we have in this bill was 
passed three times in the 106th Congress. One slight difference 
is a reference made to ending the 202 process, which is 
necessary because Utah is the only state to have undergone an 
additional reinventory under Section 202 of FLPMA.
    The language in this bill reflects the agreement between 
Governor Leavitt and Secretary Babbitt last year to end the 202 
process and bring closure to the wilderness debate on the West 
Desert. We intend to bring closure to the wilderness debate on 
the Pilot Range with the passage of this bill. Nothing will 
bind a future Congress from passing a law creating additional 
wilderness in the Pilot Range if it deems necessary, and these 
lands will not be put at risk by being released back to the BLM 
management plan. Instead, we designate wilderness in an area 
that was ignored by the original BLM inventory--and I want to 
make this point--and ignored by Congressman Owens and ignored 
by Congressman Hinchey, and I would hope that they understand 
that.
    Members should note that this bill was introduced; the 
Automated Geographic Reference Center discovered a mapping 
error. The result is that the number of acres designated using 
the revised maps will come closer to 24,000 acres rather than 
the 37,000 acres designated in the bill as introduced.
    I look forward to working with the BLM to prepare a map 
that accurately reflects these changes. This is a small step 
toward resolving a bigger issue, and we intend to do others. I 
may add, Mr. Chairman, that my brother-in-law, Dean Stevens, 
does have a ranch that is east of this area; has nothing to do 
with this area. He is a retired gentleman. He could not care 
less what we did, and he said--I will not quote what he said, 
but he is not too interested in this either way.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Hansen follows:]

  Statement of The Honorable James V. Hansen, Chairman, Committee on 
                        Resources, on H.R. 2488

    Chairman Hefley, I want to thank you for holding this hearing on 
H.R. 2488, the Pilot Range Wilderness bill. For more than 25 years, 
many of us have participated in the Utah wilderness debate in some way 
or another. The faces change from time to time, but the debate has 
continued. It is an emotional debate and one with no apparent end in 
sight.
    There have been a dozen different attempts to solve the wilderness 
issue over the years, none of them successful. There have been 
incremental approaches put forward and comprehensive, state wide 
proposals introduced. The number of acres proposed as wilderness have 
ranged from 800,000 to 9.3 million. Along the way, we have seen 
National Conservation Areas proposed, and National Monuments created, 
BLM wilderness inventories and re-inventories, lawsuits and appeals. 
But unfortunately, we are not any closer to resolving the Utah 
wilderness issue today than we were 25 years ago.
    Three years ago, Governor Leavitt proposed using an incremental 
approach. Rather than arguing over nine million verses two million 
acres, we tried to narrow the discussion down to a much smaller scale 
and ultimately, we were very, very close to reaching agreement last 
year. We learned a valuable lesson during those discussions. We found 
that it was possible to reach agreement when the focus of the debate 
was narrowed. When we concentrate on one specific area, and negotiate 
boundaries and specific management language appropriate to the area we 
can address the problems with a minimal amount of rhetoric. It is a 
labor-intensive and time-consuming process, but if it moves the debate 
forward, I am willing to invest that time.
    With that lesson in mind, I introduced the Pilot Range Wilderness 
bill. The Pilot range was not inventoried during the original 603 
wilderness reviews due to its checkerboard private and public land 
patterns at the time. However, through a series of land exchanges 
conducted in the 1990's BLM acquired most of the railroad lands and 
state trust lands in the unit and subsequently, it was included as part 
of the Babbitt re-inventory two years ago. The Pilot Range offers an 
opportunity to discuss wilderness values while focusing on a specific 
unit only.
    We have made an effort to take in the most reasonable boundaries, 
excluding the human intrusion as much as possible. We have cherry 
stemmed the same roads as in the Babbitt re-inventory. While wilderness 
advocates will claim today that we have ``excluded half the wilderness 
in this area'' my colleagues should know that this bill includes 100 
percent more wilderness acres than did H.R. 1500, the bill supported by 
Mr. Hinchey and the Southern Utah Wilderness Alliance just two years 
ago. The simple fact is this. Until two years ago, the Southern Utah 
Wilderness Alliance did not include the Pilot Range as part of its 
wilderness proposal. Today, we will hear about how absolutely precious 
these lands are. If that is the case, why were they not part of the 
SUWA 5.7 million acre proposal for so many years?
    In reality, we have excluded area north of this range called the 
Bald Mountain area as did the Mr. Hinchey just two years ago, as did 
Secretary Babbitt when he conducted the BLM re-inventory. I am 
interested as to why communication towers, mines, roads, fences now 
qualify as wilderness in 2001 when they clearly didn't two years ago.
    Water resources within the wilderness boundaries that we have drawn 
are minimal. We intentionally have drawn boundaries around two streams 
specifically because keeping these streams in the wilderness would 
impair the ability of the Division of Wildlife Resources and BLM to 
manage the threatened Lahotan Trout habitat. Contrary to what some 
might say, wilderness designation is not a panacea for wildlife. In 
this case would likely be detrimental to wildlife resources in this 
area, restricting the state's ability to be proactive in wildlife 
management as well as the recovery of endangered species.
    The language of the bill including water rights, management of fish 
and wildlife and grazing is the same language that was supported by the 
State of Utah and then-Secretary of Interior Bruce Babbitt last year. 
If Mr. Babbitt was comfortable with the language, I would hope my 
colleagues would be as well.
    There is an issue unique to the wilderness areas in the Great Basin 
that does not necessarily apply elsewhere in the state and that is the 
impact that wilderness designation might have on the Utah Test and 
Training Range. Overflight language has been included in other 
wilderness bills. Our language is very specific to the Pilot Range. The 
witnesses today will explain why we must have language specific to the 
UTTR that builds upon what we have done in other areas.
    Finally, I have read criticism regarding the release language 
included in the bill. Opponents wail that this language is 
unprecedented. They are absolutely wrong about that and do a disservice 
to their constituency with their claims. In fact, wilderness release 
language has been a matter of public law for years, virtually every 
wilderness bill includes some type of release language. Language almost 
identical to what we have in this bill was passed three times in the 
106th Congress alone. One slight difference is a reference made to 
ending the 202 process which is necessary because Utah is the only 
state to have undergone an additional re-inventory under Section 202 of 
FLPMA . The language in this bill reflects the agreement between 
Governor Leavitt and Secretary Babbitt last year to end the 202 process 
and bring closure to the wilderness debate in the west desert. We 
intend to bring closure to the wilderness debate in the Pilot Range 
with the passage of this bill.
    Nothing will bind a future Congress from passing a law creating 
additional wilderness in the Pilot Range if it deems necessary and 
these lands will not be put at risk by being released back into the BLM 
management plan. Instead, we designate wilderness in an area that was 
ignored by the original BLM inventory as well as Congressman Owens and 
Hinchey.
    Members should know that since the bill was introduced, the 
Automated Geographic Reference Center discovered a mapping error. The 
result is that the number of acres designated using the revised maps 
will come in closer to 24,000 acres rather than the 37,000 acres 
designated in the bill as introduced. I look forward to working with 
BLM to prepare a map that accurately reflects these changes.
    This is a small bill that is a small step towards resolving a much 
bigger issue. But we must begin somewhere. I hope the members of the 
Subcommittee will join me in this effort to begin to resolve the Utah 
wilderness debate one area at a time.
                                 ______
                                 
    [A resolution from the Box Elder County Commission 
submitted for the record by Mr. Hansen follows:]
[GRAPHIC] [TIFF OMITTED] T4154.001

    Mr. Hefley. Okay; we do have a vote on. I think it is a 
single vote. I think maybe this would be a good time to break 
and recess long enough to go over and do the vote and then come 
back and hear our witnesses. So the Committee stands in recess.
    [Recess.]
    Mr. Hefley. The Committee will come back to order.
    Mr. Fulton?

 STATEMENT OF TOM FULTON, DEPUTY ASSISTANT SECRETARY FOR LAND 
    AND MINERALS MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Fulton. Thank you, Mr. Chairman. The Department of the 
Interior supports H.R. 2488 which, as introduced, designates 
over 37,000 acres of land in Western Utah as wilderness. We 
would like the opportunity to work with the Committee on 
clarifying and technical amendments to the legislation before 
the Committee completes its consideration of the bill. The 
proposed Pilot Range Wilderness Area lies in Box Elder County, 
Utah, located approximately 115 miles northwest of Salt Lake 
City, along the Utah and Nevada state line.
    The Pilots are a north-south trending mountain range with 
canyons training east to a large alkali flat and west to a 
broad valley that extends into Nevada. The Pilot Range meets 
the scenic and natural resource values required of the 
Wilderness Act. The Pilot Range was not included as a 
wilderness study area in the Bureau of Land Management 
wilderness inventory completed in 1980. The checkerboard 
ownership pattern of the lands did not originally lend itself 
to that designation.
    However, between 1989 and 1993, the BLM concluded a series 
of land exchanges with willing private landowners that 
consolidated public ownership in the Pilot Range. Last fall, 
Congress passed the Utah West Desert Land Exchange Act, which 
exchanged over 200,000 acres of state and Federal lands. 
Included in that exchange were 3,600 acres of state land within 
the Pilot Range.
    With that acquisition, the area proposed for wilderness in 
this bill contains no state in-holdings. We would like the 
opportunity to work with the Committee to make technical 
corrections or clarify a number of provisions in the bill; for 
example, the current language in Section 2(b) regarding 
incorporating acquired private lands into the proposed 
wilderness should be modified to clarify that only acquired 
private lands with wilderness character would be added to the 
Pilot Range Wilderness.
    It is also our understanding that the Chairman may be 
proposing some modifications to the acreage of the wilderness 
area, and we would like the opportunity to work with the 
Committee on those changes. In 1998, the Box Elder County 
Commission developed an access road management plan. This plan 
is a product of recommendations. The plan was sponsored by Box 
Elder County with the benefit of public review, including input 
from BLM. The BLM then adopted this through a Federal Register 
notice.
    We would also like to work with the Committee on Section 
2(f) of the bill regarding protection of military needs on the 
nearby Utah Test and Training Range and Dugway Proving Ground. 
We are in complete agreement on the importance of the mission 
of these military bases. We would like to consider expanding 
the scope of the proposed MOU to include all aspects of 
military use in the proposed Pilot Range Wilderness, including 
placement of and access to communications and tracking systems.
    In addition, we would like to work with the Committee to 
incorporate provisions into the bill to ensure the protection 
of a particular species of cutthroat trout currently listed as 
threatened under the Endangered Species Act.
    Thank you for the opportunity to testify in support of H.R. 
2488, and I would be pleased to answer any questions the 
Committee might ask.
    [The prepared statement of Mr. Fulton follows:]

Statement of Tom Fulton, Deputy Assistant Secretary, Land and Minerals 
       Management, U.S. Department of the Interior, on H.R. 2488

    Thank you for the opportunity to testify regarding H.R. 2488. The 
Department appreciates Chairman Hansen's efforts in continuing to 
address wilderness in Utah. The Department of the Interior supports 
H.R. 2488, which designates over 37,000 acres of land in western Utah 
as wilderness. We would like the opportunity to work with the Committee 
on clarifying and technical amendments to the legislation before the 
Committee completes its consideration of this bill.
    The proposed Pilot Range Wilderness Area lies in Box Elder County, 
Utah. Rising to over 10,761 feet, Pilot Peak served as a beacon for 
travelers headed to California in the 1840s and, for some, a beacon of 
false hope. Travelers who had completed the hot, dry trek across the 
Great Salt Lake Desert found water in the springs along the eastern 
base of the range.
    Located approximately 115 miles northwest of Salt Lake City, along 
the Utah and Nevada state line, the Pilots are a north-south trending 
mountain range, with canyons draining east to a large alkali flat, and 
west to a broad valley that extends into Nevada. The rugged terrain 
(ridges, side canyons and valley bottoms) meets the requirements of the 
Wilderness Act. Diverse vegetation complements the topography by 
providing screening from human activity. Opportunities for hunting, 
camping, hiking, and photography are outstanding. Horseback riding and 
pack trips are abundant throughout the area.
    The Pilot Range also meets the scenic and natural resource values 
required in the Wilderness Act. Elk, bighorn sheep, and deer roam 
throughout, and the threatened Lahontan cutthroat trout are present in 
Bettridge Creek in the southern part of the proposed wilderness.
    The Pilot Range was not included as a Wilderness Study Area (WSA) 
in the Bureau of Land Management's (BLM's) wilderness inventory 
completed in 1980. The checkerboard ownership pattern of the lands did 
not originally lend itself to that designation. However, between 1989 
and 1993, the BLM concluded a series of land exchanges with willing 
private landowners that consolidated public ownership in the Pilot 
Range. A subsequent BLM wilderness inventory, concluded in 1999, found 
the area to have significant wilderness characteristics.
    Last fall, Congress passed the Utah West Desert Land Exchange Act 
(Public Law 106-301), which exchanged over 200,000 acres of state and 
federal lands. Included in that exchange were 3,600 acres of State land 
within the Pilot Range. With that acquisition, the area proposed for 
wilderness in this bill contains no state inholdings.
    We would like the opportunity to work with the Committee to make 
technical corrections or clarify a number of provisions in the bill. 
For example, the current language in section 2(b) regarding 
incorporating acquired private lands into the proposed Wilderness 
should be modified to clarify that only acquired private lands with 
wilderness character would be added to the Pilot Range Wilderness.
    Section 1(a) of the bill specifies a map of the wilderness area. We 
would like the opportunity to work with Chairman Hansen on that map 
before H.R. 2488 is reported out of Committee. It is also our 
understanding that the Chairman may be proposing some modifications to 
the acreage of the wilderness area and we would like the opportunity to 
work with the Committee on those changes.
    In July 1998, the Box Elder County Commission developed an access 
road management plan. This plan is a product of recommendations made by 
a team sponsored by Box Elder County with the benefit of public review, 
including input from BLM. The BLM then adopted this ordinance through a 
Federal Register notice. We would like the opportunity to work with the 
Committee to ensure that the map is consistent with the county's road 
management plan.
    We would also like to work with the Committee on section 2(f) of 
the bill regarding protection of military needs on the nearby Utah Test 
and Training Range and Dugway Proving Ground. We are in complete 
agreement on the importance of the mission of these military bases. The 
language of section 2(f) of this bill must adequately provide for 
military interests while protecting the wilderness resources and BLM's 
management of the wilderness area. For example, we would like to 
consider expanding the scope of the proposed memorandum of 
understanding (MOU) to include all aspects of military use in the 
proposed Pilot Range Wilderness, including placement of and access to 
communications and tracking systems.
    In addition, we would like to work with the Committee to 
incorporate provisions into the bill to ensure the protection of the 
Lahontan cutthroat trout (listed as ``threatened'' under the Endangered 
Species Act) and its habitat. Also, because Public Law 106-65 (October 
5, 1999) prohibits land use planning on BLM lands within the Utah Test 
and Training Range, we would like to work with the Committee to add 
language to clarify Congressional direction in this matter.
    Finally, the reference to section 4(d)(7) of the Wilderness Act in 
section 2(c) of this bill should be to section 4(d)(8) of the 
Wilderness Act.
    Thank you for the opportunity to testify in support of H.R. 2488, I 
am pleased to answer any questions that the Committee may have.
                                 ______
                                 
    Mr. Hefley. Thank you, Mr. Fulton.
    Colonel Tom Larkin, who is the director of the Utah Test 
and Training Range for the United States Air Force. Colonel 
Larkin?

   STATEMENT OF COLONEL TOM LARKIN, DIRECTOR, UTAH TEST AND 
            TRAINING RANGE, UNITED STATES AIR FORCE

    Colonel Larkin. Thank you, sir.
    Mr. Chairman, members of the Committee, thank you and good 
afternoon. We also thank you for the chance for early 
coordination on this bill and the chance to talk about the 
impacts of this bill on the Air Force Utah Test and Training 
Range, commonly known as the U-T-T-R or UTTR. As the 388th 
Fighter Wing range director, my organization provides 
operational oversight of the UTTR. I will begin by saying that 
maintaining continued access to the UTTR is absolutely vital to 
the Department of Defense, our civilian test customers, and we 
take our stewardship responsibility seriously as we weigh our 
military priorities with environmental concerns.
    The mission of the UTTR is to train warriors and test 
weapons, and the UTTR is the primary training range for the 
388th Fighter Wing and the 419th Fighter Wing, stationed at 
Hill Air Force Base. Both of these wings, in the last 4 and a 
half years, have deployed to combat zones 12 times, and the 
388th has recently deployed twice on counter-drug operations.
    At the UTTR, we fly about 15,800 sorties every year. Of 
those, approximately 390 are test sorties; another 1,000 are 
large bomber sorties: B-1, B-2s, B-52 sorties. Another 2,500 
are Navy and Marine sorties, and another 200 are allied air 
force sorties. Additionally, we conduct cruise missile testing, 
ground weapons testing, NASA support, industry testing as well 
as support to universities and high schools.
    At the UTTR, we test about 99 percent of all the air-to-
ground weapons in the U.S. inventory, which, simply stated, 
means that if we strap it to an airplane and use it to attack 
ground targets, we are testing it there at the UTTR.
    My comments on the wilderness bill, H.R. 2488: this 
legislation ensures the proposed wilderness area does not 
adversely affect our ability to conduct realistic military 
training and testing operations. It is my opinion that military 
range operations and wilderness areas can be compatible. In 
this bill, it is of particular note that low-level overflight 
will not be restricted. Also critical is language allowing us 
to use and maintain current on-the-ground electronic systems as 
well as installation of required follow-on systems.
    I must also emphasize the importance of the language 
concerning emergency access and/or control or restriction of 
public access. If an accident occurs on the range, it is vital 
that we have immediate access and authority to control all 
access and to include the public to the area concerned without 
any requirement to gain approval from other agencies. This 
access is required to protect the lives of air crew; ensure the 
safety of the public and for the protection of classified 
materials and programs. A case in point: we have had an F-16 go 
down in the Fish Springs Wilderness Study Area, and we were 
able to recover that aircraft with only minor environmental 
impact.
    My review of this proposed bill indicates no immediate 
impact to military or national security operations on the UTTR. 
However, additional language that would protect the interests 
of other national agencies and civilian research and test 
operations may be desirable in some form, perhaps an MOU.
    In summary, training and reliable weapons give us the edge 
needed for victory. We must continue to train and test 
realistically. At the UTTR, providing one of the world's best 
test and training ranges while preserving the wilderness 
environment is, can and should be compatible. Of the 1.7 
million acres of DOD land within the UTTR complex, less than 1 
percent is developed for military operations, while the 
remaining 99 percent is maintained in a wildernesslike 
condition.
    The condition of the UTTR is due in large part to the 
efforts of the United States Air Force and to protect this 
environment in accordance with public law. We protect this 
environment to guarantee our continued access to this range and 
because it is the right thing to do. I repeat: the access to 
the entire range is of vital importance to the Department of 
Defense, other national agencies and civilian institutions and 
industry.
    At this time, I would like to go forward to the map and 
give you a quick visual overview of the range and answer any of 
your questions.
    This range is truly a national treasure. I dropped my first 
live bombs on this range many years ago. It is a great place. 
It is unique also in that it is only about 45 miles to 70 miles 
away from our home base there, Hill Air Force Base. We do not 
have to expend much in the way of time and fuel to get to this 
range. It is about 92 miles across at the widest point; then, 
from the northern tip to the southern tail there, it is about 
200 miles. The range is divided along Interstate I-80 at about 
the two-thirds part, and where the wilderness area sits, it is 
the intersection of three of the critical sub-airspaces: A, B 
and restricted area 6404 Charlie. And that is part of our land 
bridge between the two--I am sorry; air bridge between the two 
ranges. We have a low altitude air bridge there.
    When we test cruise missiles, we oftentimes fly them around 
down here; take them up this air bridge; use this mountainous 
terrain up here to test the full capabilities of the weapon and 
bring it back home to the range for impact.
    Do you have any questions?
    [The prepared statement of Colonel Larkin follows:]

Statement of Colonel Thomas Larkin, Utah Test and Training Range, U.S. 
                 Air Force, Hill Air Force Base, Utah,

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to speak to you about the Utah Test and Training Range 
(UTTR) and the challenges we face in properly managing the associated 
range and airspace. I also appreciate the opportunity to discuss H.R. 
2488 and specifically the proposed language that addresses the vital 
activities that take place on the UTTR. As the 388th Range Director, my 
organization provides key functions and capabilities required for 
support of Air Force operational test and training programs at the 
UTTR. This includes range infrastructure systems, equipment, software, 
targets, facilities, data processing and display, land and airspace, 
security, and safety.
    I will begin by saying that maintaining continued access to our 
ranges and airspace is absolutely critical. In fact, if our ability to 
train our aircrews continues to diminish, America will soon lose its 
only edge in air combat proficiency. We can no longer rely on current 
Air Force technology to provide an advantage against our next 
adversary--that next adversary already has access to more advanced 
equipment than ours. It is only our superior training that enables 
pilots to have the upper hand in air combat. Additionally, AF ranges 
accommodate important civilian industry aeronautical testing and 
provide for public use and natural and cultural resource protection. We 
take our stewardship responsibility seriously as we balance our 
training priorities with environmental concerns.
Background
    The mission of UTTR is to train our warfighters and to safely test 
weapons that require large amounts of airspace and landmass. This range 
provides the largest overland safety footprint available in the 
Department of Defense (DoD) for aircrew training and weapons testing. 
By ``footprint,'' I mean a large land area that can safely accommodate 
weapons that may be fired dozens of miles away from a target. Of the 
total 12,574 square nautical miles comprising the Range, 6,010 are 
restricted airspace and 6,564 are Military Operating Areas (MOAs). The 
range supports training customers with capabilities for air-to-ground, 
air-to-air, and ground force exercises. This includes testing and 
training for allied forces, other national agencies, civilian industry, 
and civilian academic institutions.
    UTTR is the primary training range for the pilots who fly the F-16 
Fighting Falcon for the 388th Fighter Wing and the 419th Fighter Wing 
at Hill Air Force Base. Approximately 15,800 sorties are flown annually 
within the UTTR airspace. These 15,800 sorties include approximately 
390 test sorties, 650 B-1B sorties, 380 B-52 sorties, 2,500 US Navy/
Marine Corps sorties, and 200 allied air forces sorties. Additionally, 
we conduct Cruise Missile testing, ground weapons testing, NASA 
support, industry testing, as well as support to universities and high 
school research projects.
    UTTR's capabilities are critical to the successful fielding of the 
weapons systems America will depend on to secure its future. Tomorrow's 
weapons will be more sophisticated and have greater ranges than the 
weapons of today. UTTR is ideally suited for testing and training of 
these advanced systems. Since we can't predict technology developments, 
we need to be able to use the capabilities of UTTR flexibly. The 
proposed bill provides UTTR the flexibility to successfully accomplish 
the mission today and tomorrow.
Comments on H.R. 2488
    The Air Force supports the protection of wilderness and has many 
effective programs in place near our installation and training ranges 
with that goal in mind. Our experience with these programs shows that, 
if done correctly, military training and environmental preservation can 
be effectively accomplished. This proposed legislation ensures that 
designation of the Pilot Range Wilderness does not adversely affect our 
ability to conduct realistic training and testing operations. The 
proposed Wilderness bill is an excellent example that military range 
operations and wilderness areas can be compatible.
    The proposed Wilderness area in the Pilot Range interfaces with 
three of the key UTTR sub-airspaces, the LUCIN A and B MOAs, and the 
6404C Restricted Area. In FY-00 we flew 7780 sorties in these areas at 
varying altitudes from 100 feet AGL to 58,000 feet AGL. This airspace 
is vital to our operation on the northern portions of the UTTR and 
provide a critical air-bridge between the north and south parts of the 
range, which are divided along Interstate Highway 80 (I-80).
    Key provisions of this legislation acknowledge the UTTR and Dugway 
Proving Ground as unique and irreplaceable national assets and that 
continued unrestricted access is a national security priority. We 
support the concept that designation of wilderness areas and testing 
and training missions are not incompatible. Understanding the 
Wilderness Act does not prohibit or restrict low-level overflights; 
H.R. 2488 recognizes that fact in the provision specifically noting 
that low-level overflight will not be restricted. Language allowing 
continued use and maintenance of on-the-ground electronic systems, as 
well as the installation of newly required systems, is also critical.
    I must also emphasize the importance of Sec 2., Paragraphs (4) and 
(5) concerning emergency access and or control or restriction of public 
access. If an accident occurs during a military or civilian test it is 
imperative that we have immediate access and authority to control all 
public access to the areas concerned--without any requirement to gain 
approval from other agencies. This access is vital to protect the lives 
of aircrew, insure the safety of the public, and protect classified 
materials and programs. Case in point, we've had an F-16 go down in the 
Fish Springs Range--a Wilderness Study Area--and we were able to 
recover our aircraft with only minor environmental impacts.
Summary
    Maintaining our edge in air combat is directly linked to robust 
training capabilities, capabilities inherent in continued access to AF 
ranges and airspace. The AF recognizes the need to balance its test, 
training, and readiness requirements with responsible stewardship. We 
continue to look to our installations, ranges, and airspace to provide 
the AF the operational flexibility, efficiency, and realism necessary 
to continuously enhance readiness while allowing commanders to 
minimize, to the extent possible, the impacts of their mission on the 
community and the environment. Providing one of the world's best 
training and test environments while preserving the wilderness 
experience can and should be compatible.
    A newspaper article from the Ogden, Standard Examiner, July 6, 
2001, identifies the UTTR as ``one of the most pristine spots in the 
nation,'' according to Professor Neil West of Rangeland Resources, Utah 
State University.
    Of the 1.7 million acres of DoD land within the UTTR complex, less 
than 1% is ``developed'' for military operations while the remaining 
99% is maintained in a wilderness-like condition. The condition of the 
UTTR is due in large part to the time, efforts and resources expended 
by the United States Air Force to protect the environment in accordance 
with the laws of the United States, the State of Utah, and the State of 
Nevada. To date, Hill Air Force Base has spent approximately $4.9 
million on various environmental programs on the UTTR. Future 
expenditures of over $15 million are estimated to ensure continued 
environmental protection. We protect this environment to guarantee 
effective combat testing and training and because it's the right thing 
to do.
    Continued access to the entire Utah Test and Training Range is of 
vital importance to the Department of Defense, other national agencies 
and civilian institutions and industry. The future geopolitical 
environment remains uncertain, but one aspect continues to be critical 
for the success of the United States--we must strive to continue 
testing and training in our established military ranges while 
minimizing the impact of our operations on the surrounding environment. 
With the advent of future airpower weapons systems requiring sufficient 
airspace to train in, the UTTR, along with our other military ranges, 
must be preserved in their entirety. Your kind consideration of these 
comments and your efforts to protect the UTTR as a national treasure 
are deeply appreciated.
                                 ______
                                 
    Mr. Hefley. Thank you.
    Mrs. Christensen?
    Mrs. Christensen. Well, I think most of my questions 
probably would go to Mr. Fulton.
    Mr. Hefley. Okay.
    Mrs. Christensen. The first question, Mr. Fulton: your 
testimony states that the administration support for a 37,000-
acre wilderness, but it is our understanding that we are only 
asking to designate or the sponsor is asking to designate 
22,000 acres, and the map that is being prepared reflects the 
22,000 acre figure. Does the administration support the 
designation of only 22,000? Yes or--
    Mr. Fulton. Yes; the answer is yes.
    Mrs. Christensen. And the 22,000-acre wilderness would 
exclude significant lands that have wilderness characteristics 
in the Pilot Range. Would your analysis of H.R. 2488 not be 
different if you used the 22,000-acre figure that the sponsor 
intends for the area?
    Mr. Fulton. No; I do not think so. While it is true that 
the Pilot Range has more than 22,000 acres of land that has 
wilderness characteristics, it is not the Department of the 
Interior that makes the wilderness designation. That is a 
factor done by the Congress, and the administration would 
support the bill as proposed to be amended to the 22,000-acre 
number.
    Mrs. Christensen. Even though there are some areas of 
particular concern right at the border, the boundary of that 
wilderness and that that area of particular concern--I think it 
is an area of particular concern--would not be included in that 
area?
    Mr. Fulton. Well, we would anticipate working with the 
author of the bill and others to arrive at a management plan 
that provides the wilderness designation for the 22,000 acres 
and then, in the resource management plan for the additional 
acres, those acres would be managed under a different regime.
    Mrs. Christensen. I see; thank you.
    And I wanted to ask you, too, Mr. Fulton, a question about 
the military. Last Congress, Former Secretary Babbitt 
personally testified that military use language identical to 
that found in 2488 was an unprecedented intrusion and 
destruction of wilderness. That is a quote: ``The unprecedented 
intrusion and destruction of wilderness,'' and gives the Air 
Force more control over BLM public lands than they currently 
have. Why should we or why would we support permitting the 
military to have this amount of control over the area as 
wilderness more so than it has over other, regular public 
lands?
    Mr. Fulton. We do not see this as a matter of control but 
rather as partnering up with an important mission of a sister 
department, the Department of Defense; the criticality of being 
able to accomplish the defense mission for the country is one 
that is important. Since the Department of the Interior 
controls--the Bureau of Land Management controls nearly one in 
four acres of land in the United States, it is just very 
important that the two departments work closely together to 
make sure that both accomplish their missions.
    Mrs. Christensen. I still have some questions in my own 
mind about it, and, you know, we have had several discussions, 
maybe more outside of this Committee, about the readiness of 
our armed forces, which I fully support the need for exercises 
and for our military to be properly trained for the missions 
that we may need them to go to to defend us and the rest of the 
country, so I am not in any way wanting to interfere with that, 
but I am just questioning whether that is compatible with 
wilderness.
    Mr. Fulton. I do not think that that compatibility is 
exclusive. Some of the best areas of wilderness or 
nondevelopment assets are within our military bases, so we do 
not find that a military use of a land area would make that 
automatically not useful as wilderness.
    Mrs. Christensen. I do not have any other questions at this 
time.
    Mr. Hefley. Mr. Hansen?
    Mr. Hansen. Thank you, Mr. Chairman.
    Mr. Fulton, does the Secretary support the language in the 
bill regarding grazing rights, water rights and wildlife 
management?
    Mr. Fulton. Yes, sir, she does.
    Mr. Hansen. Is BLM's current ACEC designation providing 
adequate protection for wildlife management?
    Mr. Fulton. Does she support that?
    Mr. Hansen. Yes.
    Mr. Fulton. Yes; we would anticipate working closely with 
state fish and game officials as well as the Fish and Wildlife 
Service to make sure that fish and game animals are adequately 
protected.
    Mr. Hansen. Mr. Fulton, in 1964, when the bill was passed, 
a lot of phrases were used. One was considered what is pure 
wilderness. And Senator Humphrey commented on that on the 
Senate side. Of course, he made the statement: he said the very 
most wilderness there could ever imagine in the United States, 
Alaska and Hawaii, would be 30 million acres. Alaska has got 
over 100 million acres all by itself and going up.
    Anyway, that pure thing came down to the idea of no roads; 
is that right?
    Mr. Fulton. Yes, sir.
    Mr. Hansen. No structures.
    Mr. Fulton. Yes, sir.
    Mr. Hansen. No buildings, no cattle ponds, no roads; he 
mentioned that; no fences. That is the pure definition, is it 
not?
    Mr. Fulton. Yes, sir.
    Mr. Hansen. So those who tout the idea of pure wilderness 
would kind of agree with that; would you agree with that?
    Mr. Fulton. Yes.
    Mr. Hansen. So some of the things have wilderness 
characteristics but have those things in them.
    Mr. Fulton. Yes, sir.
    Mr. Hansen. And so, really, whether it is BLM, Forest 
Service or Park Service, you will find that sometimes, Congress 
does what they very well want to do. I mean, we could put New 
York City in wilderness if it had enough votes.
    Mr. Fulton. It is certainly the prerogative of the 
Congress.
    Mr. Hansen. We would hope that would not happen. Sometimes, 
the idea really appeals to me, however.
    [Laughter.]
    Mr. Hansen. But carrying that on, you get down to the point 
of, well, what is pure wilderness? Now, do you not feel that it 
is the position of Congress to try their very best to follow 
their own law?
    Mr. Fulton. Yes, sir.
    Mr. Hansen. And is that not the position of the Secretary 
and you folks working at Interior, you folks who wear the 
uniform, to follow the law of the land?
    Mr. Fulton. Yes, sir.
    Mr. Hansen. I figured it was.
    Colonel, let me ask you a question about a question my 
friend Mr. Young made in a recent email. He referred to the 
language protecting the UTTR as the worst part of the bill. In 
addition, in his testimony, he states: ``Members of Congress 
should recognize Section 2(f) for what it is: an antiwilderness 
initiative that is unnecessary; erodes the authority of the 
Department of the Interior and unnecessarily restricts 
individual freedom that is not restricted on other public and 
private lands far closer to Hill Air Force Bombing and Gunnery 
Range.''
    Now, do you agree with that?
    Colonel Larkin. No, sir, I do not. If we look at the entire 
range there, and there are quite a few wilderness study areas 
inside the range on BLM properties; we overfly wilderness study 
areas and, on other ranges, wilderness areas all the time. This 
is not something new or different.
    Thank you.
    Mr. Hansen. So in your opinion, it is very necessary that 
this language in this bill is in there to protect the work that 
you folks do; is that right?
    Colonel Larkin. Yes, sir; low-level flying and all types of 
overflight over the wilderness area is of vital importance to 
us. We have to be able to not only test the weapons capability 
from the very lowest altitudes that it can operate at and be 
employed at; also, the very highest. Also, we need to be able 
to train our air crews to employ that weapon or different types 
of weapons in all sorts of environments.
    Mr. Hansen. I had the privilege of flying in one of your F-
16-B models in the back seat there. I have never been so sick 
in my life but anyway--
    [Laughter.]
    Mr. Hansen. --let me point out that we got pretty low. How 
low do you go in those things? I thought we were dragging our 
wheels to the grass when we were there.
    Colonel Larkin. The illusion of speed; sometimes, it can 
get pretty low, though. And most of the time, it is to the 
limits of the training of the pilot, but that can vary from 
anywhere on high-speed aircraft from about 100 feet to no 
higher than, you know, 500 feet is what we would call low 
altitude. But helicopters can fly 10 feet from the earth at 100 
knots and do so all the time.
    Mr. Hansen. If we took the suggestion of some of the 
environmental groups regarding overflights of wilderness, parks 
and other pristine areas, what would that do to the training? 
That is unfair, because I did not explain what some of their 
language is, and it varies, but a lot of these folks just do 
not want any overflights. In fact, we had a lady on this 
Committee by the name of Sala Burton who put in a bill at one 
time that said you could not fly over any national parks at any 
altitude.
    Colonel Larkin. I think you would tie up a lot of airways 
that we would have a lot of bottlenecks.
    Mr. Hansen. 379 units of the Park Service would--I would 
hate to be an airline pilot. I do not know how you could make 
it from the East Coast to the West Coast.
    Colonel Larkin. Right.
    Mr. Hansen. And I do not know how the Air Force could even 
fly.
    Colonel Larkin. Well, if we just look at this training 
range and try to make our overflights, we would be unable to. 
To my understanding, there is basically 100 million acres worth 
of this type of property, and we overfly approximately 10 
million of that right now without impact.
    Mr. Hansen. Does the Air Force know of any studies where 
you feel it would be detrimental to wildlife?
    Colonel Larkin. No, sir, I do not. I do not know if the Air 
Force does. I can take that back for the record.
    Mr. Hansen. What about to domestic animals: cows, sheep, 
goats?
    Colonel Larkin. Again, I am not aware of any of those 
studies. I know studies have been done, but I do not know them 
off the top of my head, sir.
    Mr. Hansen. I thank you.
    Thank you, Mr. Chairman.
    Mr. Hefley. Thank you, both of you, for your testimony 
today.
    Mr. Hefley. We will go to the next panel: Mr. John Harja, 
manager of legal analysis for the Governor's Office of Planning 
and Budget in the State of Utah; Mr. Larry Young, executive 
director of Southern Utah Wilderness Alliance.
    Mr. Harja, do you want to start?

STATEMENT OF JOHN HARJA, MANAGER OF LEGAL ANALYSIS, GOVERNOR'S 
          OFFICE OF PLANNING AND BUDGET, STATE OF UTAH

    Mr. Harja. I would be happy to.
    Thank you, Mr. Chairman, for the opportunity to talk today 
about H.R. 2488. To get started, I would like to explain a 
little bit about a discrepancy involving some acreage. Mr. 
Hansen had asked the state to put together a map and calculate 
the acreage for this area that he proposed. This same area had 
been the subject of a study by the State of Utah in the 
previous administration, Mr. Babbitt, and that proposal had 
included 37,000 acres. That was a proposal; it was no more than 
that, and it came to the Congress, and it underwent some 
scrutiny and ultimately did not proceed.
    However, as part of that proposal, Mr. Hansen indicated 
that he would like to propose some changes. The result of all 
of that was a little SNAFU where we got the wrong map and, in 
fact, we should have told him originally that 23,000 acres were 
included in his proposal, which is what is shown on that map to 
my left. That is the reason there was a discrepancy. It was a 
SNAFU by the State of Utah, and Mr. Hansen, we take 
responsibility for that.
    The state would support wilderness in this area if our 
concerns are met, and those concerns concern water rights, 
wildlife rights and who manages wildlife, the Air Force as was 
just discussed, discontinuing the planning process for the 
area, no buffer zones, continuation of grazing rights, and 
assorted other goodies.
    We spent a fair amount of time, we being the State of Utah 
and the Department of the Interior under the previous 
administration spent a fair amount of time out in this area. We 
looked at the mountain range; we looked at the lands nearby. We 
looked at manageable boundaries; we looked at who owns the 
land. You will see a lot of white on that map. That is 
privately-owned land. We actually looked into the State of 
Nevada at Pilot Peak itself, which is the highest point of the 
range.
    And it would certainly make sense to include Pilot Peak, 
but it is in the State of Nevada, and it is our position that 
the Governor of Nevada should be proposing that. In addition, 
the land is still the checkerboard that you can see on that 
map. The checkerboard was caused by the transcontinental 
railroad grant. It was the reason that Pilot Range was not 
included in the first round of BLM. BLM acquired all of the 
land inside the Utah portion but has not acquired in Nevada, 
and so, you have got the checkerboard problem there.
    But more importantly, in Utah, I would like to spend a 
little time talking about water and wildlife. Water is 
allocated out of the Pilot Range. This is an isolated range 
that rises from the basic 5,000-foot level of the Great Salt 
Lake up to about 10,000-plus. It is an isolated range 
surrounded by sagebrush. As Mother Nature intended, rain and 
snow falls on the mountain and then, in the spring, flows away. 
That water is diverted in springs, some of which are fairly 
high on the mountain, and brought by aqueduct and pipeline to 
various sources.
    To the north, the water was originally, a long time ago, 
allocated to the railroad. It was used in the steam engines, 
and it is now allocated for wildlife and is used in the area of 
Lucen, Utah, for bird habitat for the migratory bird treaties 
of the United States of America. To the south, a lot of the 
water is diverted for endangered fish use; the lahonton 
cutthroat trout, I will talk about in a minute; and to the City 
of Wendover, which is apparently going to move, as I understand 
it, Mr. Hansen.
    To the south, the lahonton cutthroat trout were proposed 
for and added to the threatened list. At the request of the 
Federal Government, our wildlife folks looked and, quote, found 
lahonton cutthroat trout in a pond in Donner Creek, which is at 
the southern end. Donner Creek is named after the Donner party, 
who moved through the area.
    And they were moved to Bettridge Creek and another creek in 
the southern part of this area. They were not native to the 
area. They were found there; were probably put there by people, 
and they then were moved again. An ACEC has been put together, 
an area of critical environmental concern, to help manage that, 
and that is working very well.
    There are some lahonton cutthroat trout in a pond at this 
private ranch that was mentioned, and those are kept there with 
permission and on purpose, and they are used to harvest eggs to 
try to recover the species.
    In terms of wildlife folks, we have a number of concerns, 
the state. The state uses aircraft for a couple of purposes, 
and we go into this area with permission of the Air Force. They 
are used to count sheep, bighorn sheep, which have been 
reintroduced in the area. They are used to count deer and elk 
and such. They are also used to thin out the herds when 
necessary.
    Fire is an important tool, either fire or vegetation 
manipulation. This area, when it burns, tends to open up. 
However, when it does burn, it also introduces invasive species 
such as cheat grass, and that causes problems with sage grouse, 
an assumed to be at least a species that may be considered for 
listing, if I can get it right. We are also concerned about 
predators and access, predator control, that is.
    In terms of water, this range does have its own water. It 
flows out. The State of Utah is concerned about language that 
would reserve water rights. The Department and the state did 
agree on the language that is in this bill. In relevant part, 
it is the same language that was in House Resolution 3035 last 
Congress.
    The point is that the water rights are protected, and we do 
not need a reserved water right. The range will get the water 
it needs and does not need to have a reserved water right, and 
the State of Utah supports that. We also support the various 
appendices that are mentioned in terms of grazing and wildlife 
management. Those reports that are mentioned do allow all of 
the activities I have mentioned as long as they are compatible 
with wilderness, and the State of Utah is comfortable with that 
and believes it ought to be reaffirmed in this bill.
    So with that, Mr. Chairman, I will answer questions.
    [The prepared statement of Mr. Harja follows:]

   Statement of John A. Harja, Manager of Legal Analysis, Governor's 
              Office of Planning and Budget, State of Utah

    Good afternoon, Mr. Chairman. Thank you for the opportunity to 
speak briefly about the provisions of H.R. 2488, a bill to designate 
certain lands in the Pilot Range in the State of Utah as wilderness.
    The area proposed for designation is a desert mountain range in the 
Great Basin geographical region of Utah. The range culminates in a 
10,000 plus foot peak which is visible for miles across the salt flats 
adjacent to the Great Salt Lake. The early pioneers traveling to 
California, including the Donner-Reed party, used the peak as a route 
marker, hence the name Pilot Peak. Pilot Peak itself is within the 
State of Nevada, but most of the range is in Utah. At the base of the 
range is a spring known as Donner Spring; a place where the Donner 
party stopped to refresh themselves after the hard crossing of the salt 
flats.
    The state of Utah and the Department of the Interior negotiated and 
assembled a proposal for wilderness designation in the West Desert 
Region of Utah in 1999. The proposal included 17 different areas 
aggregating about one million acres of land up and down the western 
part of Utah. The Department and the State negotiated and dickered over 
the specific areas to be included in the proposal, and the boundaries 
of those areas. The two parties also discussed the terms of management 
for those areas, and reached agreement on some, but not all of those. 
The state of Utah fully supported the resulting package. That agreement 
was introduced into the Congress as H.R. 3035 in the 106th Congress, 
but ultimately did not receive approval.
    One of the areas proposed for designation in the negotiated 
proposal was the Pilot Range. The state would again support a bill for 
the designation of the Pilot Range as wilderness, subject to the bill 
containing proper language concerning water rights, grazing rights, 
control and management of fish and wildlife, release of lands not 
designated, ``no-buffer'' zones, and, in this particular case, 
operations of the Air Force in the Utah Test and Training Range.
    Normally, I would have included in the list of issues an exchange 
of the school trust lands within the boundaries of the areas designated 
as wilderness. However, subsequent to the agreement on the proposed 
wilderness package in 1999, the Department and the state negotiated an 
equal value exchange of the trust lands for other BLM lands. This 
proposed exchange was approved by the Congress, and became P.L. 106-
301. I am therefore able to state that the current proposal to 
designate the Pilot Range as wilderness does not present the difficulty 
of school trust lands.
    The state of Utah is vitally concerned about the effects of 
wilderness designation on the water allocation process and water 
rights. Decisions about water rights and allocation are rights reserved 
by the states, and properly so allocated by federal law. The area 
proposed for wilderness is a high mountain range rising steeply out of 
the flat desert and sage lands immediately around it. That water which 
flows out of the mountains is allocated to, and diverted for, various 
uses outside the proposed boundaries, including an allocation to the 
town of Wendover south of the range. Within the proposed boundaries, 
the range naturally receives the snow and rainfall necessary for the 
ecosystem to function. Those natural processes would remain unaffected 
by the designation of the area as wilderness. The Department and the 
state recognized this unalterable fact in 1999, and therefore agreed 
upon the water language in H.R. 3035, which language is duplicated in 
relevant part in H.R. 2488. The state of Utah supports the water 
language in Section 2 (h) of H.R. 2488 as drafted.
    Similarly, the management of fish and wildlife will remain with the 
state in the proposed wilderness area. The state manages for many 
purposes, including the protection of species which may be declining in 
numbers, and may become candidates for listing under the Endangered 
Species Act. The state needs to be able to be proactive with its 
management, and be able to manage in a cost-effective manner. This may 
require aircraft overflights to count herd size, vegetation alteration 
through prescribed fires, noxious weed treatments in order to encourage 
native plant growth, reintroduction of animals such as bighorn sheep, 
or management of cutthroat trout in the streams coming from the 
mountains. These management techniques can be accomplished ``in a 
manner compatible with the wilderness environment,'' as provided in the 
original wilderness act. Appendix B of the Report to the Committee on 
Interior and Insular Affairs to accompany H.R. 2750 of the One Hundred 
First Congress (H. Rept. 101-405) presents further guidance on how fish 
and wildlife management can be accomplished in a manner compatible with 
wilderness, and the state of Utah supports the reaffirmation of these 
principles at this time. The Department and the state agreed to the 
language on this issue in H.R. 3035, which language is used again in 
H.R. 2488. The state of Utah supports the language contained in 
Sections 2(c) and 2(e) of H.R. 2488.
    The state of Utah supports the continued use of the land within the 
wilderness areas by those ranchers who have grazing rights in the area. 
This is a use specifically authorized by law. House Report 101-405, 
Appendix A, and section 101(f) of Public Law 101-628 contain further 
guidance on grazing in wilderness areas, and the state supports 
reaffirmation of those important principles at this time. The 
Department and the state agreed to the language in H.R. 3035, which is 
identical to the language in section 2(g) of H.R. 2488. The state 
supports the language contained in section 2(g) of H.R. 2488.
    The state and the Department entered into the negotiations about a 
wilderness proposal for the western regions of Utah in order to reach 
some finality on the issue. Areas which met the criteria for wilderness 
designation, and which added substantially to the wilderness system 
were proposed for designation. Other areas, which may have had 
important functions for the economy, wildlife protection needs, or did 
not add significantly to the wilderness system were not put forward. 
One of the major points of the negotiation was the reaffirmation of 
areas not proposed for designation as multiple-use lands. The state 
notes that the Pilot Range was not found suitable for protection under 
section 603(c) of the Federal Land Policy and Management Act of 1976, 
largely because of the great amount of private land in the range caused 
by the checkerboard pattern of the transcontinental railroad grant. In 
the interim between the final statewide recommendation of the Bureau of 
Land Management for wilderness in Utah, and the 1999 negotiations, the 
Bureau acquired the private land within the boundaries proposed in the 
current bill. Therefore, although the land in the Pilot Range was never 
designated as a section 603(c) ``wilderness study area,'' the area was 
studied pursuant to the provisions of section 603(c). The area is 
currently a candidate for study under the process identified by the 
Federal Register notice of March 18, 1999, although the study process 
has been placed on hold in the area awaiting the results of an Air 
Force study. The Department and the state agreed to a cessation of 
further study of the issue in the H.R. 3035 negotiations, and the 
current language reflects that agreement. The state of Utah supports 
the language in Section 3 of H.R. 2488.
    The state of Utah also strongly supports the language in Section 4 
of H.R. 2488. Many activities occur near the Pilot Range, including an 
interstate freeway, transcontinental railroad and activities of the 
military. These activities must be allowed to continue, and the ``no-
buffer zone'' language of H.R. 2488 is designed to insure this is the 
case.
    The state is also very concerned about the effect of wilderness 
designation upon the activities of the Air Force in the Utah Test and 
Training Range. The state was adamant in the negotiations concerning 
the West Desert proposal that wilderness not have an impact on the 
operations of the Air Force in the UTTR. The UTTR is critical to the 
operation of Hill Air Force base, and the base is a crucial component 
of Utah's economy; one of the largest single employers in the state. I 
will defer to the Air Force to state its specific requirements for bill 
language necessary to insure this result.
    Thank you again Mr. Chairman for the opportunity to speak. The 
state looks forward to working with the Committee as the bill moves 
forward.
                                 ______
                                 
    Mr. Hefley. Mr. Young?

  STATEMENT OF LARRY YOUNG, EXECUTIVE DIRECTOR, SOUTHERN UTAH 
                      WILDERNESS ALLIANCE

    Mr. Young. Mr. Chairman, members of the Subcommittee, my 
name is Larry Young. I am a native Utahn and executive director 
of the Southern Utah Wilderness Alliance. I greatly appreciate 
the opportunity to meet with you today to express our 
organization's views on H.R. 2488.
    I have already submitted written testimony on behalf of the 
Southern Utah Wilderness Alliance and the Wilderness Society. 
We in Utah and others across the country support protection of 
our last remaining wild places in overwhelming numbers. We 
firmly believe that America's Red Rock Wilderness Act, now 
sponsored by more than 150 Members of Congress, is the wisest 
course to adopt with respect to resolving the ongoing debate 
about how much wilderness to designate in Utah.
    Unfortunately, H.R. 2488 does not share this vision. 
Nonetheless, we would support H.R. 2488 if it protected all 
lands in the Pilot Range that are included in America's Red 
Rock Wilderness Act and if it included clean management 
language. H.R. 2488 fails on both counts.
    For example, it would protect less than half of the 
remaining wilderness within the Pilot Range in Utah. When H.R. 
2488 was introduced on July 12, it proposed to designate 37,000 
acres of wilderness, but it already has been rolled back from 
this truncated wilderness proposal to the current inadequate 
22,000 to 24,000 acres, even though Representative Hansen 
introduced last year a 37,000-acre Pilot Range Wilderness as 
part of H.R. 3035.
    Yet now, Members of Congress are being asked to eliminate 
some 15,000 acres of wilderness and to make an unprecedented 
Congressional finding that these lands previously proposed as 
wilderness by the bill's sponsor and identified by the BLM as 
having wilderness characteristics are nonsuitable for 
wilderness designation.
    This nonsuitability language goes far beyond anything 
Congress has ever before enacted into law. It is hard release 
language that seeks to halt the wilderness study planning 
process that is currently underway, and it seeks to blacklist 
deserving wild lands from future wilderness designation. It 
goes on to release wilderness study areas established under 
authority of Section 603(c) of FLPMA, even though there are no 
wilderness study areas in the Pilot Range. The inclusion of 
language in H.R. 2488 referring to nonexistent WSAs illustrates 
the sponsor's intent to use it as a template for future bills 
that would compromise genuine wilderness protection.
    We also have serious concerns with the military use 
language in Section 2(f). To date, Congress has passed more 
than 100 wilderness bills. All but two have been silent with 
respect to military use. The two that included language related 
to military use: the Arizona Desert Wilderness Act and the 
California Desert Protection Act, did not include language such 
as that proposed here. Specifically, H.R. 2488 contains 
unprecedented language eliminating existing BLM authority to 
manage land under its control. It allows the Department of 
Defense to unilaterally install and maintain new buildings, 
equipment and temporary roads lasting up to 50 years inside 
wilderness areas. It allows unrestricted perpetual motorized 
access to wilderness areas, and it grants the military control 
over citizen access to wilderness areas.
    None of this has ever before been granted to the Department 
of Defense in designated wilderness. We would not be opposed to 
bill language that protected military training needs related to 
the proposed Pilot Range Wilderness if they were based on 
language similar to the Arizona Desert Wilderness Act and the 
California Wilderness Desert Protection Act.
    However, the unnecessary practical effect of Section 2(f) 
in its entirety is to cede authority to manage public lands 
covered by this bill to the Department of Defense. In fact, the 
Department of Defense is given far greater control of proposed 
BLM wilderness in the Pilot Range than it has over ordinary BLM 
lands, even those BLM lands directly adjacent to the Hill Air 
Force Range some 20 miles to the east of Pilot Range.
    Because H.R. 2488 is intended to serve as a template for a 
series of county-level wilderness bills throughout Utah, 
Congress must decide if it is willing to pass a series of bills 
that leave out large tracts of qualifying wilderness, 
permanently bar these deserving lands from protection as 
wilderness, reify unacceptable management language and leave 
the issue of wilderness protection in Utah unresolved and more 
contentious than ever.
    For all these reasons, the implications of this bill extend 
far beyond the Pilot Range itself. Again, we cannot support 
H.R. 2488 as it is currently written. We recommend that an 
additional 27,000 acres in the Pilot Range be added to the bill 
and designated as wilderness and that the unprecedented harmful 
language be replaced by standard military overflight and 
equipment maintenance language, standard water language and 
standard release language or no release language at all.
    Unless these and other changes discussed in our written 
testimony are made, we urge you to reject H.R. 2488.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Young follows:]

Statement of Larry Young, Executive Director, Southern Utah Wilderness 
 Alliance, on Behalf of The Southern Utah Wilderness Alliance and The 
                    Wilderness Society, on H.R. 2488

    Mr. Chairman, members of the Subcommittee on National Parks, 
Recreation, and Public Lands, we are pleased to have been invited today 
to present this testimony regarding H.R. 2488 on behalf of the Southern 
Utah Wilderness Alliance and our 18,000 members in Utah and across the 
nation. The Southern Utah Wilderness Alliance was formed in 1983 as an 
advocacy and educational organization dedicated to the goal of 
protecting the public's unique and irreplaceable landscapes in Utah for 
future generations of Americans. The lands of most concern to our 
members are those administered by the Bureau of Land Management, an 
agency which holds in public trust more than 23 million acres land in 
Utah, predominantly in southeastern and western Utah. These lands, the 
spectacular mesas of sinuous canyons, the sandstone spires and graceful 
arches, the isolated desert mountains that rise like islands out of the 
sagebrush sea basins, are gems of unparalleled magnificence owned by 
all Americans. What remains of these treasures in their national 
condition, unaffected by development, should be placed into the 
National Wilderness Preservation System, thereby maintaining a lasting 
legacy of protected land.
    Concurring in our testimony today is The Wilderness Society, an 
organization of 200,000 members nationwide, founded in 1935 and 
dedicated to ensuring that future generations will enjoy the clean air 
and water, wildlife, beauty and opportunities for recreation and 
renewal that pristine forests, rivers, deserts, and mountains provide.
    ``In order to assure that an increasing population, accompanied by 
expanding settlement and growing mechanization, does not occupy and 
modify all areas within the United States'' leaving no lands designated 
for preservation and protection in their natural condition, it is 
hereby declared to be the policy of Congress to secure for the American 
people of present and future generations the benefits of an enduring 
resource of wilderness.'' Such was the intent of Congress in enacting 
the Wilderness Act of 1964.
    To the chagrin of the majority of Utahns, we are fast losing the 
extent and variety of our wilderness. In Utah, of the 23 million acres 
administered on behalf of the public by the Bureau of Land Management 
(BLM), only 40 percent still qualifies for designation as wilderness. 
Because so little remains, Congress would be wise to set aside more 
rather than less. Bold steps are necessary to protect for the future 
what remains of these national treasures that are international 
attractions. Nowhere outside of Alaska is this natural heritage more in 
evidence than in Utah.
    Most people in Utah would like to see our political leaders be 
bolder in their approach to settling the wilderness question. And since 
these are truly lands of national interest, Americans deserve better. 
We in Utah and others across the country support protection of our 
country's last remaining wild places in overwhelming numbers. We firmly 
believe that enactment of America's Redrock Wilderness Act, now 
sponsored by 150 Members of Congress, is the wisest course to adopt.
              h.r. 2488: fundamentally flawed legislation
    Unfortunately, H.R. 2488 does not share this vision. It would 
protect only 0.2% of the lands deserving of wilderness designation and 
included in America's Redrock Wilderness Act. Even within the Pilot 
Range, the proposal excludes more than half the land deserving of 
protection, even though these excluded lands contain no user conflicts, 
and their designation as wilderness would enhance both the experience 
of wilderness and the protection of wildlife and other wilderness 
resources. Worse yet, H.R. 2488 is saddled with unprecedented ``hard 
release'' language that would blacklist deserving wild lands from 
future wilderness designation, and unprecedented management language 
that would weaken the Wilderness Act of 1964. In several instances, the 
unacceptable management language serves no purpose other than to 
establish precedence for future wilderness bills in Utah and across the 
country.
    Although passage of H.R. 2488 would do very little to actually 
resolve the contentious Utah wilderness debate, the Southern Utah 
Wilderness Alliance would gladly support the bill if it protected all 
lands in the Pilot Range that are included in America's Redrock 
Wilderness Act and if it included clean management language that 
offered genuine wilderness protection that did not undermine the 
Wilderness Act of 1964. However, because H.R. 2488 ignores worthy lands 
in the Pilot Range and includes unacceptable management language, the 
Southern Utah Wilderness Alliance does not support H.R. 2488 in its 
current form.
    Furthermore, our opposition to H.R. 2488 extends beyond our concern 
with its inadequacies with respect to the Pilot Range. Congressman 
Hansen has already acknowledged his intent to introduce a series of 
wilderness bills on a county-by-county basis (Salt Lake Tribune, July 
17, 2001, p. A4) and H.R. 2488 is intended to serve as a template for 
these future bills. Congress must decide if it is willing to pass a 
series of wilderness bills that shortchange acreage within proposed 
wilderness units, permanently bar deserving lands from protection in 
the National Wilderness Preservation System, reify unacceptable 
management language, and leave the issue of wilderness protection in 
Utah unresolved and more contentious than ever. For all these reasons, 
the implications of this bill extend far beyond the Pilot Range itself.
    Below, we discuss our concerns with H.R. 2488 in detail. We address 
the following:
    <bullet> LThe Pilot Range: Land Worthy of Genuine Wilderness 
Designation Not Offered by H.R. 2488 (pp. 2-5). This section provides a 
description of the Pilot Range, with special emphasis on proposed 
wilderness units that are partially included in H.R. 2488.
    <bullet> LCritical Places Omitted: Half a Wilderness (pp. 5-8). 
This section focuses on excluded portions of the Pilot Range.
    <bullet> LProblems with Management Language (pp. 8-11). This 
section focuses on the unprecedented ``hard-release'' and military use 
language, as well as other serious management language problems in H.R. 
2488.
    <bullet> LH.R. 2488 and Utah's Wilderness: A Terrible Template for 
the Future (pp. 11-12). This section summarizes our opposition to H.R. 
2488 as it is currently written.
  the pilot range: land worthy of genuine wilderness designation not 
                          offered by h.r. 2488
    The Southern Utah Wilderness Alliance, along with the more than 200 
other conservation groups that make up the Utah Wilderness Coalition, 
has long been a proponent of adding lands within the Pilot Range to the 
National Wilderness Preservation System. The Pilot Range, located in 
the Great Basin on the Utah-Nevada border, is an outstanding example of 
BLM lands in northwest Utah deserving of wilderness designation. The 
Pilots'' typically snow-covered peaks are more than an historic 
landmark--they are a haven both for wildlife and for human visitors 
seeking solitude, spectacular views, outstanding hunting opportunities, 
and untrammeled natural conditions. Utah's Pilot Range wilderness 
includes alpine meadows and basins, pinon-juniper forest, sage-covered 
slopes cut by rocky canyons, and rare perennial streams; it is home to 
herds of elk, Rocky Mountain bighorn sheep, pronghorn antelope, and 
mule deer, and Utah's only population of threatened Lahontan cutthroat 
trout. The Pilot Range deserves permanent protection by appropriate 
wilderness legislation--unfortunately, H.R. 2488 is not it.
    The Pilot Range includes three proposed wilderness units. 
Unfortunately, H.R. 2488 includes only limited portions of the southern 
two units: the Pilot Peak Unit and the Central Pilot Range Unit. All of 
the Bald Eagle Mountain Unit is excluded. Below is a description of the 
two partially included units followed by a description of deserving 
portions of the Pilot Range that have been excluded from H.R. 2488.
    Pilot Peak Unit Description: The Pilot Peak Unit straddles the 
Utah/Nevada state line, with approximately 27,000 acres on the Utah 
side and 23,000 acres on the Nevada side, giving this wilderness unit a 
total of about 50,000 acres of public land. The BLM has inventoried the 
Utah side of the Pilot Peak unit and found it to have wilderness 
characteristics. Unfortunately, of the 27,000 acres in Utah, about 
14,000 acres of this deserving unit, including portions of a BLM-
designated Area of Critical Environmental Concern, are excluded from 
H.R. 2488.
    Pilot Peak is one of the gems of the Great Basin. Its 10,716-foot 
symmetrical shaped top was a landmark for early explorers and later for 
such famous wagon trains as the Donner-Reed Party, which passed to the 
east and north of this range in 1846. This wagon train was so badly 
weakened and so far behind schedule from traversing 80-plus miles of 
desert playa salt flats before reaching the life-giving spring at the 
edge of this peak, now named Donner Spring, that they became snowbound 
in the Sierra Nevadas that fall. The peak was named by John C. Fremont 
during his expedition in 1845. Kit Carson, the expedition's guide, sent 
ahead to locate water, found a line of springs at the eastern base, now 
known as McKeller Springs. Carson is reputed to have guided the rest of 
the Fremont's expedition across the salt flats by sending up smoke 
signals from the peak, hence Fremont's name for it.
    The Pilot Peak Wilderness Unit encompasses bench lands starting at 
4,300 feet, and climbs to lofty alpine regions of the peak and ridges 
at 10,716 feet, more than a mile above the valley floors below. Pilot 
Peak features two perennial streams, Donner and Bettridge Creeks (both 
inexplicably excluded from current or future wilderness designation by 
H.R. 2488). In April of 1977, a Utah Division of Wildlife Resources 
(UDWR) fisheries biologist sampled Donner Creek at the request of the 
Bureau of Land Management (BLM) and discovered Lahontan cutthroat 
trout. It is believed they were transplanted into Donner Creek in the 
early 1900's. The Lahontan cutthroat trout derive their name from Lake 
Lahontan, an ancient inland freshwater lake which existed during the 
ice age in Nevada. The lake extended from what is now Wells, Nevada, on 
the east, to what is now Pyramid Lake on the west. The great lake 
disappeared about 13,000 years ago, leaving a remnant population of the 
trout in lower lakes and streams of the Lahontan Basin in Nevada and 
California.
    Due to hybridization with other trout species throughout its 
original range, the Donner Creek population is now believed to be the 
only pure strain of the Pyramid Lake variety of the Lahontan cutthroat 
trout in existence. For this reason, in May of 1988 the BLM designated 
approximately 1100 acres, including the watersheds of both Donner and 
Bettridge Creeks, as an Area of Critical Environmental Concern (ACEC), 
thus providing greater protection and management of the threatened 
Lahontan cutthroat trout. The species was originally listed as 
endangered in 1970 (35 Fed. Reg. 16047) and was reclassified as 
threatened (40 Fed. Reg. 29864) under the Endangered Species Act of 
1973, as amended. Unfortunately, all but the northern edge of this ACEC 
would be excluded from current or future wilderness designation by H.R. 
2488--completely excluding Donner and Bettridge Creeks.
    Vegetation in this region is quite diverse depending on elevation, 
water, and slope angle. The upper reaches of this peak and north-facing 
slopes have pinon and juniper forests, cliffrose, mountain mahogany, 
aspens, willow, sagebrush and lupines. Pinon and juniper forests, which 
provide diverse habitat, extend down in places to around 5,000 feet 
along the bench lands. South-facing slopes and high ridge tops are 
dominated by sagebrush, native grasses, and mixed mountain brush 
communities. Lower elevations, bench lands and drainage bottoms are a 
mix of rabbitbrush, native grasses such as Indian ricegrass, and 
greasewood.
    Wildlife is abundant, consisting of mule deer, elk, pronghorn 
antelope, Rocky Mountain bighorn sheep, mountain lion, bobcat, badger, 
coyote, jackrabbit, cottontail, various ground squirrels and rodents. 
The deer population is minimal throughout the Pilot Range, but the 
perennial streams and associated dense vegetation within the ACEC make 
this area quite important to deer year-round. The Utah Division of 
Wildlife Resources has identified much of this unit as ``high 
priority'' mule deer and elk habitat. Raptors found within the ACEC, 
and throughout the unit, include the golden eagle, red-tailed hawk, 
kestrel, great horned owl, and Coopers and sharpshinned hawks. An 
active red-tailed hawk nest has been located in the Donner Creek 
drainage. Upland game birds in the ACEC consist of the mourning dove 
and chukar partridge. Sage grouse and Hungarian partridge are found in 
Pilot Range. Reptiles that commonly occur in the area include the Great 
Basin rattlesnake, Great Basin gopher snake, and the Salt Lake horned 
lizard.
    Views from Pilot Peak and surrounding mountain areas are 
impressive. A visitor has an expansive 360-degree view of the Grouse 
Creek, Hogup, Promontory, Cedar, Stansbury, Deep Creeks and the Wasatch 
Mountains on the Utah side of this range and into Nevada, ranges such 
as the Toano, Delano, Goshute, Pequops and the Ruby Mountains, along 
with many others into the Great Basin can be seen. Rising above the 
vast playa salt flats of the Great Salt Lake Desert, once covered by 
ancient Lake Bonneville around 15,000 years ago, one can see the Silver 
Islands, Crater Island, Lemay Island, Pigeon Mountain and the 
Newfoundland Mountains.
    Precipitation in this area mostly comes in the form of snow in the 
winter months from October through April. Precipitation varies from 
around six inches at the lower elevations to around sixteen inches at 
the upper elevations of Pilot Peak. Numerous springs are a direct 
benefit from this precipitation, providing critical wildlife habitat. 
Opportunities for hiking, backpacking, camping, horseback riding, 
scenic photography, hunting, wildlife viewing, backcountry skiing and 
sight seeing are abundant throughout this entire unit.
    Central Pilot Range Unit Description: The Central Pilot Range Unit 
is situated in the middle of the Pilot Range in the northwest corner of 
Utah while a small portion of the western flanks enters Nevada. It has 
a north-south orientation that is typical in the Great Basin. The 
southern boundary utilizes the impressive Patterson Pass jeep route--
with its many granite rock outcroppings--while the northern boundary 
uses the many private inholdings and routes at the historic mining area 
of Copper Mountain. The eastern boundary is a well-used route and an 
aqueduct system that provides water for local ranching and for the 
railroad at Lucin. The western boundary, which at times is in the state 
of Nevada, uses private ownership.
    This wilderness unit encompasses bench lands from 5,300 feet in 
elevation, to alpine ridges at 7,800 feet, with the impressive Box, 
Cook, and Hogans Alley canyons on the west and McGinty Canyon on the 
east. Vegetation at higher elevations and on north-facing slopes is 
dominated by pinon and juniper forests, mountain mahogany, and mixed 
mountain brush communities. South-facing slopes and high ridge tops are 
dominated by sagebrush, native grasses, and mixed mountain brush 
communities. Lower elevations, bench lands and drainage bottoms are a 
mix of rabbitbrush, native grasses, and greasewood.
    Around 15,000 years ago, the inland sea of Lake Bonneville was 
shaping much of what is these bench lands today. Several ancient lake 
shorelines can be seen, and impressive deltas were formed from sediment 
flowing into the lake and settling. This is most obvious on the western 
portion of this unit.
    This region has abundant wildlife, with big game animals such as 
elk, mule deer, Rocky Mountain bighorn sheep and pronghorn antelope 
inhabiting many portions of this unit. Mountain lions, bobcats, 
badgers, coyotes, bats, ravens, and several species of reptiles also 
inhabit this unit. The Utah Division of Wildlife Resources has 
identified this area as ``high priority'' habitat for mule deer and 
elk. This region also lies along a major migratory route for such 
raptors as the golden eagle and the red-tailed hawk, which feed on the 
many small mammals and rodents. Occasionally, turkey vultures can be 
seen soaring above searching for a meal.
    Views from this area are breathtaking. From the upper reaches of 
the unit, a visitor has an impressive 360-degree view of the Grouse 
Creek, Raft Rivers, Hogup, Promontory, Cedar, Stansbury and Wasatch 
Mountains on the Utah side of this range, and into Nevada, ranges such 
as the Toano, Delano, Pequops and the Ruby Mountains can be seen. In 
the expansive playa salt flats of the Great Salt Lake Desert, which was 
once covered by Lake Bonneville, one can see the Silver Islands, Crater 
Island, Lemay Island, Pigeon Mountain and the Newfoundland Mountains. 
To the south, along the ridges, 10,716-foot Pilot Peak looms over the 
desert landscape below.
    Precipitation in this area mostly comes in the form of snow in the 
winter months, providing the necessary ground water to feed the many 
springs in this unit. Visitors to this area are immediately struck by 
the overwhelming feeling of solitude and remoteness. Opportunities for 
hiking, backpacking, camping, horseback riding, scenic photography, 
hunting, wildlife viewing, and sightseeing are abundant throughout this 
entire unit.
               critical places omitted: half a wilderness
    Without explanation, H.R. 2488 excludes more than half the Pilot 
Range's wilderness in Utah. Of the 49,000 acres that qualify for 
wilderness protection, H.R. 2488 omits 27,000 acres--leaving only 
22,000 acres of proposed wilderness in the bill. When H.R. 2488 was 
introduced on July 12, it proposed to designate 37,000 acres of 
wilderness--but its sponsors already have rolled back even this 
truncated wilderness proposal to the current inadequate 22,000 acres. 
(Representative Jim Hansen and Utah Governor Mike Leavitt agreed last 
year that the Pilot Range wilderness should be at least 37,000 acres, 
and Rep. Hansen himself introduced last year a 37,000-acre Pilot Range 
wilderness as part of H.R. 3035. Yet now H.R. 2488 has moved the 
goalposts to a minimal 22,000 acres.)
    H.R. 2488's boundary excludes the entire 12,000-acre Utah 
Wilderness Coalition-proposed Bald Eagle Mountain Unit at the north end 
of the range. Though there is a communication tower at the northern 
edge of this area, this does not detract from its remoteness or 
wildness; the Bald Eagle Mountain unit is still predominantly natural 
in character and deserving of wilderness protection.
    Inexplicably, the bill also cuts off 15,000 acres of BLM-identified 
wilderness from east and south sides of the Pilot Peak Unit--this 
omitted wilderness clearly meets all standards set out in the 
Wilderness Act, has been confirmed by the BLM as wilderness quality 
land, and has been recommended by the Governor of Utah and the previous 
Secretary of the Interior for wilderness designation. It provides 
spectacular views, solitude, and wildlife habitat--yet H.R. 2488 fails 
to protect it. The Pilot Range deserves at least 49,000 acres of 
wilderness, not the minimal 22,000 acres proposed in this bill.
    Why exclude parts of the Pilot Range that have been determined by 
the BLM to have wilderness characteristics and that previously have 
been proposed for wilderness designation by Governor Leavitt and 
Congressman Hansen? One possible explanation is that these lands are 
primarily bench lands falling at the foot of the mountain range. But 
these excluded benches and creeks (including creeks currently a part of 
the BLM designated Area of Critical Environmental Concern) are an 
integral part of the Pilot Range's Great Basin wilderness landscape. 
The BLM has recognized that these lands enhance the experience of 
solitude and recreation, and protect wildlife and other wilderness 
resources. In its 1999 FLPMA 202 Wilderness Inventory of another Great 
Basin mountain range, the Cedar Mountains, the BLM explicitly 
recognized that bench lands enhance solitude and offer critical 
wildlife habitat (see BLM Utah Wilderness Inventory, http://
www.ut.blm.gov/wilderness/wrpt/wrptnwcedar.html). The same is true for 
the Pilot Range's eastern bench lands which offer views of vast open 
spaces to the Silver Island and Newfoundland Mountains. The bench lands 
by themselves would be worthy of wilderness protection, given that they 
would constitute a unit of more than 10,000 acres that offer 
recreational opportunities, stunning views, and the protection 
wildlife. When added to the Pilot Peak Unit, they become even more 
valuable.
    Inexplicably, Congress is being asked not only to exclude these 
lands from wilderness designation, but to determine that they are 
``nonsuitable for wilderness designation'' (see Section 3 of H.R. 
2488). This finding is particularly repugnant because the BLM has 
identified these lands as having the necessary qualities for entry into 
the National Wilderness Preservation System, and because the sponsor of 
H.R. 2488 sponsored last year's H.R. 3035, which found these very same 
lands quite suitable--and indeed proposed them--for wilderness 
designation.
    Finally, H.R. 2488 also omits more than one square mile of 
wilderness-quality land at the northwest corner of the Pilot Range 
unit, in the middle of the range. This area, which is mostly State 
land, should be added to BLM's inventory unit and included in the Pilot 
Range wilderness area--as part of its 1999 reinventory, BLM made a 
point of drawing boundaries to include deserving State sections along 
the boundaries of potential wilderness units, and this area is 
deserving. (In addition, both the BLM boundary and H.R. 2488 use an 
incorrect road alignment on the cherry-stemmed Patterson road; and both 
mistakenly include a stock tank in the northeast corner of the Pilot 
Range unit.)
    The ecological significance of excluded bench lands beneath the 
mountains of the Pilot Range: The lower elevation benches that support 
Utah's distinctive Great Basin mountain ranges are an ecologically 
integral, and functionally irreplaceable, habitat type in the Great 
Basin desert. These ecological ``transition zones'' play an important 
role in both surface and groundwater hydrology, and in fulfilling the 
needs of native aquatic and terrestrial species.
    Hydrologically, the benches are the link that enables both surface 
and groundwater to flow from the mountains to the critical lowland 
valleys below, which in turn provide a haven for migratory wetland 
birds and rare desert fish. Of critical importance in the case of the 
Pilot Peak benches, the benches are known to contain an amount of 
natural seeps and springs. Destroy these springs with roads, ORV's, 
water usurpation and other developments, and the creeks that bring 
water from both the springs and high mountain runoff will eventually 
cease to be perennial, with certain impacts to aquatic species that 
live in these creeks, as well as wetlands in the valleys below.
    A prime example of the hydrologic importance of these bench lands 
to aquatic wildlife is illustrated in the case of the federally listed 
Lahontan cutthroat trout. The Pilot Peak range is home to the only 
known population of what is believed to be the last remaining pure 
strain of the Pyramid Lake variety of Lahontan cutthroat trout. As in 
all Great Basin mountain ranges, the Donner (a.k.a. Morrisson) and 
Bettridge Creeks that support these cutthroat are susceptible to sudden 
high flows, which can wash the trout clear down to the valley floor on 
the west slope of the Pilot Range. Unless the benches through which 
these creeks flow are adequately protected from development, future 
road-building, off-road vehicle (ORV) use, and water diversions, the 
streams and essential protective riparian ecosystems could become 
degraded to the point where fish washed down into the valley would not 
have a functional, perennial and healthy system that would enable the 
trout to make their way back up to their proper range.
    Indeed, species other than fish rely on functional streams and 
their associated, healthy riparian areas through the bench land 
transition zone. Deer and elk are known to use healthy riparian 
corridors through mountain benches as a migration route from their 
winter ranges on the valley floors to their summer ranges in the 
mountains. And only on the benches will one find the critical 
cottonwood-willow associations which constitute necessary habitat for 
neotropical migrant birds, as well as game birds such as chukar. The 
cottonwood-willow association is not found in the coniferous zone that 
dominates most high mountain ranges in the Great Basin, nor will it be 
found on the valley floors, where creeks either dwindle to nothing, or 
water is gathered in lotic systems with emergent plant associations.
    Bench land ecosystems also offer important habitat for terrestrial 
wildlife. A good example is the sage grouse, which is soon to be a 
candidate for federal listing. While sage grouse prefer the more open 
habitats of the valley floors for lek sites and breeding, the benches 
(with more alluvial soil and less alkaline conditions that feature more 
robust grass and forb communities) offer the habitat most necessary for 
nesting and brooding. Taller grass on the benches can protect nests and 
chicks from predation, while higher density and diversity of forbs 
offer the greater nutrition required by nesting birds and their young. 
Right now, protection of any habitats known to be important to sage 
grouse should be taken very seriously, because there is an active 
petition to list this species under the Endangered Species Act.
    Lastly, the bench lands excluded from H.R. 2488 are also home to 
many species identified on the BLM's ``sensitive species list,'' 
including critical habitat for the Long-Billed Curlew and the Ringtail 
Cat.
    The wilderness value of the excluded Bald Eagle Mountain Unit: The 
Bald Eagle Mountain wilderness--excluded entirely from H.R. 2488--lies 
on the northern portion of the Pilot Range. It is situated in the 
northwest corner of Utah and a small portion lies within Nevada. This 
wilderness unit is classic basin and range topography, oriented in a 
north to south direction and has elevations from 5,000 to over 8,000 
feet at the mountain summit. Deep canyons run east and west from the 
ridge lines and are covered in pinon pine and juniper forests. Mountain 
mahogany and mixed mountain brush communities dominate the north-facing 
slopes, while the south-facing slopes and ridge tops are dominated by 
sagebrush and native grasses. Rabbitbrush, native grasses and 
greasewood are common in drainage bottoms and bench lands.
    Views from this area are spectacular with the Silver Islands, 
Crater Island, Lemay Island, Pigeon Mountain and the Newfoundland 
Mountains all surrounded by the expansive playa salt flats of the Great 
Salt Lake Desert which was once covered from the inland sea of Lake 
Bonneville around 15,000 years ago. Distant views to the Grouse Creeks, 
Raft Rivers, Hogup, Promontory, Cedar, Stansbury and the Wasatch 
Mountains can be seen out on the Utah side of this range. Into Nevada, 
ranges such as the Toano, Delano, Pequops and the Ruby Mountains can be 
seen. Though there is a communication tower at the northern edge of 
this area, this does not detract from its remoteness or wildness; the 
Bald Eagle Mountain unit is still predominantly natural in character 
and deserving of wilderness protection.
    Wildlife is abundant in this region. Mountain lions, elk, mule 
deer, Rocky Mountain bighorn sheep, pronghorn antelope, bats, ravens 
and reptiles inhabit this unit. This region also lies along a major 
migratory route for such raptors as the golden eagle and the red-tailed 
hawk. The southern portion of the unit contains interesting and 
historic mining activity, including the remains of a aerial tramway 
that once hauled ore off the mountain. Visitors to this area are 
immediately stuck by the overwhelming feeling of solitude. 
Opportunities for hiking, camping, horseback riding, scenic 
photography, hunting and sight seeing are abundant throughout this 
entire unit. The Bald Eagle Mountain Unit is also likely home to many 
species identified on the BLM's ``sensitive species list,'' including: 
high-value habitat for the Bobolink, Burrowing Owl, Ferruginous Hawk, 
Osprey, Swainson's Hawk, and Short-Eared Owl, and critical habitat for 
the Ringtail Cat.
                   problems with management language
    In the history of enacting wilderness legislation, which to date 
has added a total of 106 million acres to the National Wilderness 
Preservation System, great care has been taken to maintain the purity 
of the wilderness concept and to observe standard prescriptions that 
have made consistent in large measure the management of wilderness. 
H.R. 2488 contains unacceptable new prescriptions that diverge from 
this pattern of consistency in management prescriptions. This 
legislation is sadly flawed and, if enacted as currently drafted, would 
result in a pronounced weakening of wilderness standards. The Southern 
Utah Wilderness Alliance cannot support erosion of the wilderness 
concept as embodied in H.R. 2488. Below, we discuss in detail several 
sections of H.R. 2488 which raise serious, significant concerns that 
must be brought to light and addressed before this bill can pass 
muster.
    Section 2(e): We are concerned that Section 2(e) as written would 
permit construction within wilderness areas of water developments such 
as ``game guzzlers,'' designed to increase the population of non-native 
species. Construction of any new facility in wilderness (except for 
narrow exceptions) is inconsistent with the definition of wilderness in 
the 1964 Wilderness Act. This section must be revised to clarify that 
management activities do not include construction of facilities for 
water sources to artificially increase populations of either non-native 
or native species.
    Section 2 (f): This section represents one of the most disturbing 
provisions of the entire bill. The language far exceeds anything ever 
included in any wilderness bill for public lands. More than 100 
wilderness laws have been enacted. All but two have been silent with 
respect to military use. The two that included language related to 
military use, the Arizona Desert Wilderness Act of 1990 and the 
California Desert Protection Act of 1994, did not include language such 
as that proposed here. Rather, each bill put in place adequate 
protections to ensure that the military would be able to conduct low-
level overflights and to maintain existing communication and tracking 
installations.
    Specifically, H.R. 2488 contains unprecedented language eliminating 
existing BLM authority to manage lands under its control. It allows the 
Department of Defense to unilaterally install and maintain new 
buildings, equipment, and temporary roads lasting up to 50 years inside 
designated wilderness areas; it allows unrestricted perpetual motorized 
access to wilderness areas; and it grants the military control over 
citizen access to wilderness areas. None of these new rights have ever 
before been granted to the Department of Defense in designated 
wilderness. In addition, the plain text of Section 2(f) would exempt 
the Department of Defense from other land management statutes such as 
FLPMA, NEPA, and the ESA, statutes that fully apply to the Department 
in almost all circumstances.
    The Southern Utah Wilderness Alliance would not be opposed to bill 
language that sought to enact protections for military training needs 
related to the proposed Pilot Range wilderness if they were based on 
language similar to the Arizona Desert Wilderness Act of 1990 and the 
California Desert Protection Act of 1994. In addition, given that the 
Wilderness Act of 1964 already provides for emergency access and 
response in the event that human life or health is at risk, the 
language in Section 2 (f)(4) is unnecessary and redundant.
    However, the unnecessary practical effect of Section 2 (f) in its 
entirety is to cede authority to manage public lands covered by this 
bill to the Department of Defense. In fact, H.R. 2488 would give the 
Department of Defense far greater control of proposed BLM wilderness in 
the Pilot Range than it has in the 20 miles of ordinary private, State, 
and BLM lands between the proposed Pilot Range wilderness and the Hill 
Air Force Bombing and Gunnery Range.
    Proponents of this bill may argue that national security rests upon 
inclusion of the language contained in H.R. 2488. They may even call 
into question the patriotism of those who challenge the necessity of 
the language. However, their argument is flawed for several reasons.
    First, no one denies that the nation's military readiness is an 
extremely important matter, but it should be noted that significant 
acreage near the Utah Test and Training Range where such preparedness 
is practiced has been included in Wilderness Study Areas for more than 
ten years. The Air Force has flown hundreds of sorties, or practice 
runs, annually during the last decade, and military personnel at Hill 
Air Force Base have acknowledged that Wilderness Study Areas have in no 
way affected their ability to ensure pilots are properly trained, 
equipment thoroughly tested, and emergencies quickly handled. The Air 
Force already has a working agreement with the Department of Interior 
for emergency access, recovery of equipment, and the like. Designating 
the Pilot Range as wilderness with more appropriate management language 
than that contained in H.R. 2488 would continue to protect military 
interests and national security without degrading the Wilderness Act of 
1964. For example, military operations have not been hampered or 
compromised by the more acceptable management language in the Arizona 
Desert Wilderness Act of 1990 and the California Desert Protection Act 
of 1994.
    Second, if national security really does rest upon ceding control 
of the proposed Pilot Range wilderness to the Department of Defense, as 
H.R. 2488 would, then it follows that all the land between the proposed 
wilderness and the Hill Air Force Bombing and Gunnery Range--some 20 
miles away--must be of equal or greater importance to national security 
and in need of similar or more stringent management language. It 
follows that practical control of these other lands also ought to be 
turned over to the Department of Defense so that it could unilaterally 
build installations and roads and control human access. Yet H.R. 2488 
remains silent with respect to these lands even as it seeks to reify 
language that would weaken the purity of wilderness protection in 
future wilderness bills.
    In summary, Section 2(f)(3) and (5) go far beyond anything ever 
included in previous wilderness bills, they are not necessary to 
provide for military training needs, they give the BLM less control 
over BLM wilderness lands than other BLM lands (even other BLM lands 
closer to the Hill Air Force Range), they give the military unilateral 
authority to close or restrict public access to Department of Interior 
administered public lands, they allow wilderness designation to be used 
as an excuse to expand Air Force control beyond lands specifically 
withdrawn for military use. Members of Congress should recognize 
Section 2(f) for what it is--an anti-wilderness initiative that is 
unnecessary, erodes the authority of the Department of Interior, and 
unnecessarily restricts individual freedom that is not restricted on 
other public and private land far closer to the Hill Air Force Bombing 
and Gunnery Range.
    Section 2(h): This section on water rights is one of the most 
troublesome because it diverges from the management language that has 
been used in the vast majority of past wilderness bills. It should go 
without saying that a wilderness requires water, especially a desert 
wilderness like the Pilot Range. The Wilderness Act defines wilderness 
as ``a place where the earth and its community of life----its 
ecosystems--are untrammeled by man.'' Ecosystems require adequate water 
to sustain their plant and animal communities. Yet H.R. 2488 expressly 
prohibits the reservation of any water right for wilderness in the 
Pilot Range, leaving open the possibility that critical watersheds 
could become entirely dewatered, threatening the long-term survival of 
the Pilot Range's wild ecosystems. It is imperative to get a reserved 
water right for this wilderness area--local wildlife, including the 
threatened Lahontan cutthroat trout, need it, and it would set a 
terrible precedent not to get reserved water for this island range 
surrounded by desert. Indeed, the BLM has designated an Area of 
Critical Environmental Concern to protect the two Pilot Range creeks 
that harbor these threatened fish--a very important water-related 
resource. Yet H.R. 2488 includes another unexplained special finding, 
the suggestion that Congress would recognize that ``there is little or 
no water-related resources in the Pilot Range Wilderness.'' The fact 
that these important threatened fish and other wildlife depend on the 
Pilots'' scarce water, should lead to the logical conclusion that the 
scarcity of water should require an express water right.
    In the California Desert Protection Act and the Arizona Desert 
Wilderness Act, Congress expressly provided a water right with 
identical language: ``Congress hereby reserves a quantity of water 
sufficient to fulfill the purposes of this title.'' Water rights are 
adjudicated by State water laws, and nothing in the California or 
Arizona legislation or other wilderness bills has ever superseded State 
law, which means that the water right conferred upon wilderness is 
junior to all existing rights and claims at the time of enactment. 
There would be no usurpation of existing water rights. H.R. 2488 must 
expressly reserve a water right for wilderness by using the same 
language as the California Desert Protection Act and the Arizona Desert 
Wilderness Act, or the legislation will remain unacceptable.
    Section 3: Wilderness release is one of the most important matters 
in legislation of this type because wilderness is a non-renewable 
resource and once it is gone, it is likely gone forever. Therefore, 
Congress and the conservation community have been extremely vigilant in 
safeguarding the opportunity to designate lands in the future that 
qualify but that are not included in a specific piece of legislation at 
the time of its enactment.
    The wilderness release language in H.R. 2488 has two major flaws 
that undermine the wilderness process laid out under the Wilderness Act 
of 1964 and FLPMA. First, Section 3 includes an unprecedented ``hard 
release'' provision--a special, nonstandard finding that non-designated 
lands within the Pilot Range are ``nonsuitable for wilderness 
designation, and are no longer subject to the requirement of section 
603(c) of the Federal Land Policy and Management Act of 1976 pertaining 
to the management of wilderness study areas.'' The finding of 
``nonsuitable for wilderness'' is unwarranted and unexplained, and 
could put these lands off-limits to the BLM and the Congress for future 
wilderness designations. (Furthermore, the finding is unnecessary with 
respect to Wilderness Study Areas established under authority of 
Section 603 of FLPMA since there are no Wilderness Study Areas in the 
general area of the Pilot Range.) Inclusion of this hard release 
language reveals the true intent of H.R. 2488--to serve as a template 
for future wilderness bills that would limit the eventual amount of 
wilderness added to the National Wilderness Preservation System. The 
cumulative intent of this language is to establish a norm of ``hard 
release'' for future wilderness bills--a provision that Congress has 
never approved in the past. Finally, the language in H.R. 2488 is 
ambiguous regarding what lands are being released, as it does not 
specify what constitutes the Pilot Range.
    Second, the bill would terminate the BLM's ongoing designation of 
new Wilderness Study Areas under Section 202 of FLPMA on 15,000 acres 
of Pilot Range lands which the BLM found to have wilderness quality, 
but which this bill omits. Seen in the context of Utah's ongoing 
wilderness controversy, it is clear that H.R. 2488 is meant as a tool, 
directly in Box Elder County and as a precedent elsewhere, to thwart 
completion of BLM's long-overdue designation of additional Wilderness 
Study Areas in Utah. The completion of the 202 review process, and 
adoption of resource plan amendments to establish WSAs for lands found 
recently by BLM to qualify as wilderness, is of preeminent importance 
to the conservation community, and this option should not be precluded 
by the legislation.
    In order to be acceptable, H.R. 2488 must delete ``nonsuitable for 
wilderness designation'' language, references to Section 603 of FLPMA, 
and release language terminating the BLM 202 process. It should also 
clarify language with regard to what constitutes the Pilot Range.
    Section 4: The ``adjacent management'' language in Section 4 would 
restrict BLM from protecting wilderness areas from impairment by 
activities taking place at their borders. This section is unnecessary 
and unacceptable. This unfortunate boilerplate language essentially 
mandates that the agency shall permit any kind of development right up 
to the boundary of wilderness, no matter that there might be different 
designs or locations that would work just as well and would safeguard 
important wilderness values such as silence, solitude, undisturbed 
wildlife, and the like. This section should be deleted.
              summary of problems with management language
    Designation of wilderness entails not only adding special places 
into the National Wilderness Preservation System, it means assuring 
that the concept of wilderness and the standards for managing it are 
maintained. The Southern Utah Wilderness Alliance urges the 
Subcommittee on National Parks and Public Lands to give serious 
consideration to maintaining the integrity of the wilderness idea and 
the Wilderness Act of 1964, not undermining it as H.R. 2488 does 
currently. We will be unable to support the bill unless the reasonable 
changes suggested specifically and generally above are in large measure 
adopted, and would be pleased to work with staff on modifications that 
the committee should adopt.
  h.r. 2488 and utah's wilderness: a terrible template for the future
    H.R. 2488's chief sponsor has indicated he views it as a model for 
designating wilderness one county at a time, throughout Utah. The 
reasons to add what wilderness remains to the system established in 
1964 by Congress are many. Unfortunately, this bill in its present form 
is a terrible model to pursue the goal of designating wilderness.
    First, it is a plainly inadequate proposal for wilderness within 
Box Elder County. It would designate as wilderness only 12 percent of 
the qualifying wildlands in Box Elder County, and less than half the 
qualifying lands in Utah's Pilot Range itself. It would fail to 
designate any wilderness at all in the Newfoundland Mountains 
(recommended by BLM), Crater Island and Silver Island Mountains (both 
recommended by Utah Gov. Mike Leavitt last year), or the Grouse Creek 
Mountains and Grassy Mountains (recommended by the Utah Wilderness 
Coalition and not yet inventoried by the BLM), all located wholly or 
partly in Box Elder County.
    Second, it would create unprecedented weakened wilderness areas, 
allowing the construction of new buildings and equipment, temporary 
roadbuilding, and permanent motorized access in so-called 
``wilderness.''
    Third, without justification it simply hands the keys to BLM 
wilderness over to the Air Force, allowing the military to lock the 
public out of the public lands.
    Fourth, it fails to reserve a water right for the wilderness it 
designates--putting at risk the health of the ecosystem it claims to be 
protecting.
    Fifth, within the Pilot Range it would shut down BLM efforts to 
protect thousands of acres of acknowledged wilderness outside this 
bill's inadequate boundary and establish a Congressional finding that 
lands excluded from wilderness designation in this bill are 
``unsuitable for wilderness designation''--thereby barring BLM from 
protecting these excluded lands as wilderness in the future.
    This model, if followed, would prevent wilderness designation on 
millions of acres of Utah's wilderness and fail to give genuine 
wilderness protection to the few lands actually designated. It would 
lead to future wilderness bills driven by unacceptable management 
language, and weaken the Wilderness Act of 1964. Utah wilderness and 
the National Wilderness Preservation System deserve better. So do the 
majority of Utahns and Americans who value wilderness.
    Noted national author and Utah native Terry Tempest Williams wrote 
this about our duty to protect our remaining wild places:
    The eyes of the future are looking back at us and they are praying 
for us to see beyond our time. They are kneeling with hands clasped 
that we might act with restraint, that we might leave room for the life 
that is destined to come. To protect what is wild is to protect what is 
gentle. Perhaps the wildness we fear is the pause between our own 
heartbeats, the silent space that says we live only by grace. 
Wilderness lives by this same grace. Wild mercy is in our hands.
    H.R. 2488 as currently written lacks the grace and mercy that the 
Pilot Range and National Wilderness Preservation System need you to 
demonstrate. The future of wilderness is in your hands. If excluded 
lands are added and unacceptable management language changed as 
outlined in this testimony, the Southern Utah Wilderness Alliance could 
support H.R. 2488 even though we believe America's Redrock Wilderness 
Act is a far better vehicle for protecting deserving Utah lands as 
wilderness. Without such change, we urge members of the subcommittee to 
reject H.R. 2488. Again we would be pleased to work with staff on 
modifications that the committee should adopt.
                                 ______
                                 
    Mr. Hefley. Thank you, Mr. Young.
    Mr. Pallone?
    Mr. Pallone. I guess what I would like to do is to ask Mr. 
Harja to answer some of the criticisms that Mr. Young made, and 
specifically, Mr. Harja, if there are lands unsuitable for 
wilderness in the Pilot Range, why did the Governor agree to 
this 37,000-acre designation previously? In other words, Mr. 
Young says this has been reduced considerably. Why has that 
occurred if the Governor previously agreed to the 37,000?
    Mr. Harja. Certainly; Governor Leavitt and Secretary 
Babbitt agreed to 1 million acres in the West Desert of Utah 
and agreed to a certain set of languages, language management 
prescriptions. That included 37,000 acres in the Pilot Range. 
However, there were a lot of discussion points and a lot of 
compromises made.
    That 37,000 acres includes, if you look at the map up 
there, all the way to the east, where there is a dark line 
running down north and south, where Tim is pointing it out. The 
boundaries to the west that are shaded there constitute another 
manageable point; that is, there is an old road running right 
along the base of the mountains, and you can see it in the 
lower right-hand picture there; that the state, in fact, argued 
was a manageable boundary.
    So I would answer you that in the spirit of compromise, we 
agreed to the 37,000 acres. Mr. Hansen has chosen to propose 
something different, and we will leave that up to the Congress 
to decide.
    Mr. Pallone. Well, the issue of the roads, again, was 
another issue that Mr. Young brought up, you know, whether 
there are these roads. I mean, if there are these roads in the 
Pilot Range that disqualify certain lands from wilderness, why 
are they not listed on this county road map, the Box Elder 
County road map?
    Mr. Harja. Tim, if you would take those pictures down and 
go back to the map, the boundary--you can see a boundary 
running along the shaded area there, but from the eastern 
proposed boundary, there are about five roads that move west up 
into the mountains. And if we were to--those roads were all 
cherry-stemmed in the original proposal, and there is one 
coming down from the north and one coming up from the south 
right along where he is pointing there.
    There is no connection on the county road system. The 
county has decided that that old road is something that they do 
not need anymore. But if you connect the dots, you can get a 
manageable boundary. You can see a spot where people can find 
the boundary. One of the things the BLM was very concerned 
about out there was finding the boundary. The main road is 
easy, but there is another spot. And so, if you go to the 
eastern boundary, you are going to have it bisected east to 
west by five roads that move right up into the mountains. And 
there is some question about whether that makes sense.
    Mr. Pallone. Now, what about Mr. Young's statements about 
not using the standard military water language, you know, that 
has previously been used? I mean, he suggested this is 
somewhat, you know, extraordinary in terms of the standards 
that are being used.
    Mr. Harja. The military language, is that what you are--
    Mr. Pallone. Well, he suggested that there are a lot of 
extraordinary things going on here, you know, that this is not, 
this, you know, standard military water language about, you 
know, what can be, you know, he referenced that, and I do not 
know all of the details, but I would just like for you to 
respond to it.
    Mr. Harja. Sure; Hill Air Force Base is one of the major 
employers in the State of Utah, and the UTTR is a major part of 
it staying in business. The state and the Department did not 
negotiate Air Force language. That was up to the Air Force to 
discuss in the previous effort. Overflights are easy, but it is 
more than overflights. The Air Force needs to be able to get 
out there to recover accidents. If you go out there on a daily 
basis, you will have B-2s, B-52s, cruise missiles flying by.
    You know, the State of Utah's position has been you need to 
protect the UTTR. Whether this language or any other language 
is appropriate, we are not as vested in the result, as long as 
the UTTR is protected, and I would simply defer to the Air 
Force to state what they think they need.
    Mr. Pallone. Well, it just seemed to me that listening to 
his criticism, that there are a lot more things that could be 
done to maybe meet him halfway on this, and I mean, do you have 
any general response to his comments?
    Mr. Harja. In terms of a number of things: in terms of 
wildlife, I think we disagree. I think we need the ability to 
actively manage wildlife in this area. There are a number of 
reintroduced species that we need to be able to deal with: 
bighorn sheep, chuckers, lahonton cutthroat trout. Wilderness 
does not solve those problems. We need to be able to work the 
land. We need to be able to manipulate it if necessary. We need 
to be able to help prescribe burns and then reseed it.
    I think the appendix that is mentioned allows us to do 
that, and that is why we support that language.
    In terms of water, I do not think you need a Federally-
reserved water right here, mostly because it is not the amount; 
it is that there is drift in the principle, in the mission of 
that language, and it starts to be used to support 
manipulations of the wrong type, and that is why the state is 
concerned. Habitat manipulation is what I am talking about.
    In terms of the Air Force, I have no problem with the 
existing language, as Mr. Fulton has explained. So that is kind 
of where the State of Utah is.
    Mr. Pallone. Thank you.
    Thank you, Mr. Chairman.
    Mr. Hefley. Ms. McCollum?
    Ms. McCollum. Thank you, Mr. Chairman. I apologize that I 
was not here to ask the Air Force some questions; I will submit 
those in writing, and I am assuming, based on the person who 
testified, if I direct those to you, Colonel, that will work. 
Thank you, Colonel.
    To the State of Utah, I am in a bit of a dilemma here. When 
the State of Utah has a management area that the state is 
managing, do you find yourself often going in and working with 
local units of government, changing your definitions, your 
goals on how the state is going to manage its habitat areas, 
its water areas, its land areas when you are conceding as much 
as it appears to be conceded in this language?
    Mr. Harja. The State of Utah, by the structure of 
government, is the proper entity to control general wildlife 
activities on all lands, including BLM lands. We do not control 
on Department of Defense lands; we do not control in national 
parks. But everywhere else, it is the State of Utah that is 
responsible for the habitat.
    Ms. McCollum. And so, Mr. Chairman, sir, what is the goal 
here? To make sure that--will the State of Utah be encouraging 
nonnative species, plants and animals, in, quote, unquote, a 
Federally-designated wilderness area, or does the State of Utah 
look at, you know, well, this is our land, and we are going to 
manage it, and this is kind of okay?
    Mr. Harja. No; the State of Utah attempts to set out 
management plans for each species. Some are natural; some are 
reintroductions. In these particular mountains, there have been 
plans in many years, and there are in fact already bighorn 
sheep that have been reintroduced. It is because they had 
difficulty--the sheep caught diseases from domestic sheep and 
were nearly eliminated.
    We do not believe that we run around indiscriminately 
proposing a species for here or there. However, if you look at 
the lahonton cutthroat trout, for example, they were not 
originally there, and they were moved there before everybody 
discovered that they were threatened. Now that they are there, 
it is the State of Utah's intention to make sure that they 
survive, and we will participate with the Fish and Wildlife 
Service in any recovery plan that may be necessary. We simply 
are not convinced that the simple answer for that is 
wilderness. The answer is much more complex. It involves a 
plan, a recovery plan, that will probably extend well into the 
State of Nevada, and it may involve counting the cutthroat. It 
may involve electroshocking in order to count them.
    Ms. McCollum. Mr. Chairman, I have another question; I have 
limited time.
    Sir, do you, on state lands, do you have buffer zones 
between, you know, state lands and lands that are either 
commercial, highly developed, potential to develop when the 
state has property in Utah that it is trying to set aside or 
protect? Is that a normal thing for the state to try to do?
    Mr. Harja. No, we do not normally look to board buffer 
zones, no.
    Ms. McCollum. We do in Minnesota, so I am just trying to 
get the--to use a bad pun, the lay of the land.
    Mr. Harja. If you are looking at a commercial zone, it is 
local zoning that would do that. We would not.
    Ms. McCollum. So in any of your state-designated lands, you 
have no buffer zones, no zoning ordinances where, you know, 
there is kind of a protection area?
    Mr. Harja. In our state-managed wildlife areas, we do not 
have that, no. I cannot speak for local zoning. I am not aware 
of that. But in terms of our state-managed wildlife areas, we 
do not consider buffer zones.
    Ms. McCollum. And when you--see, what I am struggling with 
is I see that people have tried to come up with a compromise, 
Mr. Chair, Chairs, I should say. People have tried to come up 
with a compromise. But what concerns me about some of the 
language in the bill is that we start having dual meanings for 
the same word, and I always found that that caused more 
problems legislatively back home than it solved anything.
    And so, when we start doing that, I think we set ourselves 
up for more headache and more heartbreak along the way. So that 
is my struggle with this, and that is what I am going to try to 
work on to understand what the words' definitions actually are 
going to mean for today, for tomorrow, and for the future.
    Thank you, Mr. Chairman.
    Mr. Hefley. Mr. Hansen?
    Mr. Hansen. Thank you, Mr. Chairman.
    Mr. Harja, the language in the bill that we have proposed, 
the water language, is that not the same language that we 
worked out with Secretary Babbitt?
    Mr. Harja. Yes, it is, sir.
    Mr. Hansen. It is identical, as I recall; is that correct?
    Mr. Harja. Yes.
    Mr. Hansen. The access to that endangered fish, does our 
bill give us latitude to go in and take care of that, while Mr. 
Young's does not? But what about wildlife? How come they are so 
tough on wildlife? I will ask you, Mr. Young: you talked 
earlier about wildlife, yet you oppose guzzlers.
    Mr. Young. We oppose guzzlers in wilderness land.
    Mr. Hansen. But that is the only way you can give wildlife 
a drink.
    Mr. Young. Indigenous species--
    Mr. Hansen. How can you have it both ways?
    Mr. Young. Indigenous species that belong to the web of 
life that belongs in that wilderness area should be able to 
survive, in particular, if you reserve a water right so that 
there are the water resources that are inherent to that 
location.
    Mr. Hansen. But you oppose wildlife getting a drink unless 
you can go back and say it was indigenous to it before even the 
pioneers came into the valleys; is that not right?
    Mr. Young. No, I would say reserve a water right so that 
the land can be managed as it exists in its wilderness state. 
If you reserve the water right, native species should be able 
to have adequate water.
    Mr. Hansen. Reclaiming my time, the trout were supposedly 
up there. There is a big question whether they were or not; 
really debated, and if we took your language, how do we take 
care of those trout?
    Mr. Young. Well, there are several ways in which the trout 
could be taken care of. Of course, you would include Bettridge 
Creek within the designated wilderness, and so, that watershed 
would be protected. BLM and State Wildlife Management would 
have a number of ways of getting to that.
    Mr. Hansen. They could walk in.
    Mr. Young. They could walk in, and there are alternatives 
to that, as you know, that are possible within designated 
wilderness.
    Mr. Hansen. Like what?
    Mr. Young. Where appropriate, and this is something that 
has to be negotiated on a case-by-case basis, you look at the 
specific area, and you look at alternatives: whether or not the 
resource can adequately be managed through walking in or else, 
in some instances, it would be possible to cherry stem an 
existing route, put a gate on it and have it open only for 
administrative use in designated ways.
    Mr. Hansen. Well, we tried to do that on San Rafael, and 
you folks opposed that. Why?
    Mr. Young. Give me more clarity on specifics of what you 
are asking. It is not clear to me.
    Mr. Hansen. Maybe you do not recall that; on Sids Mountain 
in San Rafael, we had the desert bighorn sheep down there, and 
that was a whole issue.
    Mr. Young. Well, there, you had routes that--
    Mr. Hansen. And you folks testified against it, and you are 
saying the same thing. Now, you are for it. I do not understand 
that.
    Mr. Young. No, I am not really saying the same thing. 
There, we had wilderness study areas and a number of routes 
being claimed that clearly were not necessary to get in and 
monitor the bighorn sheep, protect the habitat for the bighorn.
    Mr. Hansen. Mr. Young, you folks from the environmental 
community always talk about pure wilderness. In fact, it is in 
your language and in your testimony, pure language. I brought 
that up to the gentleman from BLM; I brought that up to the Air 
Force. Pure language is no structures. Pure language is no 
roads. Pure language is no sign of man as if man was never 
there. That is a direct quote out of the law.
    Let me show you this picture. Is that a structure?
    Mr. Young. It is a structure that is cherry-stemmed out of 
the Bald Eagle Mountain unit. It is not included in our 
proposed wilderness.
    Mr. Hansen. Is that a structure?
    Mr. Young. I cannot see what it is. My eyes are bad.
    Mr. Hansen. Well, it is kind of like a telephone pole.
    Mr. Young. Yes; I guess I would answer that, because that 
is close enough; I can see.
    Mr. Hansen. That is a structure.
    Mr. Young. I would answer that in saying that it is 
certainly no more of a structure than the dams in the Lone Peak 
Wilderness Unit.
    Mr. Hansen. Mr. Young, is that a road?
    Mr. Young. That is not, as I see it, a road. It is a route. 
Judge Campbell on June 29--
    Mr. Hansen. Or a way? Would you call it a way?
    Mr. Young. I would call it a user-constructed route.
    Mr. Hansen. On this side is our bill; on that side is your 
bill. What is the difference?
    Mr. Young. That is a good question. One would wonder a 
route that has been closed by BLM and on both sides--I was out 
there last Saturday, perhaps in that specific place and--
    Mr. Hansen. What I am saying basically is the quote that 
you gave the Deseret News saying what good is wilderness--if 
this is your quote, and boy, I hope I never hold you 
accountable for everything that it says in the newspaper; if 
you do not hold me accountable for it, we are even, okay?
    This is the quote: ``What good is a wilderness with 
roads,'' which we have got; ``power lines,'' which we have; 
``buildings and communication towers, SUWA director Larry Young 
questioned.'' So I have that same question: why do we want to 
call it wilderness if we have got all those things in it?
    Mr. Young. Well, we do not have communication sites.
    Mr. Hansen. What is this?
    Mr. Young. I do not believe we have a legal road.
    Mr. Hansen. What is that?
    Mr. Young. Well, it is not a communication site in any 
wilderness--if it is the Bald Eagle Mountain Unit, then, it is 
cherry-stemmed out.
    Mr. Hansen. Now, wait a minute. We are going back to pure 
wilderness. Is pure wilderness to have cherry stems in it, or 
was that a device of Congress to think of a way to take care of 
some problems?
    Mr. Young. Well, I think there is some ideological debate 
over that these days.
    Mr. Hansen. May I quote the Sierra Club on that? But you 
are not representing the Sierra Club, are you?
    Mr. Young. I am the executive director of the Southern Utah 
Wilderness Alliance, and I do not think I will ever be the 
executive director of the Sierra Club.
    Mr. Hansen. I understand they pay more. You ought to look 
for that one.
    [Laughter.]
    Mr. Hansen. Anyway, as you get down to the idea, in effect, 
they have stated that cherry stems are not pure wilderness; 
that that is a device of man that should not even be there; in 
other words, we are doing it for a water system; something like 
this that you mentioned, something like that, a road to get in 
to take care of those fish; they would all be considered a 
cherry stem.
    What I cannot understand, really, is they boil it all down 
to this: at one time, we could have settled this thing with you 
folks at 3.2 million acres. I had an agreement from Clive 
Kincaid, the first guy that had SUWA. Did he not start it?
    Mr. Young. Clive was the original founder. I would be happy 
to give Clive a call and see if he remembers that agreement.
    Mr. Hansen. Whatever; it does not matter to me.
    Anyway, the 3.2, we could have done this thing. Then, you 
went for a long time on 5.7. Strangely enough, when Mr. Babbitt 
did his inventory, inside of a month or so, you went to what? 
9.3? My question is this: in this beautiful area we are looking 
at out here, I cannot understand why you did not have this in 
your 5.7. You did not have any of this in.
    Mr. Young. I would be happy to answer that.
    Mr. Hansen. The floor is yours.
    Mr. Young. There were two primary reasons: first, as BLM 
earlier or the Department of the Interior earlier noted, this 
is an area that historically was checkerboarded with private 
ownership due to the construction of the transcontinental 
railroad. BLM worked very hard to block those lands together so 
that they would be able to have a more manageable piece of 
land, and at that point, they determined that it would be 
appropriate to inventory it to see if it had wilderness 
characteristics. When they did so, they did indeed find that it 
had those characteristics.
    We had a similar experience with that land.
    Mr. Hansen. So you are saying if there is private land or 
state land, you would not consider this as being appropriate.
    Mr. Young. No, that is not what I am saying. I am saying 
the extent of checkerboarding was so intensive, where you had 
every other section--
    Mr. Hansen. But is it not true that you have in your 
proposal of nine-point-whatever it is some checkerboard 
sections?
    Mr. Young. We certainly have state lands within.
    Mr. Hansen. And some private lands?
    Mr. Young. And some private in-holdings, absolutely, as you 
see in all wilderness proposals.
    Mr. Hansen. And that is checkerboarded every bit like this 
was. I will get back to the question: why did you not do it in 
the--why is it now sacred, pristine ground? It has got 
structures in it; it has got roads in it; it has got cattle 
ponds in it; it has got all of that stuff, and now, it is 
sacred and pristine, but just a year or two ago, it was not.
    Mr. Young. Well, again, the first part of that answer is 
what I just said: just as BLM found that it was now appropriate 
to consider it, we did the same. The second is that in our 
original inventory, we made certain not to include anyplace 
that we had not been out on the ground. We knew that there were 
places of wilderness quality that were not included, but we 
sought to be very conservative and very rigorous.
    Mr. Hansen. Let us get to the bottom line: is it not true 
that you just do not want any wilderness put in there because 
it would fold you guys up?
    Mr. Young. I have to tell you from the bottom of my heart, 
Mr. Hansen, that that is not true.
    Mr. Hansen. Then why is it that you went from 3.2 to 5.7 to 
9.3? I bet if I put a bill in here for 9.3, you would want 
12.5. In fact, one of your guys even said that to me.
    Mr. Young. Mr. Hansen, if we had a clean bill with clean 
management language, and if it was for 9.3 million acres with 
reasonable, sensible boundaries, I would quit my job.
    Mr. Hansen. Mr. Young, let me say this to you: the bill 
that is before you right now is everything you asked. It is 
there. It is clean; it has got the boundaries; it has got the 
standards; it is everything. If we went to what you have, we 
have get a convoluted mess. We have roads that people have 
used, that the county has maintained. We have structures; we 
have the whole thing. At one time, you did not even want it. 
And now, all of a sudden, we have proposed it, and you are 
against it.
    I have been on this Committee 21 years, and I have never 
seen SUWA be for anything, even I heard them object to Wayne 
Owens on a few things, your hero. And I may ask another 
question: when Wayne Owens was sitting right here on this 
Committee in the majority, the Democrats had the House; the 
Democrats had the Senate; the Democrats had the President, and 
I was ranking on the Committee that Mr. Hefley now chairs. We 
could not get him to ask for a hearing. Now, why is that?
    Mr. Young. Well, I am not here to speak for Mr. Owens. At 
that time, I was a professor at Brigham Young University, and I 
honestly cannot speak for him.
    Mr. Hansen. From the bottom of your heart, if we gave you a 
pure bill, you would come in here and testify in favor of it; 
is that right?
    Mr. Young. I have already said today--
    Mr. Hansen. I gave you one.
    Mr. Young. I have already said today that if we had clean 
management language without the unprecedented military use 
language; without the unprecedented release language; with 
standard water language and had boundaries that adhered to the 
boundaries in America's Red Rock Wilderness Act for the Pilot 
Range, we would support it.
    Mr. Hansen. Let me correct you on one thing. When you were 
talking about military, you mentioned the California Protection 
Act. I handled it for the minority side; 3 days; we had that 
language in it. Go back and check it. We had that language in 
it.
    Mr. Young. We would be happy to check the language in the 
bill as passed.
    Mr. Hansen. Well, moot point, but it was in it.
    Mr. Young. The bill as passed?
    Mr. Hansen. It was taken out by some environmental groups 
that took it out. We have that same language here. Do you think 
it is important? I would never question your patriotism, Mr. 
Young. I know you are a very patriotic fellow. But I do 
question your folks' understanding of military problems. The 
Colonel was here talking about the necessity of overflights; 
the necessity of high-low, the whole nine yards, and I cannot 
understand why you have put that objection.
    Mr. Young. Well, I suppose for much the same reason that 
the Department of the Interior last year strongly opposed 
similar language.
    Mr. Hansen. On this?
    Mr. Young. Yes, on this military use language.
    Mr. Hansen. We hardly consider Mr. Babbitt the criteria--
well, never mind. I will not get into that.
    Anyway, Mr. Chairman, I think I have gone over my time. I 
apologize, and next time you go over your time in full 
Committee, I will look the other way.
    Thank you, Mr. Young.
    Mr. Hefley. You owe me a little time there, Mr. Hansen, but 
I know this is important to you, and this is your state, and I 
think that is very important to give deference to you and your 
state.
    Let me ask you, Mr. Young: assuming you are not going to 
get what you want, and I think that is a fairly good 
assumption, then, would you be for this if this is all you are 
going to get, because you are adding 20-some-thousand acres of 
wilderness, which is what your agency wants to do, and at this 
point in time, if this was all you were going to get, would you 
be for this bill?
    Mr. Young. In its current form, this bill is unacceptable. 
It contains language that would undermine the Wilderness Act of 
1964; the military use language; the release language; the 
water language. These are things that not only we but 
conservation groups across the country will be very, very 
concerned about.
    Mr. Hefley. You do not think that language needs to be 
modeled to fit the various situations? You have various levels 
of wilderness, obviously, and I have packed on horseback into a 
lot of wilderness areas, and you have different levels of 
wilderness; you have different things going on up in the 
wilderness. You have head gates in some wilderness and not in 
others and salt licks in some wilderness and not in others and 
all kinds of things.
    So you do not think that it is legitimate to designate a 
wilderness with specific language that accommodates that 
particular wilderness and, for instance, the cutthroat trout 
situation here which we have which we do not have everywhere in 
every wilderness?
    Mr. Young. Well, as I noted, we have had more than 100 
wilderness bills passed. All but two have been silent with 
respect to military use language. We would be willing to accept 
military use language similar to those in the Arizona Desert 
Wilderness Act, the California Desert Protection Act and 
language that would protect low-level overflights; language 
that would protect the capacity to maintain equipment on the 
ground.
    Mr. Hefley. We have had some enormous problems, and I think 
the Colonel could tell you that, with this because there is not 
the proper language in there, and you get the wilderness 
designated and so forth, and then, the groups such as yours 
come in and try to shut down the training missions of the 
Defense Department. And, you know, that is very, very 
important. I mean, these are two values that are both 
important.
    Mr. Young. Well, it is interesting.
    Mr. Hefley. But I guess you have to decide whether the 
value to protect the nation is more important than the 
wilderness value or if the two can be compatible if you 
compromise a little bit.
    Mr. Young. We think they can be compatible. There have been 
wilderness study areas within the UTTR for more than 15 years; 
hundreds of thousands of sorties have been flown. The Colonel 
indicated one instance where there was a downed airplane, jet 
plane within a WSA, and the military was able to go in and make 
that retrieval. We have had really no difficulties with the 
interaction between Interior and Defense within the UTTR over 
the past 15 years, even at the same time that we have had 
hundreds of thousands of acres of wilderness study areas that 
we have a keen interest in and other lands that we have a keen 
interest in.
    What we really are seeking is the balance that would come 
with appropriate military use language, language that did not 
take away from us the opportunity to experience wilderness but 
still left the airspace intact; language that still gave the 
military access to existing equipment for maintenance. We are 
very comfortable with that and supportive of that.
    Mr. Hefley. Okay; thank you very much.
    Does the other gentleman from Utah have any questions?
    Mr. Cannon. Thank you; I do have questions, and I would 
appreciate some time.
    Mr. Hefley. Mr. Cannon, you are recognized.
    Mr. Cannon. First of all, I would like to thank Mr. Harja 
and Mr. Young for coming out today. We appreciate that. As a 
matter of fact, I was just thinking, Larry: I do not think you 
have ever testified while I have been here, have you?
    Mr. Young. Not on this side; over on the Senate side, I 
have.
    Mr. Cannon. Well, welcome. Welcome to the lion's den, so to 
speak.
    Mr. Young. Thank you; thank you.
    Mr. Cannon. Your organization has been working with the 
county commissioners in Emery County on the San Rafael bill. Is 
that making progress, or are we at an impasse?
    Mr. Young. I hope it is making progress. We have invested a 
lot of time. I have personally been attending those meetings. I 
have been disheartened by the lack of civil discourse in the 
debate about wilderness designation in our state. I do not 
think it is good for our state, and I hope that I can be a 
positive force for more responsible conversations.
    So I think it has been a good several months as we have 
worked with representatives from Emery County, and we do have a 
major meeting that we will be having over the next few weeks, 
and I think that will be a meeting that will help determine 
whether or not this has been a successful exercise.
    Mr. Cannon. Well, thank you. I want to just for the record 
point out that you and I have always had very pleasant 
conversations, and the discourse between us has been very 
civil, even when we have disagreed pretty stridently. Have you 
identified what the concerns are that remain between those who 
are proposing the Centerfield bill and SUWA?
    Mr. Young. Yes, sir; we have looked at a broad range of 
issues, and everything--because this is a bill that is seeking 
to be a national conservation area rather than a wilderness 
bill per se, it means that management language is much more 
complicated, and the issues at stake are much more complicated. 
So we will be meeting with the county commissioners and I think 
really addressing seven or eight key issues during our multi-
day meeting.
    Mr. Cannon. Okay; great.
    Let me just point out from my perspective that the issues 
are complicated and difficult, but the language should not be; 
if you are dealing with a context for resolving the problems 
over a long period of time that that can be done with lots of 
different kinds of language, and I hope we can make some 
progress on that.
    You said you were attending the meetings. Are you living in 
Utah now?
    Mr. Young. I am living in Utah. I moved back to Utah a 
little over a year ago, and it is nice to be back home.
    Mr. Cannon. No wonder I had not seen you here. Welcome.
    In the discussion of Centerfield, I mean, embodied in that 
discussion is that you are dealing with now, instead of one 
large wilderness bill for the whole state, you are dealing with 
wilderness and other concepts. Is that something that your 
organization has now decided to live with so that, in fact, we 
will be able to take some of these smaller pieces; solve some 
of the problems that are critical now; and move on rather than 
tying everything up until we can do it all in one big bundle?
    Mr. Young. Well, we think that the best way to approach 
this issue is in a comprehensive, statewide fashion. And so, we 
remain strong supporters of America's Red Rock Wilderness Act, 
and we are excited about the progress and the momentum building 
for that. However, in the 106th Congress and in the 107th 
Congress, we have demonstrated in several instances a 
willingness to engage in serious conversations. Unfortunately 
with the current bill, we were not invited to have similar 
input, even though I think there were opportunities for that, 
even opportunities within a week of the time that the bill was 
filed.
    Mr. Cannon. When you say the current bill, you are talking 
about the Pilot Range--
    Mr. Young. Correct.
    Mr. Cannon. Okay; right, because you have been in 
conversation with our Centerfield guy--
    Mr. Young. Absolutely.
    Mr. Cannon. --for a year now, right?
    Mr. Young. Absolutely.
    Mr. Cannon. Good; but moving to the Pilot Range; now, in 
fact, I want to ask one other question before I get to the 
current bill. Are you familiar with the theory of the 
recreational opportunity spectrum?
    Mr. Young. That is a new one to me.
    Mr. Cannon. Okay; let me ask you this: do you view the 
wilderness designation as a recreational designation or a land 
protection designation? And I do not know if you have a 
policy--I have talked to several members of SUWA who view it as 
recreational. So if you can answer for SUWA and for yourself, I 
would appreciate that.
    Mr. Young. For SUWA and for myself, the values inherent in 
wilderness extend far beyond recreation itself. Those values 
include protecting a range of resources: archaeological, 
scientific, wildlife. They include values of basic 
spirituality; so a range of values that extend far beyond 
recreation itself.
    Mr. Cannon. Thank you. I see my time has expired and yield 
back.
    Mr. Hansen. [Presiding] Do you want some more time?
    Mr. Cannon. Yes, actually.
    Mr. Hansen. Well, I will give it to you in just a minute.
    [Laughter.]
    Mr. Hansen. Let me ask you this: and I am very grateful to 
see this. I did not think I would ever see the day where you 
were working intensively with county commissioners in Emery 
County on San Rafael.
    Mr. Young. Yes; it was not a process we initiated. We think 
that the most appropriate way to resolve this issue is with a 
comprehensive, statewide bill. With the West Desert Initiative 
between the Governor and the Secretary, we sought to be 
productive in our involvement. In the San Rafael Swell area in 
Emery County, we have sought to be responsible and productive 
in our involvement. And so, even though these are not our 
bills, and they are not--it is not a process that we would 
construct in this particular fashion, we have tried to go to 
the table and be strong advocates for protecting what wild 
places remain but also engage in responsible conversation.
    Mr. Hansen. Well, you have made an abrupt change from the 
memorandum that I have received that says that you would not 
involve yourself in that, and we tried to get you folks to do 
that many, many times. Was it Ken Rait who was on Take Two with 
the then-Director of Natural Resources Ted Stewart and said 
they did not do it? And then, I was on Take Two with another 
one who said they would not do it, and no one ever responded to 
our correspondence when we asked you, the Governor and I--not 
you; I am referring to the Southern Utah Wilderness Alliance--
to work with us on this wilderness bill that we introduced, 
which was statewide, which you have now said you would rather 
go statewide.
    Would it not have been better if you had come to the table 
instead of taking that hard line position? And we could have 
worked that out possibly, maybe the Governor and Babbitt and 
SUWA and the Sierra Club and the cattlemen and the ATVs and the 
Backcountry Pilots? We could have all sat down and worked it 
out. That is how we did the 1984 Wilderness Bill that passed. 
That was the only way we got it to go. But we could not get you 
folks to do it. Now, you come and tell this Committee that that 
is what you want to do. What caused the change?
    Mr. Young. Two responses to that: the bill in the 104th 
Congress, as introduced, was deeply flawed. We sought to 
participate in a series of public hearings that were conducted 
throughout the state. We sought to submit public comment. But 
the resulting product fell far, far, far from the vision that 
the conservation community has and was unacceptable.
    Mr. Hansen. Who did you talk to? I was the author of that 
bill. No one came to me. I had people come to the hearing that 
criticized it. We even asked. I remember Governor Leavitt in 
Nephi asking to have people come and sit down and talk about 
it. Not one person showed up. And then, we got this--was it Ken 
Rait? Am I saying it right?
    Mr. Young. Yes, you are; that is--
    Mr. Hansen. Mr. Rait put a memorandum out, and I am sure 
you have got a copy of it. If you do not, I will furnish it to 
you. It said we will not do that. Now, you are telling this 
Committee today that you now intend to sit down and become 
players on these things. Is that correct?
    Mr. Young. What I am telling you is that since January 
1999, we have sat down in two different settings: first in the 
West Desert, second in the San Rafael Swell area, and we have 
sought to engage in constructive conversations. These are not 
bills that we are sponsors of. They are not bills that we are 
encouraging. But we are willing to sit down and see if there is 
sufficient common ground to fashion bills in these areas.
    Mr. Hansen. I commend you for that. I hope that is the way 
you go, because you are never going to get this thing done--I 
will guarantee it; when we are both pushing up daisies, Mr. 
Young, unless people will sit down and talk.
    Mr. Young. Well, one of the challenges--
    Mr. Hansen. There is part of your testimony that says come, 
let us reason together, and I think that if you folks would do 
that, this thing would have been done 10 years ago. But you 
have always taken that hard line. This is the most dramatic 
testimony I have ever heard from SUWA that you just gave, that 
you have changed your way of doing business; you will now sit 
down and work on bills.
    Now, you added another thing I kind of liked a minute ago: 
you said we should be civil in these things. I could not agree 
more.
    Mr. Young. One of the challenges, from my perspective--
    Mr. Hansen. Excuse me; go ahead.
    Mr. Young. One of the challenges from my perspective is we 
have so often a reification of images of one another. I have 
heard again and again and again that the only reason that SUWA 
exists is to raise money, that we are not interested in 
designated wilderness. It is not a true statement. It is not 
why I left my tenured professorship at Brigham Young 
University; took a pay cut in order to become executive 
director of the Southern Utah Wilderness Alliance. It simply is 
not true.
    Mr. Hansen. Well, let me say this: let us go back to the 
civil thing. Do you think it is fair when we get into these 
issues for your people or our people to make personal attacks 
on you?
    Mr. Young. You know, I always feel that we never make 
progress when we call somebody dumb. Now, their bill may be 
dumb, or their proposal may be dumb, and I think that is okay 
to say. But when we end up calling the person dumb, yes, I 
prefer not to do that.
    Now, do I control everyone who belongs to the Southern Utah 
Wilderness Alliance? Absolutely not. Excuse me.
    Mr. Hansen. Excuse me. Well, you would be surprised how 
many things we have traced, written in the paper, to Southern 
Utah Wilderness Alliance and the Sierra Club. I wish it was 
just a mild word like dumb: accusing them of being on the take; 
accusing them of brown envelopes being shoved under their door 
and all that stuff; I do not think that is called for.
    I cannot think of a time when anyone on this Committee ever 
personally took you on, Ken Rait on, Clive Kincaid on or any of 
those people personally. Now, we will disagree with you. That 
is fair. That is the fun of it. That is the good part of it. It 
is like in a debate, being one of the old dogs here, I have 
been asked to tell a lot of Republicans how to run, and our 
first statement is do not ever get into personalities. Are 
issues fair? Absolutely, issues are fair.
    I think you folks have substantially hurt your cause by 
making personal attacks on a lot of people.
    I yield to whatever you want, because I am leaving, and I 
am going to give you this.
    [Laughter.]
    Mr. Cannon. Hallelujah!
    Mr. Young. Mr. Chairman!
    Mr. Hansen. He has been waiting to be a Chairman for--how 
long you been here now?
    Mr. Cannon. I thought I was going to make it this time, 
too, but not in this Committee.
    Mr. Hansen. Let me thank you, Mr. Young. I appreciate your 
coming. Mr. Harja, thanks so very much, and you folks who have 
sat through this very interesting exchange.
    Mr. Cannon. [Presiding] And let me point out that this is 
not long. I am now 1 minute late for a meeting that will take 
me 2 minutes to get to.
    Mr. Hansen. At the end, you have got to adjourn it, you 
know.
    Mr. Cannon. I think I can get those words.
    But I do have a followup that I wanted to do. I would 
encourage you to take a look, and we have some information on 
the recreational opportunity spectrum. It is an intriguing 
idea, because the concept is that what you are doing with the 
wilderness is designating a way to have recreation, and the 
array of recreation, one of those concepts is what you 
mentioned; I think you called it spiritual. Maybe people have 
different views, but it is the ability to be away from modern 
society.
    And it seems to me that there is a theoretical problem that 
I hope you will begin to struggle with. In fact, let me just 
divert, and I wanted to say this when Jim was here; but for the 
record, I wanted to be clear that since you have taken over, 
and it has gotten better as you have asserted your role there, 
the personal attacks and the personal offensiveness has 
declined dramatically. Now, we have differed very much on what 
the truth is, and I have been very direct with you when I 
believed that your organization had stepped over the line.
    But the civility of the discussion has not just been 
unilateral. I hope that I have contributed to that; you 
certainly have contributed to the civility of that discussion.
    But back to the recreational opportunity spectrum. There is 
a theoretical problem that is--responding the way that you did 
to your last question, the last question I asked, which is 
there are an array of values that are important in wilderness; 
it seems to me that that argument--if you are arguing that 
wilderness is important because it is recreational; because the 
concept is getting distance from modern mankind, that is the 
context in which you get the largest amount of wilderness, 
because you want to create places where you can actually get 
away.
    If, on the other hand, you are talking about archaeological 
or spiritual or recreational or other limited kinds of 
recreational, other kinds of uses of land under the designation 
of wilderness, then, you have the problem of complexity, and 
the problem with the wilderness concept is it is not complex. 
The wilderness process is a heavy-handed, harsh, clear 
designation and, in fact, is being used right now to impede the 
process of controlling wildfires in Colorado, where they are 
allowing chainsaws to go in but no dumping of slurry from 
airplanes or helicopters, and presumably, if we get firemen in 
danger, those firemen will be extracted by helicopter, but, you 
know, the rigidity of the act has been demonstrated under those 
circumstances.
    So what I want to do is give you an opportunity to respond 
to the complexity that you have indicated you think is 
important in the wilderness concept and how you deal with those 
with wilderness legislation or designation as opposed to a more 
complex legislative structure.
    Mr. Young. Well, in the past 37 years, since the Wilderness 
Act was passed, we have I think entered approximately 104 
million acres of land into the National Wilderness Preservation 
System. I may be off a few million acres but somewhere in that 
vicinity, and I think that we are a better nation for that. I 
think that the Wilderness Act, which provides statutory 
protection in the law, has served us very well.
    One of our concerns is when we create these wilderness 
bills with exceptions, with language that undermines genuine 
wilderness protection with unprecedented language like that 
contained in H.R. 2488 that we weaken the National Wilderness 
Preservation System. And we think that lands that are worthy of 
wilderness designation should be afforded the protection 
envisioned by the 1964 Wilderness Act.
    Mr. Cannon. If I might, with the forest wilderness that we 
have done in Utah, for instance, we have protected watershed. 
It is an incredibly important thing and very successful. But in 
your statement, if I might just point out, you are talking 
about preservation and protection of land in the context of 
wilderness, and I think the question I asked you is do you view 
this as protection of the land, or do you view it as a 
recreational? You answered it is complex.
    Do you want to readdress that? Are we dealing with 
protecting land, or are we dealing with the opportunity for 
human beings to have a different kind of experience that can 
only be had in the context of wilderness?
    Mr. Young. Well--
    Mr. Cannon. Then, again, how do we deal with the 
complexities that those two very different concepts hold? I do 
not know that you can answer that. I just want to suggest that 
the issue here is not one of philosophy purity; it is one of 
balancing the competing interests that are there.
    And moving away from that, I would like to ask just another 
question, and I may have missed this because I was not in here, 
but you have said that the Pilot Range has wilderness 
characteristics. At the same time, you are complaining about 
the overflights, which would be inconsistent with wilderness 
characteristics. Is your position that we ought to reclaim this 
from the overflights? In other words, are you going from the 
wilderness, the approach to wilderness backwards from what the 
concept originally was, which was to identify wild areas and 
saying we could reclaim these wild areas by eliminating 
overflights?
    Mr. Young. I have stated already, and I do not think you 
were here, that we would be willing to accept military use 
language similar to that in the Arizona Desert Wilderness Act, 
the California Desert Protection Act. Our position, I think, is 
that wilderness is a place where the presence of man is largely 
unnoticed, and yes, it may be that on occasional days for a few 
seconds, there is a low-level overflight that is intrusive, but 
it is a fairly short-term intrusion, and the experience of 
wilderness is not fundamentally compromised.
    Mr. Cannon. So the idea that there are currently 
overflights in your mind does not discount the area as 
wilderness?
    Mr. Young. We have felt very good about the capacity for 
wilderness study areas within the UTTR to retain their 
wilderness characteristic over the past 15 years or so that 
those two entities, wilderness study areas and the UTTR, have 
coexisted?
    Mr. Cannon. Great; thank you.
    Mr. Harja, do you have anything that you would like to add 
at all to this debate?
    Mr. Harja. A little bit. One, I would just like to note for 
the record that Mr. Young mentioned Bettridge Creek at the 
south end of the proposal there. I believe there is a road that 
parallels the creek, and there is an aqueduct, and the idea of 
cherry-stemming the road would also encompass the creek. So I 
am not sure you are going to get a lot of protection there.
    Second, I think the State of Utah would agree with Mr. 
Hansen and yourself that this is a balancing process, and I do 
not believe there is any wilderness in the Lower 48. If you 
want wilderness, you need to go to Siberia or Alaska. What 
there is is rural land. That rural land is being used--has been 
used since the Indian times and the pioneers for a lot of 
purposes. What the state is interested in is the balance 
between those uses and setting aside this land as some sort of 
protection zone, which we have agreed to do.
    We have all of those appendices that were previous 
Congressional statements about how those lands were managed. 
They include wildlife management techniques; they include 
grazing; and we would argue they include the water needs. We 
support that. That is a compromise. It is there; it is law, and 
we support the reaffirmation of that here.
    That is it; thank you, Congressman.
    Mr. Cannon. Thank you; actually, another question occurs 
which I would like to ask you, Mr. Young. We had Teddy 
Roosevelt, III in our Committee the other day, and I had a very 
interesting discussion with him. I asked him and would like to 
just repeat my question to you about the possibility of doing 
a--are you familiar with Deseret Ranch in northern Utah and the 
concept of holistic resource management?
    Mr. Young. Yes, I am.
    Mr. Cannon. Would you support or oppose or do you have an 
idea yet an experiment in the Grand Staircase-Escalante 
National Monument that would utilize the techniques of holistic 
resource management in that area? You realize that the rainfall 
is about the same; you know, this is a big, huge area in the 
monument, of course, but in much of the monument, the rainfall 
is about the same as that very lush Deseret Ranch. Is that 
something that you personally or that your organization would 
be interested in seeing happen?
    Mr. Young. While we as an organization do not have a formal 
position, I suspect that as long as the management technique 
did not compromise the integrity of the wilderness-quality 
lands contained in America's Red Rock Wilderness Act, it would 
not be an issue that we would address. But if it did compromise 
those lands as the holistic management strategy was 
implemented, then we would have concerns. So it is an open 
question that we would have to look at.
    Mr. Cannon. Mr. Roosevelt's response was, you know, the 
bison used to wander the area; they chewed the grass down so it 
had the ability to grow up more robustly. They left biotic 
material; they broke up the surface. He understood the concept 
and then went on to say that if there was a small study that 
the groups that he is associated with would tend to support 
that.
    I asked him if 100,000 acres would be viewed as a small 
study; he thought that that would be. We are not going to get a 
consensus, I am sure, on every detail, but you recognize the 
difference in the lushness of the Deseret Ranch and what we now 
have in southern Utah. Is that something in principle that you 
personally would like to see happen?
    Mr. Young. Would I like to see the experiment?
    Mr. Cannon. The experiment, relatively small, 100,000 
acres.
    Mr. Young. As I said, we would have to look at the 
specifics. We would have to see if it would compromise 
wilderness quality lands. If it did not, then it is probably an 
issue that lies beyond the realm of our organization's focus, 
but we most likely would not have a problem. The question is 
what would its impact be on wilderness quality lands.
    Mr. Cannon. As I understand what you are saying is that if 
this is outside the Red Rock Wilderness area, and I do not know 
how much is outside; I mean, you know, that is a huge area. I 
do not know if you could do that experiment outside. But if it 
were outside, you would not care. On the other hand, if it were 
inside some of those areas, you would care. Is it possible to 
come to an agreement? Should we pursue discussion with you, or 
should we go about it with other groups?
    Mr. Young. Oh, I think if the holistic system would 
compromise wilderness, when we seek passage of America's Red 
Rock Wilderness Act, and so, we do not have an antigrazing 
provision within that bill.
    Mr. Cannon. Good, because I think that the Cow Free in '93, 
No More Moo in '92 movement by some of the environmental groups 
was deeply destructive to the environment, and I hope that we 
can turn that around. Just for the record, the Deseret Ranch is 
a remarkable place that is healthy and robust and highly 
productive of life, and I think that the area where I grew up, 
to a large degree, in southern Utah that is now in that 
monument could have the same robustness, and I would like to 
see that happen.
    So we will probably deal with you again on that in the 
future. Thank you again very much for your time.
    John, did you have something you wanted to add? You look 
like--
    Mr. Harja. I am fine.
    Mr. Cannon. Okay; we thank you, and with that, this 
Committee will be in recess--not in recess; it is actually 
adjourned.
    [Whereupon, at 4:43 p.m., the Subcommittee was adjourned.]

                                   - 

</pre></body></html>
